APPENDIX

TABLE OF CONTENTS
Appendix A:

Opinion of the Texas Court of
Criminal Appeals
(April 28, 2021) ............................. 1a

Appendix B:

Findings of Fact and
Conclusions of Law of the
176th Judicial District
Court of Harris County, Texas
(June 15, 2020) .............................. 4a

Appendix C:

Texas Court of Criminal
Appeals Remand Order
(November 7, 2018).................... 116a

Appendix D:

Opinion of the Texas Court of
Criminal Appeals
(November 5, 2014).................... 120a

Appendix E:

Concurrence of Judge Price
with Opinion of the Texas
Court of Criminal Appeals
(November 5, 2014).................... 175a

Appendix F:

Findings of Fact and
Conclusions of Law of the
176th Judicial District Court
of Harris County, Texas
(December 31, 2012) .................. 177a

1a
APPENDIX A

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
WR-55,161-02
EX PARTE ERIC DEWAYNE CATHEY
ON APPLICATION FOR WRIT OF HABEAS
CORPUS IN CAUSE NO. 713189-B IN THE
176th DISTRICT COURT OF HARRIS
COUNTY
Per curiam.
ORDER
This is a subsequent application for a writ of habeas
corpus in a capital case that Applicant filed pursuant
to Article 11.071, Section 5 of the Texas Code of
Criminal Procedure.
Applicant alleged in this
application that he is intellectually disabled and
ineligible for the death penalty under the United
States Supreme Court’s holding in Atkins v. Virginia,
536 U.S. 304 (2002).
We denied relief on this
application in 2014. Ex parte Cathey, 451 S.W.3d 1
(Tex. Crim. App. 2014).

2a
In 2017, the United States Supreme Court
concluded that some of the standards in our caselaw
did not comport with the Eighth Amendment’s
requirements regarding an intellectual disability
determination. Moore v. Texas, 137 S. Ct. 1039 (2017)
(“Moore I”). On November 7, 2018, we exercised our
authority to reconsider this case on our own initiative.
We remanded this case to the convicting court “to
consider all of the evidence in light of the Moore v.
Texas opinion and make a new recommendation to
this Court on the issue of intellectual disability.”
After holding a hearing, the convicting court made
findings of fact and conclusions of law recommending
that we grant relief on Applicant’s claim of
intellectual disability. We disagree.
Applicant continues to rely upon his 1996 WAIS-R
IQ score of 77 to establish that he is intellectually
disabled. Taking the standard error of measurement
(“SEM”) into account, Applicant’s IQ score range is
between 72 and 82.
Although we agree that
factfinders may consider the concept of the “Flynn
Effect” in assessing the validity of a WAIS-R IQ test
score, we decline to subtract points from Applicant’s
obtained IQ score. Cathey, 451 S.W.3d at 5. On these
facts, Applicant has failed to show the requisite
deficits in intellectual functioning. See Moore v.
Texas, 139 S. Ct. 666, 668 (2019) (“Moore II”) (stating
that, to make a finding of intellectual disability, a
court must see “deficits in intellectual functioning—
primarily a test-related criterion”).
Applicant complains that when we rejected his
intellectual disability claim in 2014, we improperly

3a
relied on the Briseno 1 factors and focused on his
“perceived adaptive strengths” and “behavior while
incarcerated.” Even if we disregard these factors, we
may still conclude based on school records and trial
testimony that Applicant has failed to prove adaptive
deficits. And we will not credit the results of the
Vineland Adaptive Behavior Scales administered by
Dr. Fletcher. Regardless of whether or not the
Vineland can be administered retrospectively, the
Vineland reporters in this case were highly motivated
to misremember Applicant’s adaptive abilities.
Cathey, 451 S.W.3d at 20. The adaptive behavior
Applicant’s sister reported to Fletcher as part of the
Vineland test was also contradicted by her trial
testimony. Id.
Under the circumstances presented in this case,
Applicant has not established that he is intellectually
disabled according to the standards articulated by the
United States Supreme Court in Moore I and Moore
II. Based upon our own review, we deny relief on
Applicant’s intellectual disability claim.
IT IS SO ORDERED THIS THE 28TH DAY OF
APRIL, 2021.
Do Not Publish

1 Ex parte Briseno, 135 S.W.3d 1 (Tex. Crim. App. 2004).

4a
APPENDIX B
IN THE 176TH JUDICIAL DISTRICT COURT
OF HARRIS COUNTY, TEXAS
EX PARTE ERIC
DEWAYNE CATHEY,
Applicant.

§
§
§
§
§

TRIAL NO.
713189-B
CCA NO. WR55,161-02

COURT’S FINDINGS OF FACT AND
CONCLUSIONS OF LAW
On November 7, 2018, the Texas Court of Criminal
Appeals remanded this cause to the Court for
consideration of all of the evidence regarding
Applicant Eric DeWayne Cathey’s (“Mr. Cathey”)
claim in his Application for Post-Conviction Writ of
Habeas Corpus, in light of the Supreme Court’s recent
opinion in Moore v. Texas, 137 S. Ct. 1039 (2017). In
this claim, Mr. Cathey alleged that he is a person of
mental retardation 1 and thus entitled to habeas relief
under the requirements of the Supreme Court’s
1 The term mental retardation is replaced by the term

intellectual disability in the American Association on
Intellectual
and
Developmental
Disability
Manual.
INTELLECTUAL DISABILITY: DEFINITIONS, CLASSIFICATION, AND
SYSTEMS OF SUPPORT (11th ed. 2010) (“AAIDD Manual”) and the
American Psychological Association’s DIAGNOSTIC AND
STATISTICAL MANUAL OF MENTAL DISORDERS (5th ed. 2013)
(“DSM-5”). The terms mental retardation and intellectual
disability are used interchangeably herein.

5a
decision in Atkins v. Virginia, 536 U.S. 304 (2002),
which held that the execution of defendants with
mental retardation violates the Eighth Amendment to
the U.S. Constitution.
Now, the Court of Criminal Appeals has asked this
Court to “make a new recommendation to the Court
on the issue of intellectual disability,” considering all
of the evidence of record and any new evidence from
“mental health experts and any witnesses whose
evidence the court determines is germane to the
question of intellectual disability” in light of the Moore
v. Texas opinion (Moore I). Ex parte Cathey, 2018 Tex.
Crim. App. Unpub. 2018 WL 5817199 (Tex. Crim.
App. Nov. 7, 2018) (per curiam) (unpublished). The
United States Supreme Court has since issued a
second opinion in Moore v. Texas, 586 U.S. _____
(2019) (Moore II), again reversing the Court of
Criminal Appeals’ determination that the applicant
failed to show adaptive deficits sufficient to support a
diagnosis of intellectual disability. These findings
therefore discuss the evidence in light of both Moore I
and Moore II.
In 2010 this Court held an evidentiary hearing to
determine whether Mr. Cathey is a person of mental
retardation and also for evaluating evidence
concerning the following four issues presented by the
Texas Court of Criminal Appeals:
(1) the scientific validity and reliability of the
‘Flynn Effect;’
(2) whether clinical practitioners who are
ordinarily called upon to diagnose mental
retardation for purposes outside of the criminal
justice system use and apply the ‘Flynn Effect’

6a
to I.Q. test results when making their
particularized diagnoses of mental retardation;
(3) whether the application of the ‘Flynn Effect’ to
individual test results is generally accepted
scientific procedure in
the
pertinent
professional community outside of the criminal
justice system; and
(4) the known or potential ‘error rate’ of the ‘Flynn
Effect’ as it applies to a specific I.Q. test result.
Ex Parte Cathey, 2008 Tex. Crim. App. Unpub. LEXIS
850 (Tex. Crim. App. Nov. 18, 2008) (per curiam)
(unpublished).
After reviewing the testimony of witnesses and the
evidence presented at the 2010 hearing, the Court
found that Mr. Cathey had proven by a preponderance
of the evidence that he is a person with mental
retardation and also found that the Flynn Effect is a
scientifically valid and real phenomenon that should
be applied to intellectual functioning test scores in
death penalty cases to correct for norm obsolescence,
and issued Findings of Fact and Conclusions of Law
in support. However, in 2014 the Court of Criminal
Appeals disregarded these findings and denied Mr.
Cathey relief on his subsequent application for writ of
habeas corpus. Ex parte Cathey, 451 S.W.3d 1 (Tex.
Crim. App. 2014).
Upon consideration of all of the evidence properly
before it, in light of Moore v. Texas, the Court finds
that Mr. Cathey has proven by a preponderance of the
evidence that he is a person with intellectual
disability and also finds that the Flynn Effect is a
scientifically valid and real phenomenon that should
be applied to intellectual functioning test scores in
death penalty cases to correct for norm obsolescence,

7a
and issues these Findings of Fact and Conclusions of
Law.
FINDINGS OF FACT
I. PROCEDURAL HISTORY
1. Applicant Eric DeWayne Cathey (“Mr. Cathey”)
was convicted of capital murder in the 176th Criminal
District Court of Harris County, Texas in Cause No.
713189 on March 12, 1997, and sentenced to death on
March 14, 1997.
2. On March 20, 1997, Mr. Cathey filed a notice of
appeal to the Texas Court of Criminal Appeals. The
Court of Criminal Appeals affirmed the conviction and
sentence on direct appeal on April 21, 1999. Cathey v.
State, 992 S.W.2d 460 (Tex. Crim. App. 1999).
3. On September 16, 1999, Mr. Cathey filed a review
petition to the Supreme Court. The Supreme Court
denied Mr. Cathey’s petition for writ of certiorari on
January 10, 2000. Cathey v. Texas, 528 U.S. 1082
(2000).
4. On March 15, 1999, Mr. Cathey filed an
application for state post-conviction relief under Tex.
Code Crim. Proc., art. 11.071. The Court of Criminal
Appeals denied the application on April 2, 2003. Ex
Parte Cathey, Writ. No. 55,161-01 (Tex. Crim, App.
Apr. 2, 2003) (unpublished).
5. On April 2, 2004, Mr. Cathey filed his federal
habeas petition in the United States District Court for
the Southern District of Texas under 28 U.S.C. § 2254.
The district court denied habeas relief on December
23, 2004.
6. On May 5, 2005, Mr. Cathey filed an application
for certificate of appealability to the Fifth Circuit. The

8a
Fifth Circuit denied Mr. Cathey’s application on April
7, 2006. Cathey v. Dretke, 174 Fed. App’x 841 (5th Cir.
2006).
7. On November 17, 2008, Mr. Cathey filed an
Application for Postconviction Writ of Habeas Corpus
and Motion for Stay of Execution under Tex. Code
Crim. Proc., art. 11.071. By order dated November 18,
2008, the Court of Criminal Appeals granted Mr.
Cathey’s motion to stay and remanded the writ to the
176th Criminal District Court, Harris County, Texas
for a hearing on Mr. Cathey’s claims. Ex Parte Cathey,
2008 Tex. Crim. App. Unpub. LEXIS 850 (Tex. Crim.
App. Nov. 18, 2008) (per curiam) (unpublished). As a
part of the factual inquiry on the issue of mental
retardation, the Court of Criminal Appeals required
the trial court to evaluate evidence concerning the
Flynn Effect. Id.
8. On January 25-29, 2010, this Court conducted an
evidentiary hearing to determine whether Mr. Cathey
is a person of mental retardation and also to address
the four issues specific to the application of the Flynn
Effect mandated for review by the Texas Court of
Criminal Appeals.
9. On December 31, 2012, the Court found that Mr.
Cathey had proven by a preponderance of the evidence
that he is a person with mental retardation and also
found that the Flynn Effect is a scientifically valid and
real phenomenon that should be applied to
intellectual functioning test scores in death penalty
cases to correct for norm obsolescence, and issued
Findings of Fact and Conclusions of Law in support.
10. On November 5, 2014, however, the Court of
Criminal Appeals disregarded this Court’s findings

9a
and denied Mr. Cathey relief on his subsequent
application for writ of habeas corpus. Ex parte Cathey,
451 S.W,3d 1 (Tex. Crim. App. 2014).
11. On March 28, 2017, the United States
Supreme Court decided Moore v. Texas, 137 S. Ct.
1039 (2017), holding that the Texas Court of Criminal
Appeals (CCA) had unconstitutionally disregarded
established medical standards for intellectual
disability by focusing on the applicant’s adaptive
strengths rather than his deficiencies and by relying
on the nonclinical Briseno factors.
12. On May 11, 2017, relying in part on Moore, the
Fifth Circuit preliminarily authorized Mr. Cathey to
file a second habeas petition in his federal case,
finding that he made a prima facie case of intellectual
disability. 2 In re Cathey, 857 F.3d 221 (5th Cir. 2017).
But before proceeding with a second federal habeas
petition, Mr. Cathey moved for a stay and abeyance so
that he could seek reconsideration from the Court of
Criminal Appeals.
13. On July 28, 2017, the Southern District of
Texas stayed the federal proceedings so that Mr.
Cathey could file a suggestion of rehearing in the
Court of Criminal Appeals. Cathey v. Davis, No. 4:15cv-02883, Order (S.D. Tex. July 28, 2017). On
September 26, 2017, Mr. Cathey filed a Suggestion for
the Court to Reconsider Case on its Own Initiative. By
order dated November 7, 2018, the Court of Criminal
Appeals exercised its authority to reconsider the case
on its own initiative, and remanded the cause to this
Court to “consider all of the evidence in light of the
2 Mr. Cathey’s first federal habeas petition was filed and

denied in 2004.

10a
Moore v. Texas opinion and make a new
recommendation to [the Court of Criminal Appeals]
on the issue of intellectual disability.” Ex parte
Cathey, 2018 Tex. Crim. App. Unpub. 2018 WL
5817199 (Tex. Crim. App. Nov. 7, 2018) (per curiam)
(unpublished).
14. In accord with the Court of Criminal Appeals
remand order, the Court determined that a writ
evidentiary hearing was necessary to further develop
the habeas record in light of Moore. The hearing was
limited to an examination of new science and
scholarship in the field of ID that has been developed
since the 2010 hearing, and whether, in light of this
science and scholarship, Fletcher and/or Proctor
changed their respective clinical opinions.
15. The Court Finds that the DSM-5 and the
AAIDD Manual; USER’S GUIDE TO INTELLECTUAL
DISABILITY:
DEFINITION,
CLASSIFICATION, AND
SYSTEMS OF SUPPORTS (11th ed. 2012) (“User’s
Guide:”) 3] has been updated.
II. THE 2010 EVIDENTIARY HEARING
16. On January 25-29, 2010, this Court conducted
an evidentiary hearing to determine whether Mr.
Cathey is a person of mental retardation and also to
address the four issues specific to the application of
the Flynn Effect mandated for review by the Texas
Court of Criminal Appeals. Mr. Cathey appeared in
person and through his counsel of record.
17.

Mr. Cathey presented live testimony from the

3 The 11th edition User’s Guide, published after the 2010

Evidentiary Hearing, has replaced the previous 10th edition
which was cited in the Findings of Fact and Conclusions of Law
issued by the Court on December 31,2012.

11a
following experts:
a. James Robert Flynn, Ph.D., the discoverer of and
world-renowned expert on the scientific
phenomenon known as the Flynn Effect;
b. Jack M. Fletcher, Ph.D., an expert clinical
neuropsychologist with specific expertise in
classification
and
measurement
issues
pertaining to the diagnosis of people with
disabilities; and
c. Alan Steven Kaufman, Ph.D., an expert
psychologist and a top scholar on the
development and interpretation of intelligence
tests.
d. Mr.
Cathey
presented
testimony
4
affidavit from the following people:

by

e. Greg Olley, Ph.D., an expert psychologist and
chair of the Division 33 American Psychological
Association Committee on Mental Retardation
(DX 47) 5;
f. Charlotte Ross, Mr. Cathey’s older sister (DX
42);
g. Robert Charles Jr., Mr. Cathey’s brother (DX
43);
4 The Court admitted the affidavits as exhibits during the

evidentiary hearing. “The Court of Criminal Appeals will defer
to the trial court’s findings of fact even when those findings are
based on affidavits rather than live testimony.” Ex parte
Thompson, 15.3 S.W.3d 416, 418 (Tex. Crim. App. 2005).

5 “DX” refers to exhibits admitted by the Applicant at the

evidentiary hearing. “SX” refers to exhibits admitted by the State
at the evidentiary hearing. “H.T.” refers to the transcript taken
at the evidentiary hearing.

12a
h. Noaella Bryant, Mr. Cathey’s former wife (DX
44);
i. Celecia Baker, Mr. Cathey’s younger sister (DX
45);
j. Faryion Wardrip, an inmate at the Polunsky
Unit (DX 50); and
k. Ronald Hamilton, an inmate at the Polunsky
Unit (DX 51).
18. The State presented live testimony from the
following:
a. Timothy Proctor, Ph.D., an expert forensic
psychologist;
b. Leigh Hagan, Ph.D., an expert psychologist who
offered opinion only on the validity of the Flynn
Effect and not on whether Mr. Cathey is a person
of mental retardation;
c. Don Cohen, an investigator employed by the
Harris County District Attorney’s office for postconviction writs;
d. Captain Steven Bryant, a captain at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division;
e. Leah Madison, a correctional officer at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division; and
f. William Cook, a correctional officer at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division.
19. Mr. Cathey presented and the Court admitted
a total of 59 exhibits. The State presented and the
Court admitted a total of 21 exhibits.

13a
III.

THE LEGAL STANDARD

20. Following the decision of the United States
Supreme Court in Atkins v. Virginia, 536 U.S. 304
(2002), which held that it is “cruel and unusual” to
execute the mentally retarded, the Courts of this and
other states have grappled with the appropriate
procedures and
standards by
which this
straightforward declaration of constitutional principle
is to be applied. In Texas, the procedure is for the
Court, without a jury, to consider appropriate
evidence, including affidavits, and for the applicant to
prove by a preponderance of the evidence that he is a
person of intellectual disability. The preponderance of
the evidence means proof “by the greater weight and
degree of credible evidence.” Compton v. Henrie, 363
S.W.2d 179, 182 (Tex. 1963).
21. In determining whether Mr. Cathey is a
person of intellectual disability, the Court has been
guided by the scientific and clinical definitions of
intellectual disability developed by the American
Association on Intellectual and Developmental
Disabilities (“AAIDD”), formerly the American
Association on Mental Retardation (“AAMR”), and the
American Psychiatric Association (“APA”). Both
organizations recognize a three-pronged definition of
intellectual disability. Under the AAIDD Manual,
intellectual disability is characterized by (1)
“significant limitations” in general intellectual
functioning, (2) accompanied by “significant
limitations” in adaptive functioning, (3) the onset of
which occurs prior to the age of eighteen. [DX 4,
AAIDD Manual]. Similarly, under the APA’s DSM-5,
intellectual disability is characterized by (1) “deficits”
in general intellectual functioning, (2) accompanied

14a
by “deficits” in adaptive functioning, (3) the onset of
which occurs during the developmental period. DSM5 at 33. 6
22. In Moore I, the United States Supreme Court
held that the Texas Court of Criminal Appeals (CCA)
had unconstitutionally disregarded established
medical standards for intellectual disability when it
relied on the nonclinical Briseno factors to assess
intellectual disability, Moore I, 137 S. Ct. at 1052-53.
Moore I recognized the validity of the clinical
definitions of intellectual disability set forth in the
AAIDD Manual and DSM-5, and remanded the case
to the CCA for consideration of the issue of intellectual
disability in view of these established medical
standards. Id.
23. On remand in Ex parte Moore, 548 S.W.3d
552, 559-60 (Tex. Crim. App. 2018), the CCA adopted
the “current medical diagnostic standards” embodied
in the DSM-5, while noting that the standards in the
DSM-5 and AAIDD Manual are “largely the same.” Id.
at 559-60, 560 n. 50.. The CCA then applied the DSM5 definition to the facts in Moore but reached the same
conclusion that the applicant had not shown adaptive
deficits sufficient to support intellectual disability. Id.
at 573.
24. On February 19, 2019, the United States
Supreme Court issued a new opinion in Moore v.
Texas, 586 U. S. _____ (2019) (Moore II), reversing for
a second time the CCA’s determination that the
6 The DSM-5, published after the 2010 Evidentiary Hearing,

has replaced the DSM-IV which was cited in the Findings of Fact
and Conclusions of Law issued by the Court on December 31,
2012. A copy of relevant excerpts from the DSM-5 is attached
hereto as Attachment 1.

15a
applicant failed to show adaptive deficits sufficient to
support a diagnosis of intellectual disability. The
Supreme Court held that the CCA had
unconstitutionally disregarded established medical
standards for intellectual disability by continuing to
focus on the applicant’s adaptive strengths rather
than his deficiencies, even while applying the
standard set forth in the DSM-5. Moore II, 586 U.S.
_____ (2019) (slip op., at 6-7).
25. Moreover, the Supreme Court in Moore II
emphasized the trial court’s findings, noting that
“[w]hen we first heard this case . . . we noted that the
state trial court (a state habeas court) received
affidavits and heard testimony from Moore’s family
members, former counsel, and a number of courtappointed mental health experts.” Id. (slip op., at 1)
(citations omitted). It also noted that the CCA “again
relied less upon the adaptive deficits to which the
trial court had referred than upon Moore’s apparent
adaptive strengths[,]” Slip Op. at 6-7 (emphasis
added). The Supreme Court concluded that on the
basis of the trial court record, the applicant had
shown that he is a person with intellectual disability,
and therefore reversed the CCA’s ruling. Id. at __ (slip
op., at 10) (emphasis added).
A. Three Prongs of Intellectual Disability
26. In the 2010 evidentiary hearing, the witness
testimony and evidence was primarily presented and
evaluated in the context of the AAIDD Manual’s
three-pronged standard for intellectual disability, and
to a lesser extent the DSM-IV’s largely equivalent
three-pronged standard (as previously stated, the
DSM-IV is predecessor to the DSM-5, which had not

16a
been published in 2010). For that reason, the evidence
is discussed in these Revised Findings primarily using
the language of the AAIDD Manual. This Court
properly relied on the established medical standards
set forth in the AAIDD Manual when it found that Mr.
Cathey is a person with mental retardation, and the
Court may continue to rely on the AAIDD Manual in
view of Moore I and Moore II. See Moore II, 586 U. S.
at ___ (slip op., at 2) (citing Moore I, AAIDD Manual,
and DSM-5).
27. Each component of the definition of
intellectual disability requires additional explanation.
First, the consensus among mental health
professionals and the AAIDD Manual is that the
requirement of significant limitations in general
intellectual functioning is satisfied by “an IQ score
that is approximately two standard deviations below
the mean, considering the standard error of
measurement for the specific assessment instruments
used and the instruments’ strengths and
limitations.” 7 [DX 4, AAIDD Manual at 27]. The
7 The AAIDD does not intend for a fixed cutoff point to be

established for diagnosing a person with intellectual disability.
[DX 4, AAIDD Manual at .39-40], The diagnosis is “intended to
reflect a clinical judgment rather than an actuarial
determination.” Id. The AAIDD Manual explains that “it is
important to use a range as reflected in the test’s standard error
of measurement” because of variations in test performance,
examiner’s behavior, or other undetermined factors. [DX 4,
AAIDD Manual]. Accordingly, a “standard error of
measurement” must be taken into account in interpreting the IQ
score obtained on any test. Id. The standard error of
measurement is the range of IQ score of plus or minus five points
within which there is a high level of confidence that a person’s
“true” IQ resides. Id. Thus, obtained IQ scores up to 75 can
satisfy the first component of the definition of intellectual

17a
AAIDD Manual also states that “[a]n IQ score should
be reported with confidence intervals rather than a
single score. [DX 4, AAIDD Manual at 40]. The DSM5 likewise recognizes that a score is indicative of
intellectual disability if it is “approximately two
standard deviations or more below the population
mean, including a margin for measurement error
(generally +5 points). On tests with a standard
deviation of 15 and a mean of 100, this involves a score
of 65-75 (70 ±5).” DSM-5 at 37.
28. Next, with respect to adaptive functioning,
the AAIDD Manual recognizes deficits in adaptive
behavior as “performance on a standardized measure
of adaptive behavior that is normed on the general
population including people with and without
[intellectual disability] that is approximately two
standard deviations below the mean of either (a) one
of the following three types of adaptive behavior:
conceptual, social, and practical, or (b) an overall score
on a standardized measure of conceptual, social, and
practical skills.” [DX 4, AAIDD Manual at 43]. The
DSM-5 similarly states that the requirement for
deficits in adaptive functioning is met “when at least
one domain of adaptive functioning—conceptual,
social, or practical—is sufficiently impaired that
ongoing support is needed in order for the person to
perform adequately in one or more life settings at
school, at work, at home, or in the community.” DSM5 at 38.
disability, for the true IQ score of a person who obtains a score of
75 is within the range of 70-80. See Atkins v. Virginia, 536 U.S.
at 309 (“an IQ between 70 and 75 or lower...is typically
considered the cutoff IQ score for the intellectual function prong
of the mental retardation definition”).

18a
29. Third, with respect to the requirement that
the onset of subaverage intellectual functioning and
deficits in adaptive functioning occur before the age of
eighteen, it is not required that there be a diagnosis of
intellectual disability before the person’s eighteenth
birthday. [DX 4, AAIDD Manual at 27-28]. Rather, it
is necessary only that the limitations in adaptive
functioning be apparent before the age of eighteen,
that IQ testing sometime during the person’s life
reliably establish an IQ of 75 or below, and that there
be no intervening reason, such as a traumatic head
injury, for the person’s IQ to have diminished since
the age of eighteen. [DX 4, AAIDD Manual at 32].
B. Additional Guidance by the AAIDD
Manual
30. Both the Supreme Court and the Texas Court
of Criminal Appeals have applied the definition of
intellectual disability as set forth by the AAIDD,
formerly known as the American Association on
Mental Retardation. See Atkins v. Virginia, 536 U.S.
304, 309 n.3 (2002); Ex parte Moore, 548 S.W.3d at
560, n. 50. The AAIDD Manual definition of
intellectual disability focuses on the presence of
adaptive behaviors before the age of 18:
Intellectual disability is characterized by
significant
limitations
both
in
intellectual functioning and in adaptive
behavior as expressed in conceptual,
social, and practical adaptive skills. This
disability originates before age 18.
[DX 4, AAIDD Manual at 6], The AAIDD Manual also
lists the following five assumptions “which are
essential to the application of the definition”:

19a
Assumption 1: “Limitations in present
functioning must be considered within
the context of community environments
typical of the individual’s peers and
culture.”
Assumption 2: “Valid assessment
considers cultural
and
linguistic
diversity as well as differences in
communication, sensory, motor, and
behavioral factors.”
Assumption 3: “Within an individual,
limitations often coexist with strengths.”
Assumption 4: “An important purpose of
describing limitations is to develop a
profile of needed supports.”
Assumption 5:
“With appropriate
personalized supports over a sustained
period, the life functioning of the person
with ID generally will improve.”
[DX 4, AAIDD Manual at 7],
IV.THE FLYNN EFFECT
31. The Flynn Effect is a scientifically valid and
reliable phenomenon. It is applied by clinical
practitioners in the diagnosis of intellectual disability
and is used by practitioners outside the criminal
justice system to correct for norm obsolescence. The
Flynn Effect should be applied to individual test
results to account for norm obsolescence and is a
generally accepted scientific procedure. The Flynn
Effect is sufficiently precise to make corrections to
individual IQ scores because it has a known error rate.
A. The Flynn Effect is a scientifically valid

20a
and real phenomenon.
32. All of the experts presented by the State and
the Applicant recognized the Flynn Effect as a real
phenomenon. The existence of the Flynn Effect,
therefore, is uncontested.
33. James Flynn. Ph.D. is the foremost expert on
IQ norm obsolescence over time, also known as “the
Flynn Effect.” 8 Dr. Flynn is currently an emeritus
professor and lecturer at the University of Otago in
New Zealand. He attended the University of Chicago
where he received his bachelor’s, master’s, and
doctoral degrees in political science. Before joining the
University of Otago faculty, Dr. Flynn taught
psychology at Cornell University and created a
research project based on his work. Dr. Flynn has
been a distinguished visiting speaker at the
universities of Cornell, Chicago, Harvard, and
Princeton where he lectured on his research in
intelligence and IQ testing. Dr. Flynn was a visiting
scholar at the Sage Foundation in 2008 and 2009 and
was a visiting scholar at the Hoover Institution at
Stanford. Dr. Flynn has been profiled by the Scientific
American. [DX 21, Profile of James Flynn, “Flynn’s
Effects,” SCIENTIFIC AMERICAN 37 (2000)]. In 2007, the
International Society For Intelligence Research
recognized Dr. Flynn as being the most distinguished
researcher in the area of intelligence. The New
8 Dr. Flynn explained that although the Flynn Effect is named

after him. the use of the term was coined in 1994 by authors
Richard Hernstein and Charles Murray in their book. The Bell
Curve. Dr. Flynn had been studying the Flynn Effect beginning
1983 and labeled it in his research as “IQ gains over time due to
norm obsolescence.” [H.T. Vol. 4; 31].

21a
Zealand Psychological Society honored Dr. Flynn as
its first honorary fellow for life, and the University of
Otago awarded him an honorary doctorate of science.
Dr. Flynn is one of two distinguished associates of the
Psychometrics Center at Cambridge, which sought
Dr. Flynn’s expertise in designing its IQ tests. Dr.
Flynn delivered the keynote address at the American
Psychological Association’s symposium on the Flynn
Effect at Emory University in 1996 and at Cambridge
University in 2006, leading to his 2007 book with
Cambridge University Press, WHAT IS INTELLIGENCE?
[DX 6, James R. Flynn, WHAT IS INTELLIGENCE?
(2009)]. Dr. Flynn has published 67 articles in peerreviewed journals, with roughly 50 publications
addressing the topic of IQ. He has contributed to
Sternberg’s THE ENCYCLOPEDIA OF INTELLIGENCE, the
CAMBRIDGE H ANDBOOK OF INTELLIGENCE, and the
OXFORD H ANDBOOK OF DEV ELOPMENTAL PSYCHOLOGY.
[H.T. Vol. 4: 31-38].
34. Dr. Flynn authored “The WAIS-III and WAISIV: Daubert Motions Favor the Certainly False over
the Approximately True,” published in the journal
Applied Neuropsychology. [DX 18, James R. Flynn,
“The WAIS-III and WAIS-IV: Daubert Motions Favor
the Certainly False over the Approximately True,” 16
Applied Neuropsychology 98-104 (2009)]. In this
article, the results of Dr. Flynn’s comparative study of
individually administered tests from 1972 to the
present were released. After administering tests with
obsolete norms, alongside tests with current norms,
and comparing the results, Dr. Flynn observed that
there are significant IQ gains over time. Dr. Flynn’s
comparison of these tests was scientific and valid and
included a sound method for translating tests having

22a
different scales, such as the Stanford-Binet and the
Wechsler, so that overall changes in scores over time
could be accurately quantified. [H.T. Vol. 4: 53, 55-56,
58, 60].
35. Dr. Flynn also conducted a study with
psychologist Lawrence F. Weiss, Ph.D., the senior
psychologist in psychometrics at Psychological
Corporation, who is responsible for standardizing and
norming the Wechsler and other intelligence tests. Dr.
Flynn and Dr. Weiss co-authored an article
addressing the Flynn Effect titled “American IQ
Gains from 1932 to 2002: The WISC Subtests and
Educational Progress,” published in the International
Journal of Testing. [DX 19, James R. Flynn &
Lawrence G. Weiss, “American IQ Gains from 1932 to
2002: The WISC Subtests and Educational Progress,”
7(2) Int’l Journal of Testing 209-224 (2007)]. Dr. Weiss
collaborated with Dr. Flynn and recognized the Flynn
Effect in this article, acknowledging that IQ test
norms become obsolete over time. Specifically, Dr.
Weiss found that American IQ gains have occurred at
a rate of 0.3 points per year from 1932 to 2002. [H.T.
Vol. 4: 61-62].
36. Dr. Flynn testified that when a test
administrator administers to the same group of
subjects a recently normed IQ test and a less recently
normed test, subjects will make relatively better
scores on the older test and worse scores on the new
test. [H.T. Vol. 4: 18]. This posed a conundrum
because the recognized theory of intelligence is that
IQ is static. Upon reaching majority, an individual IQ
does not improve over time. [DX 4, AAIDD Manual at
28]. The Flynn Effect has been so well accepted by the
scientific community that as a result, test-makers now

23a
update their intelligence tests more frequently. [H.T,
Vol. 4: 49, 82]. Applying the Flynn Effect to individual
test results is accepted as a valid scientific procedure.
[H.T. Vol. 4: 74].
37. Dr. Flynn testified that administering a test
with outdated norms is comparable to measuring a
person’s height with a shrunken measuring tape,
resulting in a readout that the person is 6’0” tall when
the person is actually 5’6” tall. [H.T. Vol. 4: 47].
38. Dr. Flynn concluded that the Flynn Effect is a
scientifically valid, reliable, and observable fact. The
scientific community has accepted that IQ inflation is
a real phenomenon. [H.T. Vol. 4: 43,47-48, 50-51, 74].
39. Alan Steven Kaufman. Ph.D. is one of the top
scholars in the United States today on the
development and interpretation of IQ tests. Dr.
Kaufman is a clinical professor of psychology at the
Yale University School of Medicine in the Yale Child
Studies Center and has been associated with Yale
since 1997. Dr. Kaufman also is an academic research
psychologist specializing in areas of educational and
school psychology and is specifically trained in test
development, interpretation, and research. Dr.
Kaufman holds a bachelor’s degree from the
University of Pennsylvania, a master’s degree from
Columbia University, and a doctorate degree in
psychology from Columbia University with a specialty
of measurement research and statistics. Before
joining the faculty at Yale University, Dr. Kaufman
held the position of professor at the University of
Georgia, the University of Alabama, and the
California School of Professional Psychology. Dr.
Kaufman has written more than twenty books and
holds a patent for a test device related to testing the

24a
ability to process information visually on the subtest
called Magic Window. Dr. Kaufman has authored over
150 articles that have been published in peerreviewed journals. Most of these articles relate to the
interpretation of intelligence tests, the structure and
properties
of
intelligence
tests,
and
neuropsychological tests and their application in
general. Dr. Kaufman has authored 14 IQ tests and
has worked in test development since 1968 when he
took a position at the Psychological Corporation,
which publishes the Wechsler tests. [H.T. Vol. 6: 7-10,
12].
40. Dr. Kaufman has extensive experience
creating, developing, and standardizing IQ tests. Dr.
Kaufman worked closely with David Wechsler, Ph.D.
from 1970-1974 to revise the Wechsler Intelligence
Scale for Children (“WISC”) and re-standardize the
test to get a new normative sample. Dr. Kaufman was
also in charge of supervising the Weschler Intelligence
Scale for Children-Revised (“WISC-R”) which was
published in 1974. Dr. Kaufman has written about 12
books about the Wechsler exams. [H.T. Vol. 6: 10-11].
41.

One such book, ASSESSING ADOLESCENT AND
ADULT INTELLIGENCE [DX 10, Elizabeth Lichtenberger
& Alan Kaufman, ASSESSING ADOLESCENT AND ADULT
INTELLIGENCE (3d ed. 2006)], devotes a section to the
Flynn Effect that summarizes the research by Dr.
Flynn and others in the field, research within the
United States, research cross-cultural in nature, and
integrates the findings. Dr. Kaufman has also
independently, and around the same time as Dr.
Flynn’s
earlier research,
researched norm
obsolescence as well. Dr. Kaufman’s research provides
persuasive evidence that the Flynn Effect is

25a
scientifically reliable. The Flynn Effect is repeatable
within the United States at an average rate of three
points per decade, plus or minus a small margin, from
preschool children to old-age, and it has also been
found for different levels of ability and using different
tests and tasks both verbal and nonverbal as well as
working memory. The Flynn Effect is a reliable and
valid scientific finding that has been true for quite
some time. [H.T. Vol. 6: 16-17].
42. Dr. Kaufman’s book, IQ TESTING 101, [DX 7,
Alan Kaufman, IQ TESTING 101 (2009)] published in
2009, was written as a primer to understand the
important concepts related to IQ tests. IQ TESTING 101
discusses the malleability of IQ and the newly realized
fact that it is not static or constant but is constantly
changing over time in accord with the Flynn Effect.
Dr. Kaufman also discusses the use of IQ tests in the
public domain, including a discussion of the Flynn
Effect in relation to Atkins cases. [H.T. Vol. 6: 17-18],
43. In his other publication, ESSENTIALS OF WAISIV ASSESSMENT, Dr. Kaufman recognizes the Flynn
Effect as “well-known,” describing that “a person’s
standard scores on an old test, with outdated, norms
(e.g., the WAIS-III), will tend to be spuriously high.
[DX 8, Elizabeth Lichtenberger & Alan Kaufman,
ESSENTIALS OF WAIS-IV ASSESSMENT 33 (2009)].
44. Dr. Kaufman testified that based on scientific
research, the Flynn Effect is scientifically valid and
reliable in the United States. [H.T. Vol. 6: 38, 40],
45. Jack Fletcher. Ph.D. is a full professor in the
Department of Psychology at the University of
Houston. For the past thirty years he has completed
research on children and adults with developmental

26a
disabilities. He received a degree in clinical
psychology from the University of Florida in 1978, is
a licensed psychologist in the State of Texas, and is
board certified as a clinical neuropsychologist by the
American Academy of Clinical Neuropsychology and
American Board of Professional Psychology. At the
University of Houston he teaches courses on the
assessment of adults and children, including those
with developmental disabilities. He also teaches
advanced
courses
on
intellectual
and
neuropsychological assessment.
He
routinely
conducts assessment for mental retardation and other
developmental disabilities in children and adults. He
has worked with the government’s Social Security
Administration as well as schools in the Houston
Independent School District to evaluate intellectual
functioning. He has specific expertise in classification
and measurement issues pertaining to the diagnosis
of people with disabilities. He served on the
President’s Commission on Special Education, a
commission that was charged by the President to
review the Individuals with Disabilities Education
Act, 20 U.S.C. § 1400, in preparation for its
reauthorization. Dr. Fletcher has published 200
articles in peer-reviewed journals. [H.T. Vol, 5: 7, 8,
10-13].
46. Dr. Fletcher testified that the Flynn Effect is
a widely recognized discovery. He stated that the
Flynn Effect is the phenomenon identified by
increased scores on IQ tests where people perform at
higher levels. [H.T. Vol. 5: 21].
47. Dr. Fletcher observed that the Flynn Effect is
universal, and although people disagree about what
causes it, nobody disputes whether it is real or not.

27a
[H.T. Vol. 5: 43]. He testified that “The Flynn Effect is
a real and novel discovery. It is widely accepted
around the world as an explanation for why IQ scores
change over time.” [H.T. Vol. 5: 77]. The Flynn Effect
is still well established scientifically and accepted as
a valid phenomenon today. [See Affidavit of Dr. Jack
M. Fletcher, Attachment 3].
48. Timothy Proctor. Ph.D. is a private
practitioner in forensic psychology in Dallas, Texas.
Dr. Proctor received a bachelor’s degree in psychology
from Texas A&M University and a doctorate degree
from the University of Texas Southwestern Medical
Center. He also completed a post-doctoral fellowship
in forensic psychology at the University of Southern
California, Institute of Psychiatry, Law, and
Behavioral Science and completed post-doctoral
training in psychopharmacology. Dr. Proctor is board
certified in forensic psychology. [H.T. Vol. 6: 77]. Dr.
Proctor is not board certified in neuropsychology. Dr.
Proctor devotes about one or two percent of his time
attending to patients, and most of his practice relates
to assessing applicants for disability benefits and
assessing applicants in the civil and criminal justice
system. He has not published any articles on the
Flynn Effect or on mental retardation. [H.T. Vol. 7: 6872].
49. Dr. Proctor, who was called by the State,
testified that the Flynn Effect is real and that there
are recognizable IQ gains over time. [H.T. Vol. 7: 43].
Dr. Proctor agrees with the Applicant’s experts that it
is the best practice to recognize the Flynn Effect. [H.T.
Vol. 7:61]. Dr. Proctor further agrees with the WAISIII/WMS III TECHNICAL MANUAL in that there is a real
phenomenon of IQ inflation over time and that an

28a
examinee’s IQ score will generally be higher when
outdated norms are used. [H.T. Vol. 7:54].
50. Leigh Hagan, Ph.D. is a solo practitioner of
clinical and forensic psychology in Virginia. He is
licensed as a clinical psychologist in Virginia. Dr.
Hagan received an undergraduate master’s degree
from the University of Virginia and a doctorate degree
in counseling psychology from the University of
Missouri at Columbia. He completed his post-doctoral
training in Georgia. Dr. Hagan is a diplomate of the
American Board of Forensic Psychology. He conducts
evaluations for a number of forensic purposes. About
90%-95% of people he evaluates have a matter before
the justice system. [Vol. 7: 104-109], Dr. Hagan has
testified 50 times in the last four years in Atkins cases,
admitting that he has not found or testified that any
death row inmate was a person of mental retardation.
Dr. Hagan also conceded that he had prepared and
provided the State’s counsel with an outline of topics
she should address with him. [Vol. 7: 138-139].
51. Dr. Hagan, who was called by the State,
agreed that there is a “genuine statistical
observation” known as the Flynn Effect. [H.T. Vol. 7:
118]. He also acknowledged that in the WAIS-IV
TECHNICAL AND INTERPRETIV E MANUAL, published by
those who develop the Wechsler tests, the manual
states that a group that scored 100 on the Wechsler
Adult Intelligence Scale-III (“WAIS-III”) was expected
to score between 96 and 98 on the Wechsler Adult
Intelligence Scale-IV (“WAIS-IV”). [H.T. Vol. 7: 142],
This is unequivocal acknowledgement of the practical
impact of the Flynn Effect.
52. Manuals guiding the determination of
intellectual disability also recognize the Flynn Effect

29a
as a real phenomenon.
53. The WAIS-III/WMS-III TECHNICAL MANUAL is
authoritative and reliable. This manual recognizes
the Flynn Effect and explains that “average IQ scores
will gradually drift upward and give a progressively
deceptive picture of an individual’s performance
relative to the expected scores in his or her own age
group.” [DX 13, WAIS-III/WMS-III TECHNICAL
MANUAL (3d ed. 1997)] For example, “if the mean of
the U.S. population on the WAIS-R was 100 in 1981,
the inflation might cause it to be about 105 in 1997.”
Id. This increase corresponds to applying the Flynn
Effect’s 0.3 points inflation per year over the sixteen
year period, and the conclusion of this manual is that
because of the Flynn Effect, if an outdated test is
given, an individual’s IQ score will be inflated. This
application is a correction for the obsolescence of the
norms. [H.T. Vol. 4: 43, 45-46; H.T. Vol. 6: 31].
54. The 2010 AAIDD Manual is authoritative and
also supports the Flynn Effect, stating that “in cases
where a test with aging norms is used a correction for
the age of the norms is warranted.” (H.T. Vol. 4: 7374]. The AAIDD Manual devotes an entire page and
section to the Flynn Effect, recognizing it as an
increase in IQ scores over time:
The Flynn Effect refers to the
observation
that
every
restandardization sample for a major
intelligence test from 1932 through 1978
resulted in a mean IQ that tended to
increase over time. Flynn (1987)
reported that this effect was also
observed in samples from other countries.

30a
[DX 4 at 37],
55. The DSM-5 is authoritative and also
recognizes the existence of the Flynn Effect, stating
that “[f]actors that may affect test scores include . . .
the ‘Flynn effect’ (i.e., overly high test scores due to
out-of-date test norms).” DSM-5 at 37. The CCA has
instructed that “the DSM-5 should control our
approach to resolving the issue of intellectual
disability.” Ex parte Moore, 548 S.W.3d 552, 559-60
(Tex. Crim. App. 2018).
56. The Court Finds that the Flynn Effect is a
scientifically valid and real phenomenon.
B. The Flynn Effect results in about 0.3
points inflation per year.
57. It is uncontested that the experts testifying on
behalf of the State and the Applicant recognized that
the Flynn Effect results in about 0.3 points inflation
per year or 3 points per decade.
58. Dr. Flynn testified that analysis of
independently verifiable data establishes that during
the World War I era, the IQ inflation rate was about
0.4 points per year, between WWI and 1972 about 0.33
points, with IQ inflation for the current generation at
about 0.3 points per year. [H.T. Vol. 4: 4, 44]. IQ test
data from the 1970s to the present shows that IQ
gains occur at about 0.30 points per year. [H.T. Vol. 4:
41, 44, 52, 62, 66-70, 105]. Dr. Flynn stated that
psychologists who submit their studies to peerreviewed journals and correct IQ scores for the Flynn
Effect in the amount of 0.3 points per year are more
often published, whereas those who submit articles to
peer-reviewed journals articles and do not correct
obsolete IQ tests for the Flynn Effect will not have

31a
their articles published. [H.T. Vol. 4, p. 101-102, 111].
For Wechsler tests, the 0.3 points per year average
gain is consistently within the margin of error for such
a number. [H.T. Vol. 4: 69-70].
59. Dr. Flynn’s book, WHAT IS INTELLIGENCE?,
includes a Figure AIII, with the following caption that
provides further reliable support for the 0.3 point
inflation per year: “Using the WISC to test whether
the IQ gains of American children have been
relatively uniform (about 0.30 points per year)
between 1947 and 2002, and whether that has been
true at all IQ levels. The three IQ levels I have chosen
are 125-140 (high), 90-115 (average), and 55-80 (low).
At each level, the broken line represents a gain of
exactly 0.30 points per year. The solid lines show how
little actual rates of gain have deviated from that
value.” [DX 6, James R. Flynn., WHAT IS
INTELLIGENCE? (2009)].
60. Dr. Kaufman, Dr. Fletcher, and Dr. Proctor
unequivocally agreed with Dr. Flynn, testifying that
the Flynn Effect is roughly three points per decade or
0.3 points per year. [H.T. Vol. 6: 19; H.T. Vol. 5: 25;
H.T. Vol. 6: 102-103]. Even Dr. Hagan was forced to
concede that after analyzing all the available data on
the Flynn Effect, including an analysis of only the
Wechsler tests, the rate of gain fits tightly around 0.3
points per year. [H.T. Vol. 7: 144]. The precision of the
Flynn Effect correction is supported by the
preponderance of expert testimony in this case.
61. Manuals guiding the determination of
intellectual disability also recognize that the Flynn
Effect results in about 0.3 points inflation per year.
The AAIDD Manual, which applies to all intelligence
tests, finds that obsolete norms may create a problem

32a
with identifying people as having intellectual
disability. [DX 4]. The AAIDD Manual specifically
instructs testers to recognize the Flynn Effect in the
amount of 0.33 points per year. [H.T. Vol. 4: 132].
62. As long ago as 1997, even test makers
recognized correction for the Flynn Effect. The WAISIII Technical Manual 9 recognizes that there is a real
phenomenon of IQ inflation over time and explains
that data suggests the inflation rate is 0.3 of a point
per year. [H.T. Vol. 4: 48-49]. The manual states:
Updating of Norms. Because there is a
real phenomenon of IQ-score inflation
over time, norms of a test of intellectual
functioning should be updated regularly
(Flynn, 1984, 1987; Matarazzo, 1972),
Data suggest that an examinee’s IQ
score will generally be higher when
9 The most updated Wechsler test is the Wechsler Adult

Intelligence Scale-IV (“WAIS-IV”), published in 2008. However,
it is significant that even older test manuals, including the
WAIS-III which was published pre-Atkins, recognized the Flynn
Effect. Additionally, silence of the WAIS-IV technical manual on
correction for the Flynn Effect is no evidence that scores should
not be corrected for norm obsolescence when an old test is used.
It is not a surprise that a manual published for a new test does
not mention the Flynn Effect because such a correction is only
needed when older intelligence tests are used. However, even the
technical manual for the WAIS-IV provides a conversion table
that shows the impact of norm obsolescence. As stated in a recent
article, “Clearly publishers have acknowledged the [Flynn Effect]
by renorming tests more frequently and providing validity
studies and conversion tables. A publisher should not be
expected to address every use of the test.” Jack M. Fletcher,
Karla K. Stuebing, and Lisa C. Hughes, “IQ Scores Should be
Corrected for the Flynn Effect in High-Stakes Decisions,” 28(5)
Journal of Psychoeducational Assessment 469 (2010).

33a
outdated rather than current norms are
used. The inflation rate of IQ scores
is about 0.3 point each year.
[DX 13 at 8-9] (emphasis added).
63. Several publications on intelligence and
intelligence scores recognize that the Flynn Effect
results in inflation of 0.3 points per year:
•Alan Kaufman, IQ TESTING 101 203
(2009) (“After 10 years, the norms for an
IQ test are 3 points out of date, and after
two decades the outdatedness reaches a
hefty 6 points.”) [DX 7];
•
Elizabeth Lichtenberger & Alan
Kaufman, ESSENTIALS OF WAIS-IV
ASSESSMENT 33-34 (2009) (“Overall, the
Flynn Effect has shown that, on average,
American children and adults have
increased their scores on intelligence
tests at the rate of 3 points per decade...”)
[DX 8];
•
Elizabeth Lichtenberger & Alan
Kaufman, ASSESSING ADOLESCENT AND
ADULT INTELLIGENCE 39 (3d ed. 2006)
(“As impressive as the three-point gain
per decade for people in the United
States has seemed to readers of Flynn’s
(1984) article, the United States has
outgained only two of the nations studied
by Flynn (1987)...”) [DX 10];
•
James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ, and the
Flynn Effect,” 12 Psychology, Public
Policy, and Law 184 (2006) (“It

34a
recommends deducting 0.3 IQ points per
year from the scores of defendants for
every year that passed between the date
when the test was normed and the date
when the test was taken.”) [DX 17];
•
James R. Flynn, “The WAIS-III and
WAIS-IV: Daubert Motions Favor the
Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100
(2009) (‘The bold highlights comparisons
where either a later form of the WISC
has been used to check an earlier form of
the WISC or a later form of the WAIS has
been used to check an earlier form of the
WAIS. These show rates of gain
averaging at about 0.3 points per year
with admirable consistency.”) [DX 18];
•
James R. Flynn & Lawrence G.
Weiss, “American IQ Gains from 1932 to
2002:
The
WISC Subtests
and
Educational Progress,” 7(2) Int’l Journal
of Testing 217 (2007) (“Taking the
midpoint of the most recent estimates,
the WISC gives a gain of 0.318 points for
the period between 1948 and 2002 with
little variation.”) [DX 19];
•
James R. Flynn, “The Mean IQ of
Americans: Massive Gains 1932 to 1978,”
95(1) Psychological Bulletin 32 (1984)
(“If we select out the eight combinations
with the largest number of subjects, they
evidence rates of gain whose consistency
is quite remarkable, ranging from .250

35a
points per year to .440 points, with a
median of .332.”) [DX 24];
•
Alan S.
Kaufman,
“Looking
Through Flynn’s Rose-Colored Scientific
Spectacles,”
28(5)
Journal
of
Psychoeducational
Assessment
494
(2010) (citing research conducted by
Tomoe Kanaya & Stephen J. Ceci) (“The
bulk of evidence suggests that the Flynn
Effect is at least three points per decade
for IQs in the range associated with
mental retardation.”);
•
Alan S. Kaufman & Lawrence G.
Weiss, “Guest Editors’ Introduction to
the Special Issue of JPA on the Flynn
Effect,”
28(5)
Journal
of
Psychoeducational
Assessment
379
(2010) (“IQ gains from one generation to
the next have occurred on a worldwide
basis, with the American gain being
three points per decade.”);
•
Jack D. Fletcher, Karla K. Stuebing,
& Lisa C. Hughes, “IQ scores should be
corrected for the Flynn effect in high
stakes decisions,” 28(5) Journal of
Psychoeducational Assessment 469-473
(2010) (obtaining a Flynn Effect average
across studies of 2.80 points per decade
with a confidence interval of 2.50 to 2.09
and a standard error of the mean (SEM)
of approximately 1.0.) [Attachment 3,
Exhibit 3-2];

36a
•
Lawrence
G.
Weiss,
“Considerations on the Flynn Effect,”
28(5) Journal of Psychoeducational
Assessment 482-493 (2010) (‘The Flynn
Effect (Flynn Effect) is real” and “has
been shown to be near 3 IQ points per
decade on average across a large number
of studies, countries, and tests.”)
[Attachment 3, Exhibit 3-3];
•
Lisa H. Trahan, Karla K. Stuebing,
Jack M. Fletcher, & Merrill Hiscock,
“The Flynn effect: A meta-analysis
140(5) Psychological Bulletin 1332-1360
(2014) (assessing the average Flynn
Effect for the full scale IQ composite of
multifactorial IQ tests from 285 studies
going back to 1951 and finding that the
average was 2.31 points per decade with
a confidence interval of 1.99 to 2.64)
[Attachment 3, Exhibit 3-4];
•
Jakob Pietschnig, & Martin
Voracek, “One Century of Global IQ
Gains: A Formal Meta-Analysis of the
Flynn
Effect
(1909-2013),”
10(3)
Perspectives on Psychological Science
282-306
(2015)
(identifying
271
independent
samples
with
approximately 4,000,000 participants
from 31 countries, and finding the mean
Flynn Effect was 2.80 points per decade)
[Attachment 3, Exhibit 3-5],
64. The Court finds that the Flynn Effect results
in about 0.3 points inflation per year and that the rate
of gain is sufficiently precise to be relied upon and

37a
applied by this Court.
C. Scores on intelligence tests should be
corrected for the Flynn Effect.
65. It is proper procedure to apply and correct
intelligence scores based on the Flynn Effect because
of norm obsolescence. This is supported by the AAIDD
Manual, credible experts in this case, a survey of
psychological practitioners, the scientific literature,
and other courts. [I think this is fine – she heard from
experts].
66. In Atkins cases, the determination of IQ score
is of ultimate importance and every method improving
accuracy must be used. [H.T. Vol. 4: 93-94]. The
AAIDD Manual and the User’s Guide to the AAIDD
Manual affirm that best practices require recognition
of a potential Flynn Effect when older intelligence
tests are used in the assessment or interpretation of
an IQ score. [DX 4, AAIDD Manual; USER’S GUIDE TO
INTELLECTUAL
DISABILITY:
DEFINITION ,
CLASSIFICATION, AND SYSTEMS OF SUPPORTS (11th ed.
2012) (“User’s Guide:”) 10 ]. As stated by the User’s
Guide:
The Flynn Effect refers to the increase in
IQ scores over time (i.e., about 0.30
points per year). The Flynn effect affects
any interpretation of IQ scores based on
outdated norms. Both the 11th edition of
the manual and this User’s Guide
recommend that in cases in which a test
10 The 11th edition User’s Guide, published after the 2010

Evidentiary Hearing, has replaced the previous 10th edition
which was cited in the Findings of Fact and Conclusions of Law
issued by the Court on December 31, 2012.

38a
with aging norms is used as part of a
diagnosis of [intellectual disability], a
corrected Full Scale IQ upward of 3
points per decade for age of norms is
warranted.
[User’s Guide at 23] (emphasis added). The AAIDD
Manual is the leading guide for those giving
intelligence tests. It is the product of years of
preparation and review for leading practitioners in
the field, rather than one company that publishes and
sells a certain intelligence test. An earlier version of
this manual is cited in Atkins and the current version
is cited in Moore I and Moore II. See, e.g. Atkins v.
Virginia, 536 U.S. 304 (2002) and Moore II, 586 U.S.
at ___ (slip op., at 2) (citing Moore I, AAIDD Manual,
and DSM-5).
67. The WAIS-III Technical Manual also
recognizes the need to correct scores for the Flynn
Effect:
Regardless of the reasons for these
changes in test performance, periodic
updating of the norms is essential;
otherwise, average IQ scores will
gradually drift upward and give a
progressively deceptive picture of
an individual’s performance relative
to the expected scores in his or her own
age group.
[DX 13, WAIS III/WMS-III TECHNICAL MANUAL at 9]
(emphasis added).
68. Dr. Flynn, in his article “Tethering the
Elephant” also describes that “Failure to adjust the
scores [for the Flynn Effect] is to take flight from

39a
reality.” [DX 17, James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ, and the Flynn Effect, 12
Psychology, Public Policy, and Law 170 (2006)]. Dr.
Flynn advocates correcting scores by the following:
“for every year between the year when a person took
a test and the year when the test was normed, deduct
0.3 IQ points from the IQ score.” [DX 18, James R.
Flynn, “The WAIS-III and WAIS-IV: Daubert Motions
Favor the Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100 (2009)].
69. Dr. Kaufman supports the AAIDD Manual’s
scientific opinion that it is good practice to apply the
Flynn Effect in instances where one is not able to use
a recently normed test. [H.T. Vol. 6: 23].
70. Applying the Flynn Effect to an individual
test score to correct for norm obsolescence is a method
for ensuring that the individual is evaluated against
an accurate normative basis. [H.T. Vol. 6: 31]. Dr.
Fletcher testified that it is probably an error to
conceptually think about the Flynn Effect as an
adjustment of an individual IQ score. The Flynn
Effect is actually a correction of the normative base,
the denominator, the ruler against which the attained
score is compared, and as such, a practitioner does not
adjust the score itself but rather corrects the
normative basis against which the score is compared
because that normative base has shifted. [H.T. Vol. 5:
78-79].
71. Dr. Proctor testified that it is important for
him to follow the procedures of the IQ test manuals,
and he relies on them. [H.T. Vol. 6: 161, H.T. Vol. 7:3738]. Dr. Proctor agreed with the WAIS-III Technical
Manual that if test administrators give a test with
outdated norms, then the resulting IQ score could be

40a
deceptively high. [H.T. Vol. 7:43]. If future test
manuals advise practitioners to apply the Flynn
Effect, Dr. Proctor would do so. [H.T. Vol. 7:41]. Dr.
Proctor testified he understands that it is generally
accepted practice to update norms and that one should
not just “accept” an IQ score with an eighteen-yearold normative basis. [H.T. Vol. 7:56]. Indeed, Dr.
Proctor also testified that one of the principal reasons
why IQ tests are re-normed is because of the Flynn
Effect. [H.T. Vol. 7: 21].
72. Dr. Proctor’s support for his opinion that it is
inappropriate to take the Flynn Effect into account
when calculating IQ scores is not persuasive. Dr.
Proctor testified that the Flynn Effect is somehow
encompassed by the standard error of measurement
but also conceded that there is no support in the
literature for this opinion. He has not authored any
articles on the subject let alone on mental retardation.
[H.T. Vol. 7: 63, 39,40, 58, 59].
73. Dr. Greg Olley, chair of the division 33
American Psychological Association Committee on
mental retardation and the death penalty, conducted
a study in the spring of 2008 of a targeted population
to obtain information about the current forensic
practices of psychologists. [DX 47]. Dr. Olley sent a
survey to approximately fifty educators and forensic
psychologists who were nominated by his Committee
based on their experience in mental retardation and
forensic psychology. Dr. Olley received thirty-five
responses. Dr. Hagan testified that he himself
participated in the Olley survey. [H.T. Vol. 7: 167].
Eighty-five percent of the respondents were
psychologists. When asked whether the Flynn Effect
is a real occurrence, 91.2% responded yes. Dr. Hagan

41a
testified that he would have answered yes to this
question. [H.T. Vol. 7: 169]. When asked whether
correcting an obtained IQ score would be justified to
account for the Flynn Effect, 87.5% responded yes.
[DX 47]. The Court finds Dr. Olley’s survey reliable
evidence that correction for the Flynn Effect is
recognized and accepted by practicing forensic
psychologists in the area of mental retardation.
74. Dr. Hagan also conducted a survey in 2007
and found that applying the Flynn Effect was not the
proper and trusted convention and custom in
psychology. [H.T. Vol. 7: 120, SX 20]. Dr. Hagan
surveyed twenty-eight directors of doctoral training
programs approved by the American Psychological
Association and board-certified school psychologists.
[SX 20]. The survey relied on recognition of fourteen
texts, four of which were authored by Dr. Kaufman,
who testified that he advocates correction for the
Flynn Effect. [H.T. Vol. 7: 158]. The survey did not
include manuals such as the AAIDD, which have
explicitly recommended correcting IQ scores for norm
obsolescence. The survey also did not consider
whether and how many of the respondents had
evaluated convicted criminals, and Dr. Hagan
conceded that the school psychologists included in his
survey typically do evaluations in the education
system only, having no experience with Atkins claims
and applicants. [H.T. Vol. 7: 160]. Dr. Hagan also
admitted that the directors of clinical training
programs he surveyed received their training and
education far before the Flynn Effect was discovered.
[H.T. Vol. 7: 167]. The Court finds Dr. Hagan’s
findings unpersuasive because the sample of
practitioners he surveyed lacked the expertise and

42a
proper knowledge to address recognition of the Flynn
Effect in Atkins cases.
75. The Court finds that correction of IQ test
scores for norm obsolescence is warranted. By way of
example, the Court finds the hypothetical presented
on cross-examination to State’s expert, Dr. Hagan,
convincing. Dr. Hagan was asked to assume that two
identical brothers, Joe and Jerry, have identical
intellectual functioning. Joe took an intelligence test
on January 1 of any given year, and Jerry took an
intelligence test similar in content on February 1 of
the same year, a month later. In the intervening time
period, a new IQ test was published so Jerry took a
new test with new norms. Both Joe and Jerry
answered 50 questions correct. Joe scored a 73, and
Jerry scored a 70, although both took the same test
with the same items. Dr. Hagan argued that the
difference in scores was due to Jerry taking a different
measure and denied that the difference in scores
resulted from obsolete norms. [H.T. Vol. 7: 147-148].
The Court disagrees and finds that obsolete norms
may account for difference in IQ scores as presented
by this example.
76. Several experts in the field of mental
retardation have published articles that advocate
application of the Flynn Effect to correct for norm
obsolescence:
•
Stephen Greenspan, “Issues in the
Use of the ‘Flynn Effect’ to Adjust Scores
When Diagnosing MR,” 31(3) Psychology
in
Mental
Retardation
and
Developmental
Disabilities
(2006)
(“Given that mild [mental retardation] is
still a somewhat-inadequately defined

43a
category, it is important to err in very
close cases on the side of being overly
inclusive,
especially
given
the
potentially fatal consequences of a false
negative diagnostic conclusion. Use of
the Flynn Effect is a useful, and valid,
method for increasing the likelihood that
a psychologist will correctly diagnose
[mental
retardation] in
someone
deserving of that label.”) [DX 26];
•
James R. Flynn, “The WAIS-III and
WAIS-IV: Daubert Motions Favor the
Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100
(2009) (“I advocate adjusting WISC and
Wechsler Adult Intelligence Scale
(WAIS) scores as follows: for every year
between the year when a person took a
test and the year when the test was
normed, deduct 0.3 IQ points from the IQ
score.”) [DX 18];
•
James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ, and the
Flynn Effect, 12 Psychology, Public
Policy, and Law 174-75 (2006) (“Failure
to adjust IQ scores in the light of IQ
gains over time turns eligibility for
execution into a lottery...”) [DX 17];
•
John H. Blume, Sheri Lynn
Johnson & Christopher Seeds, “Of
Atkins and Men: Deviations from
Clinical
Definitions
of
Mental
Retardation in Death Penalty Cases,” 18
Cornell J. L. & Pub. Pol’y 689, 711-714

44a
(2009) (“Due to the Flynn effect, IQ
scores must be adjusted to take into
account when the IQ test was taken in
relation to when the test was re-normed.
As with the practice effect, failure to take
the Flynn effect into account results in
an artificially high IQ score.”) [DX 15];
•
Jack M. Fletcher, Karla K.
Stuebing, and Lisa C. Hughes, “IQ
Scores Should be Corrected for the Flynn
Effect in High-Stakes Decisions,” 28(5)
Journal
of
Psychoeducational
Assessment 469 (2010) (“IQ test scores
should be corrected for high-stakes
decisions in which a test with older
norms is invoked as evidentiary support
in the decision-making process. This
could include not only Atkins cases
involving capital offenses and the death
penalty but also intellectual disability
(ID) decisions involving social security
eligibility or special education where
eligibility hinges on a specific score or
range of scores.”) [Attachment 3, Exhibit
3-2];
•
Cecil R. Reynolds, John Niland,
John E. Wright, and Michael Rosenn,
“Failure to Apply the Flynn Correction in
Death Penalty Litigation: Standard
Practice of Today Maybe, but Certainly
Malpractice of Tomorrow,” 28(5) Journal
of Psychoeducational Assessment 477
(2010) (“As a generally accepted
scientific theory that could potentially

45a
make the difference between a
constitutional and unconstitutional
execution, the [Flynn Effect] must be
applied in the legal context.”).
•
Kevin S. McGrew, “Intellectual
Functioning,” in E.A. Polloway (Ed.),
THE DEATH PENALTY AND INTELLECTUAL
DISABILITY 85-111 (2015) (concluding
there is a “scientific and professional
consensus” supporting the Flynn Effect
as “a scientific fact” and “Not only is
there a scientific consensus that the
Flynn effect is a valid and real
phenomenon, there is also a consensus
that individually obtained IQ scores
derived from tests with outdated norms
must be adjusted to account for the
Flynn effect, particularly in Atkins cases.
(The use of a Flynn effect correction in
clinical settings is less of an issue given
that psychologists in such settings
typically have more leeway to interpret
scores as ranges, invoke clinical
judgment, and incorporate information
regarding measurement error in
interpretation of the scores when
making a diagnosis. In contrast, certain
high stakes settings [e.g., Atkins cases;
eligibility for Social Security Disability
benefits] may have strict point-specific
cut-scores [i.e., “bright line” criteria]
where examiners, or the recipients of the
scores [e.g., the courts], do not allow for
such clinical interpretation. Thus, the

46a
Flynn effect adjustment is more relevant,
appropriate, and primarily discussed in
literature and law dealing with this type
of
high
stakes
IQ
testing.).”)
[Attachment 3, Exhibit 3-7].
•
Stephanie C. Black, “High Stakes
IQ Testing: The Flynn Effect and its
Clinical Implications,” 25(1) Journal of
the Australian and New Zealand
Student Services Association 1334 (2017)
(“The Flynn Effect affects the periodical
re-norming of intelligence tests and the
comparability of IQ scores over time.
This has clinical implications for the
assessment of intellectual ability for
various client populations, including
forensic, disabled, juvenile and ethnic
minority clients, as well as social
implications
concerning
ethical
intelligence, developing nations and the
concept of age-related cognitive decline.
Examples of high-stakes decisions based
on IQ tests include fitness to stand trial,
access to social disability services and, of
particular interest for the education
sector, access to special education
services and accelerated programs.”)
[Attachment 3, Exhibit 3-8].
77. Courts across several jurisdictions have also
recognized and approved of correction for the Flynn
Effect in evaluating intelligence scores in death
penalty cases:
•
Ex Parte Sosa, No. W2-7729A
(81st/218th Judicial District, Atascosa

47a
County, Texas, Feb. 10, 2011) (entering
findings of fact and conclusions of law
that recognize the Flynn Effect, stating
that “[i]n the United States, the average
IQ of the population increases .3 points
per year, or 3 points every 10 years.”);
•
Thomas v. Allen, No. 09-12869,
2010 U.S. App. LEXIS 10836, *1, *8
(11th Cir. May 27, 2010) (stating that the
Flynn Effect is a well-supported,
“empirically proven statistical fact,”
tested through peer review and
recognized and accepted by professional
communities and holding that a court
must account for the Flynn Effect when
determining whether an IQ score falls
within the mental retardation range and
that a court should not view a raw,
unadjusted IQ score as precisely
measuring true);
•
Holladay v. Allen, 555 F.3d 1346,
1358 (11th Cir. 2009) (“Moreover, all of
the scores were on the WAIS tests, which
may have reflected elevated scores
because of the Flynn Effect.”);
•
Walker v. True, 399 F.3d 315, 323
(4th Cir. 2005) (finding district court
erred when it failed to consider the
validity of defendant’s Flynn Effect
evidence and ordering that Flynn Effect
evidence be considered on remand);
•
United States v. Davis, 611 F. Supp.
2d 472, 485-88 (E.D. Md. 2009) (“[T]he

48a
Court finds the defendant’s Flynn Effect
evidence both relevant and persuasive,
and will, as it should, consider the Flynnadjusted scores in its evaluation of the
defendant’s intellectual functioning.”);
•
Wiley v. Epps, 668 F. Supp. 2d 848,
894-95 (N.D. Miss. 2009) (taking into
consideration the obsolescence of test
norms in weighing the evidence on
intellectual functioning);
•
People v. Superior Court of Tulare
County, 155 P.3d 259, 263 n. 4 (Cal.
2007) (recognizing that “[t]he Flynn
effect is the observed tendency of mean
scores on a given IQ test to increase
slowly over time.”);
•
United States v. Parker, 65 M.J. 626,
629 (N.M. Ct. Crim. App. 2007) (finding
that the Flynn Effect is to be considered
when evaluating a defendant’s IQ);
•
Williams v. Campbell, No. 04-0681WS-C, 2007 U.S. Dist. LEXIS 27050 (S.D.
Ala. Apr. 11, 2007) (holding that the
Flynn Effect could potentially render IQ
scores unreliable);
•
Green v. Johnson, 431 F. Supp. 2d
601, 610 (E.D. Va. 2006) (stating that
evaluation of mental
retardation
purposes requires considerations other
than whether the score of above or below
70, including consideration of the Flynn
Effect).

49a
•
Burgess v. Commissioner, 723 F.3d
1308, 1321 n. 16 (11th Cir. 2013)
(permitting consideration of Flynn
Effect);
•
Black v. Bell, 664 F.3d 81, 95-96
(6th Cir. 2011) (lower courts erred in
failing to consider Flynn Effect);
•
Thomas v. Allen, 607 F.3d 749, 75758 (11th Cir. 2010) (district court’s
application of Flynn Effect not clearly
erroneous);
•
Brumfield v. Cain, 854 F. Supp. 2d
366, 391-92 (M.D. La. 2012) (considering
Flynn Effect as part of holistic
assessment of intellectual functioning),
affirmed by 808 F.3d 1041 (5th Cir.
2015);
•
United States v. Hardy, 762 F. Supp.
2d 849, 857-67 (E.D. La. 2010)
(conducting an exhaustive review of
literature and applying the Flynn Effect).
78. The Court finds that correcting intelligence
scores for the Flynn Effect is proper procedure,
supported by peer-reviewed scientific literature, other
courts, and by a preponderance of the expert
testimony and evidence presented to this Court.
D. Correction for norm obsolescence is
separate than the application of the
standard error of measurement.
79. IQ scores, separate and apart from the Flynn
Effect, must account for measurement error. All
psychometric tests, even when they are reliable, like

50a
the Wechsler test, have a small amount of
measurement error that is typically expressed in
terms of standard errors of measurement. [H.T. Vol.
5: 47]. Dr, Fletcher testified that the standard error of
measurement is based on an index of variability
around each person’s average score. The error must be
standardized to get the standard deviation, and the
standard error of measurement is computed by the
standard deviation and the square root of the sample
size. [H.T. Vol. 5:48]. Generally, two standard
measurement errors are used to create a 95 percent
confidence interval, equating to about five points. The
convention is to express this as a range that is five
points on either side, plus or minus. Id.
80. The State’s experts’ conclusion that the
standard error of measurement already accounts for
the Flynn Effect is incorrect. Correction for the Flynn
Effect applies to the norms of tests. The standard
error of measurement applies to the observed test
score and is a statistical analysis. Even if the scores
increase, there is no effect on the standard deviation
of the test (usually fifteen points) and has no effect on
the standard error of measurement because the entire
distribution of test scores shifts and are higher than
when originally normed. Thus, applying the
convention that indicates an average IQ is 100 and
two standard deviations below the mean indicates
significantly subaverage IQ, would require scores of
103 and 73 on a ten year old test, 106 and 76 on a 20
year old test, and so on to show mental retardation.
Dr. Fletcher testified that the Flynn Effect cannot
possibly be part of the standard error of measurement,
and Dr. Proctor could not cite to any authority to
support his contrary conclusion. [H.T. Vol. 7: 202].

51a
81. Dr. Flynn described the norming of tests to
measuring height with a measuring tape. He stated
that each test has a reference group that sets the
norms and is a tape measure. The measuring tape
tells a person whether an individual is of average
height, meaning having an intelligence score of 100,
or whether a person is a bit above average, having an
intelligence score of 115, or whether a person is below
average. The norm is “the tape measure for actually
giving the IQ scores” [H.T. Vol. 4: 44-46]. Dr. Flynn
also explained that if an older test is used, the score
may be deceptive. For example, he explained that if a
person left a tape measure out in the rain, it may
shrink. If the same tape measure was used after it
became obsolete, the height that was measured would
be incorrect. [H.T. Vol. 4: 47].
82. Also supportive, the AAIDD Manual discusses
the Flynn Effect and the standard error of
measurement as two separate issues in two separate
sections. [H.T. Vol. 7: 204]. The AAIDD Manual, on
page 37, recognizes the Flynn Effect as an
“observation that every restandardization sample for
a major intelligence test from 1932 through 1978
resulted in a mean IQ that tended to increase over
time. [DX 4, AAIDD Manual at 37]. On the other
hand, the AAIDD Manual, on page 36, states the
standard error of measurement “is used to quantify [a]
variability and provide a stated statistical confidence
interval within which the person’s true score falls.”
[DX 4, AAIDD Manual at 36].
83. The Court finds that application of the Flynn
Effect is separate than an adjustment for the standard
error of measurement.
E. The Flynn Effect is applied by clinical

52a
practitioners to individual test results
and is also accepted outside the criminal
justice system.
84. Practitioners outside the criminal justice
system apply the Flynn Effect. [H.T. Vol. 6: 39]. Dr.
Fletcher testified that practitioners who are experts
in the area of mental retardation consider and apply
the Flynn Effect in determining whether individuals
are eligible for Social Security benefits or special
education in the school system. [H.T. Vol. 5:21].
85. The AAIDD User’s Guide applies to clinical
practitioners and is an attempt to make it clear to
clinical practitioners how they should apply the
AAIDD Manual. [H.T. Vol. 5:25]. The User’s Guide
advocates the practice of correcting for aging norms by
applying the Flynn Effect. [User’s Guide at 23]. In a
list of guidelines for clinical practitioners, the guide
specifically instructs clinical practitioners to make a
correction upward of 3 points per decade for the age of
the norms:
The
Flynn
effect
affects
any
interpretation of IQ scores based on
outdated norms. Both the 11th edition of
the manual and this User’s Guide
recommend that in cases in which a test
with aging norms is used as part of a
diagnosis of [intellectual disability], a
corrected Full Scale IQ upward of 3
points per decade for age of norms is
warranted. For example, if the
Wechsler Adult Intelligence Scale
(WAIS-III; 1997) was used to assess
an individual’s IQ in July, 2005, the

53a
population mean on the WAIS-III
was set at 100 when it was originally
normed in 1995 (published in 1997).
However, on the basis of Flynn’s
data (2006), the population mean on
the WAIS-III Full-Scale IQ corrected
for the Flynn Effect would be 103 in
2005 (9 years x 0.30 = 2.7). Hence,
using the significant limitations of
approximately
2
[standard
deviations] below the mean, the
Full-Scale IQ cutoff would be
approximately
73
and
not
approximately 70 (plus or minus the
SEM).
Id. (emphasis added) (internal citations omitted).
86. Applying the Flynn Effect to correct for norm
obsolescence, including to individual test results, is
generally accepted scientific procedure in the
pertinent professional community outside the
criminal justice system, which includes psychologists,
clinical school psychologists, neuropsychologists,
researchers, and test consumers. [H.T. Vol. 6: 39].
87. Dr. Fletcher testified that “you will find people
discussing the Flynn Effect in estimating it 0.3 points
per year in virtually any major textbook or treatise on
intellectual assessment.” [H.T. Vol. 5: 27].
1. Application of the Flynn Effect in
determining disability in the school
system
88. One of the categories and eligibility criterion
under the Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1400, is mental retardation. The

54a
IDEA is a federal special education law that applies to
all fifty states in terms of determination of disability.
Under the IDEA, mental retardation is analyzed
using a three-pronged definition, similar to that set
out in the AAIDD Manual. Dr. Fletcher testified that
there are several examples of where the states
implement the IDEA and consider the problem of
using obsolete norms and the misdiagnosis of mental
retardation because of inflated scores. [H.T. Vol. 5:
33]. The federal statutes, however, do not specify any
criteria to be used. The states take what Congress
passes and then translate that into standards. Dr.
Fletcher testified that the federal statutes would not
discuss the Flynn Effect, but in practice, it is a
consideration. [H.T. Vol. 7: 206].
89. Dr. Fletcher testified that special education
benefits in schools depend on correction for the Flynn
Effect. Practitioners recognize that obsolescence of old
norms is an issue. The Weschler Intelligence Scale for
Children-Revised (“WISC-R”), for example, for a time,
gave inflated scores, and as a consequence, children
who might have received special education benefits
when assessed with the WISC-R, would not receive
them. Obsolescence is particularly an issue in schools
because school districts cannot always afford to
purchase the newest and latest versions of an IQ test.
[H.T. Vol. 5: 34]. It is proper for school districts that
use outdated IQ tests to correct scores in accordance
with the Flynn Effect. [H.T. Vol. 6: 26].
90. Dr. Fletcher elaborated that when he served
on the President’s Commission for Special Education,
the Commission would hold hearings on the costs of
assessment. The cost of administering tests to
determine whether or not a child was eligible for

55a
special education benefits ranged from $800 to $8,000
and the average was about $4,500 per child. A kit for
the Wechsler, for example, costs over $1,000 with the
hard case, and a school must then buy manuals and
response booklets. [DX 36, Price Sheet for Wechsler
Intelligence Scale for Children – Fourth Edition
(WISC-IV) and DX 37, Price Sheet for Wechsler Adult
Intelligence Scale – Fourth Edition (WAIS-IV); H.T.
Vol. 5: 38].
91. Concerns about costs of purchasing new
intelligence tests are also voiced in peer-reviewed
journals. For instance, in the article, “Are All IQ
Scores Created Equal? The Differential Costs of IQ
Cutoff Scores for At-Risk Children,” authors Tomoe
Kanaya, Ph.D. and Stephen J. Ceci, Ph.D. write
“Replacing old IQ norms with new (more accurate)
norms, however, is an expensive and slow process.
Faced with a cost of approximately $1,000 per testing
kit and the need to purchase many such kits, school
districts can adopt a new IQ norm as quickly as their
budgets allow.” [DX 27, Tomoe Kanaya and Stephen
J. Ceci, “Are All IQ Scores Created Equal? The
Differential Costs of IQ Cutoff Scores for At-Risk
Children,” 1(1) Child Development Perspectives 52
(2007)]. The recommendation of these authors was
that there be a correction for obsolete norms by school
systems. Id.
92. In a commentary to the article authored by
Tomoe Kanaya and Stephen J. Ceci, Keith Widaman,
in his article “Stalking the Roving IQ Score Cutoff: A
Commentary on Kanaya and Ceci (2007)” agreed that
the Flynn Effect is a proper correction in the
education system:

56a
If Flynn-effect adjustments can dampen
improper score fluctuations due to aging
norms and thereby smooth out the
proportions of students receiving IQs of
70 or below, I think adjustments should
be used; in fact, it would be
inappropriate to do so. This “quick fix” is
admittedly imperfect and should be
monitored by continuing research to
ensure that it has no unintended
negative consequences. Nonetheless,
use of Flynn-effect adjustments,
however imperfect, is likely to have
fewer negative consequences than
would the failure to use such
adjustments.
[DX 32, Keith Widaman, “Stalking the Roving IQ
Score Cutoff: A Commentary on Kanaya and Ceci
(2007)” Child Development Perspectives 57 (2007)]
(emphasis added).
93. Drs. Kanaya and Ceci reasserted their
position very recently in a 2010 article by stating that
“IQ scores play a major role in determining the
educational experiences and opportunities provided to
a child (and the costs incurred by the schools to
implement these special education services)
throughout his or her school years.” Stephen J. Ceci
and Tomoe Kanaya, “‘Apples and Oranges Are Both
Round’: Furthering the Discussion on the Flynn
Effect,” 28(5)
Journal
of Psychoeducational
Assessment 441, 444 (2010) (stating there is a higher
likelihood for the Flynn Effect to have an impact on a
child’s special education diagnosis).
94.

Dr. Kaufman concurred in his testimony. He

57a
explained that during one of his lectures at Yale
University, a school psychologist who attended the
lecture commented that his school district has had a
money freeze for years where updated versions of the
different intelligence tests are not available. Dr.
Kaufman responded that the psychologist should use
the best test available, but if the only test available is
an outdated one, then correction for the Flynn Effect
should be made at three points per decade. [H.T. Vol.
6: 27].
95. The Court finds application of the Flynn
Effect in determining special education benefits
persuasive evidence that clinical practitioners use the
Flynn Effect outside of the criminal justice system.
2. Application of the Flynn Effect in
determining eligibility for Social
Security disability benefits
96. The Flynn Effect is recognized by the United
States government. In the Social Security benefits
RETARDATION,
DETERMINING
guide,
MENTAL
ELIGIBILITY FOR SOCIAL SECURITY BENEFITS, prepared
by the Committee on Disability Determination for
Mental Retardation [DX 11], authors advise and
discuss the Flynn Effect:
Research suggests that intelligence in
the entire population increases at a
rate of approximately 3 IQ points
per decade, which approximates the
standard error of measurement for most
comprehensive intelligence tests. Thus,
tests with norms older than 10 to 12
years will tend to produce inflated
scores and could result in the denial

58a
of benefits to significant numbers of
individuals who would be eligible for
them if more recent norms had been used.
Disability examiners who use tests with
outdated norms may be systematically
if unintentionally denying benefits
to those who are legally entitled to them.
The examiners also risk losing their
licenses for ethical violations of the
their professional codes.
[DX 11, National Research Council, MENTAL
RETARDATION, DETERMINING ELIGIBILITY FOR SOCIAL
SECURITY BENEFITS (2002) at 123 (emphasis added);
H.T. Vol. 5: 30].
97. Dr. Fletcher testified he has applied the Flynn
Effect in determining whether individuals have
mental retardation and therefore qualify for benefits
through the Social Security Administration. For
example, he administered an IQ test to an individual,
and after determining that his IQ was in the range
associated with mental retardation, he also
administered an adaptive behavior assessment. Dr.
Fletcher further examined the individual’s school
records, and the records indicated there were
difficulties, although the individual was not in special
education for mental retardation but for behavior
problems. The IQ test that was given, the Wechsler
Intelligence Scale for Children-Revised (“WISC-R”),
was about fourteen or fifteen years old, and Dr.
Fletcher testified that under these circumstances, he
applied the Flynn Effect. [H.T. Vol. 5: 28-29].
98. Dr. Proctor agreed that when determining
Social Security benefits, if intelligence tests with older
norms are administered, a significant number of

59a
individuals will be denied benefits who would
otherwise be eligible because of “inflated” scores. [H.T.
Vol. 7: 70], Once again, this is agreement by the
State’s own experts that the Flynn Effect cannot be
ignored.
99. The Court finds application of the Flynn
Effect in determining Social Security benefits
persuasive evidence that clinical practitioners use the
Flynn Effect outside of the criminal justice system.
F. The known error rate of the Flynn Effect.
100. In their professional opinions, both Dr. Flynn
and Dr. Kaufman viewed error rates associated with
correcting individual scores as a misunderstanding of
the application of the Flynn Effect. Correcting for the
Flynn Effect is not a question of modifying individual
scores; instead, it is a question of adjusting the
normative basis of the test, which has been altered by
the rise overall in intelligence scores of about three
points per decade. Therefore, the need to reflect
accurately the individual’s test score is a need to
understand how the norms have changed. [H. T. Vol.
6; 41-42]. For instance, an average IQ score when the
test is normed is 100, but the average will be 103 a
decade later because of norm obsolescence. Correcting
the individual score when a test with aging norms is
used corrects for norm obsolescence. Otherwise,
standards for the determination of mental retardation
would have to increase by three points each decade. In
the example given above, the score associated with
mental retardation on a ten year old test would be 73.
101. On the issue of error rate at the evidentiary
hearing, Dr. Fletcher presented assessments
completed by his research team, which were later

60a
published, Jack M. Fletcher, Karla K. Stuebing, and
Lisa C. Hughes, “IQ Scores Should be Corrected for
the Flynn Effect in High-Stakes Decisions,” 28(5)
Journal of Psychoeducational Assessment, 494 (2010),
that showed that across Wechsler/Binet tests, the
measurement error associated with the Flynn Effect
of three points per decade is plus or minus one on
either side of that confidence interval. [H.T. Vol. 5:
46].
102. Dr. Fletcher testified that this error rate is
minimal given that the average norm obsolescence is
consistently found to be about 0.3 points per year
accounting for different ages, ability levels, and even
different types of tests such as Wechsler, Binet, or
Kaufman. [H.T. Vol. 6: 42]. The amount of variability
around the average amount of change is small given
the size of the mean difference. It is generally larger
at lower levels of IQ so 0.3 points per year is a
conservative estimate.
103. Dr. Fletcher’s published study and related
testimony demonstrated that the 95% confidence
intervals for the Flynn Effect using the 14 studies
identified by Dr. Flynn as contemporary comparisons
of Wechsler and Binet scales is 2.50 to 3.09, with a
weighted mean of 2.80, close to Flynn’s unweighted
average of 2.99. Dr. Fletcher testified and concluded
in his article that the error rate is roughly plus or
minus one point per decade, which is sufficiently
precise for a correction for the Flynn Effect. Jack M.
Fletcher, Karla K. Stuebing, and Lisa C. Hughes, “IQ
Scores Should be Corrected for the Flynn Effect in
High-Stakes
Decisions,”
28(5)
Journal
of
Psychoeducational Assessment, 494 (2010).
104. Dr. Fletcher’s opinion was also based on the

61a
WAIS-IV TECHNICAL AND INTERPRETIV E MANUAL. [DX
14, David Wechsler, WAIS-IV TECHNICAL AND
INTERPRETIV E MANUAL 77 (4d ed. 2008), Table 5.6].
The creators of the manual gave both the WAIS-III
and WAIS-IV to about 240 people. The ranges
included on Table 5.6 in the manual were 95 percent
confidence intervals updated for examinees
administered both tests in counterbalanced order. Dr.
Fletcher testified that the scores were corrected by
three points plus or minus one on either side of the
confidence interval. [H.T. Vol. 5: 45-47].
105. The State’s expert Dr. Hagan agreed that
there is a known or potential error rate for the Flynn
Effect. [H.T. Vol. 7: 118]. Dr. Proctor made no mention
of the error rate. The State did not provide further
evidence or any explanation as to the error rate.
106. The Court finds that there is a known error
rate for the Flynn Effect of 0.1 per year and that the
proposed correction of 0.3 points per year is
sufficiently precise to be applied.
V. PRONG ONE: “SIGNIFICANT
LIMITATIONS” IN GENERAL
INTELLECTUAL FUNCTIONING
107. Mr. Cathey’s IQ score establishes that he has
“significant limitations” in intellectual functioning.
A. IQ Test Administered by Dr. Yohman in
1996
108. Dr. J. Robert Yohman, a licensed Texas
psychologist with specialty certification in clinical
neuropsychology, administered the Wechsler Adult
Intelligence Scale-Revised (“WAIS- R”) to Mr. Cathey
on December 26, 1996. Mr. Cathey’s scaled score on

62a
that test was a 77. [DX 40]. Dr. Yohman made no
correction to Mr. Cathey’s score for the Flynn Effect.
If the Flynn Effect is taken into account, along with
the standard error of measurement, Mr. Cathey’s true
IQ score falls within the range necessary for
diagnosing mental retardation.
1. Applying the Flynn Effect and the
standard error of measurement
109. To apply the Flynn Effect to Mr. Cathey’s
score of 77, Dr. Fletcher testified that an estimate of
the age of the normative sample must first be
calculated. The WAIS-R, administered by Dr. Yohman
in 1996, was normed in 1978. At the time it was
administered to Mr. Cathey, the norms for the WAISR were eighteen years old. Dr. Fletcher stated that to
apply the Flynn Effect in this case, a practitioner
must multiply 0.3 by eighteen, which is 5.4 points.
Correcting the full- scale score of 77 for the Flynn
Effect results in a score of 71.6. [H.T. Vol. 5: 43].
110. Dr. Proctor conceded that there is some
inflation in Mr. Cathey’s score of 77 and that the
Flynn Effect has had an impact on the score. [H.T. Vol.
7: 29]. Dr. Proctor also submitted that were he asked
to correct the score of 77 for the Flynn Effect, he would
multiply 0.3 by eighteen years for a correction of 5.4
points, computing the score to a 71.6, the same
procedure and result testified to by Dr. Fletcher, [H.T.
Vol. 7:64].
111. Dr. Fletcher testified that the standard error
of measurement must be applied to the score of 71.6,
calculating a range of 66.6 to 76.6, after accounting for
the five points of measurement error. [H.T. Vol. 5: 49].
2. Reliability of Dr. Yohman’s Score

63a
112. Dr. Yohman is a licensed psychologist in
Texas with specialty certification in clinical
neuropsychology and is a diplomate of the American
Board of Professional Psychology and American Board
of Clinical Neuropsychology. He has been licensed to
practice in the state of Texas since 1998. [DX 40]. Dr.
Yohman administered the WAIS-R in the Harris
County jail under acceptable conditions. [DX 48, Trial
Transcript, Vol. 23: 16]. The Court finds Dr. Yohman
was qualified to administer the intelligence test and
that the test was scored correctly.
113. The State had opportunity and good reason to
administer an IQ test to Mr. Cathey in 1996, and it
failed to do so. Additionally, the State was given the
right to fully cross-examine Dr. Yohman and his
testing methodology at the punishment phase of Mr.
Cathey’s trial, and it has not ever questioned or
objected to the validity of the test, Dr. Yohman’s
qualifications, or Mr. Cathey’s score of 77. Because
Mr. Cathey’s experts relied on Dr. Yohman’s score
during the evidentiary hearing and did not present
testimony based on a new intelligence test, retesting
was not necessary.” 11 See Lagrone v. State, 942
S.W.2d 602, 610-11 (Tex. Crim. App. 1997) (holding
that when the defense intends to produce expert
11 The State should be collaterally stopped from objecting now

to Dr. Yohman’s testing and score because it failed to object on
these grounds at Mr. Cathey’s trial. The issue of cognitive
disability was placed before the jury during the punishment
phase of trial, and the State had ample reason, at that time, to
request testing of Mr. Cathey. Any retesting of Mr. Cathey now
raises issues under the Fifth and Sixth Amendments, as well as
the Fourteenth Amendment, that protect a defendant from the
State’s effort to interrogate him without his consent. Fields v.
State, 627 S.W.2d 714, 718 (Tex. Crim. App. 1982).

64a
testimony, “trial courts may order defendants to
submit to an independent, state-sponsored psychiatric
exam...”) (emphasis added).
114. Dr. Fletcher testified that examining Mr.
Cathey with another IQ test would not add to his
ability to identify him with or without mental
retardation. [H,T. Vol. 5: 112-113]. Dr. Fletcher stated
that his opinion of mental retardation is valid and
reliable regardless of the fact that he did not interview
or retest Mr. Cathey, [H.T. Vol. 5: 88]. Although the
Psychologist Licensing Act includes a provision on the
need to examine an individual before rendering an
opinion on mental retardation, Dr. Fletcher testified
it was understood that he did not examine Mr. Cathey
and that it was not necessary for his conclusion given
the circumstances, [H.T. Vol. 5: 86-88].
115. Further, Dr. Kaufman, an expert in IQ testing
and methodology, whose testimony was not rebutted
by the State, testified that IQ test norms are not
appropriately applicable to individuals whom have
been incarcerated for as many years as ten, twelve, or
fourteen years because the normative sample does not
include a person who has been incarcerated for that
long. Makers of IQ tests do not include incarcerated
individuals in their sampling for determining norms.
Therefore, Dr. Kaufman testified that it would not be
proper procedure to test an inmate, like Mr. Cathey,
unless no other test was available. Further, Dr.
Kaufman stated that because intelligence tests are
not accurate when administered to inmates who have
been incarcerated for several years, it is best practice
to rely on a valid IQ score obtained before the inmate
was on death row for nearly fourteen years. [H.T. Vol.
6: 35-37].

65a
B. IQ Test Administered by the TDCJ
116. Mr. Cathey’s tests scores from the intake
assessment at the Polunsky Unit lend weight to the
determination that Mr. Cathey meets the first prong
of mental retardation. [DX 57, Texas Department of
Criminal Justice (“TDCJ”) Service Investigation
Worksheet].
117. A 1998 Service Investigation Worksheet
included in the TDCJ records indicated Mr. Cathey
had an “EA score below 5 and an IQ below 73.” [DX
57, TDCJ Service Investigation Worksheet; H.T. Vol.
8:63]. Captain Bryant, captain at the Polunsky Unit
where Mr. Cathey is housed, testified that inmates
undergo a psychological assessment at intake. He
verified that the official TDCJ record in Mr. Cathey’s
file and in the State’s own records indicated that Mr.
Cathey had an IQ below 73. [H.T. Vol. 8:63].
118. The State learned of this test score for the first
time at the evidentiary hearing, and this pre-Atkins
IQ score, although found in the records the State
produced, was not provided to or relied on by its
experts. [H.T. Vol. 8: 92-93].
VI. PRONG TWO: “SIGNIFICANT
LIMITATIONS” IN ADAPTIVE BEHAVIOR
119. According to the AAIDD Manual, “[significant
limitations in adaptive behavior are established
through the use of standardized measures and, like
intellectual functioning, significant limitations in
adaptive behavior are operationally defined as
performance that is appropriately two standard
deviations below the population average on one of the
three adaptive skills domains of conceptual, social, or
practical.” [DX 4, AAIDD Manual at 47]. Adaptive

66a
behavior measures what a person actually does on a
habitual everyday basis and not what they are
capable of doing. [H.T. Vol. 7: 185]. The DSM-5
recognizes that people with mild intellectual
disability “may function age-appropriately in personal
care,” possess “recreational skills resembl[ing] those
of age-mates,” and be employed in “jobs that do not
emphasize conceptual skills,” and may be capable of
performing a skilled vocation or raising a family with
the appropriate support. DSM-5 at 34. The focus of an
adaptive behavior assessment, therefore, is “on
documenting the individual’s deficits, not his
strengths,” [DX 29, J. Gregory Olley, “Knowledge and
Experience Required for Experts in Atkins Cases,” 16
Applied Neuropsychology 135-140 (2009)], and the
“focus in evaluations and ultimately adjudications
under the adaptive prong must remain focused on the
individual’s limitations, rather than any skills he or
she may also possess.” [DX 16, James Ellis, Mental
Retardation and the Death Penalty: A Guide to State
Legislative Issues, 27 MENTAL & PHYSICAL DISABILITY
L. REP. 11 (2003)]. Focusing the adaptive behavior
inquiry on adaptive deficits, rather than any adaptive
strengths, is required in light of the United States
Supreme Court’s holdings in Moore I and Moore II.
Moore v. Texas, 137 S. Ct. 1039 (2017); Moore v. Texas,
586 U. S. _____ (2019).
120. Dr. Fletcher described the three major
domains: conceptual, social, and practical. A person
meets the definition of mental retardation for the
adaptive behavior prong if there is a deficiency in one
of these areas or if the composite score across the
three areas is deficient. [H.T. Vol. 5: 52].
121. There are standardized measures that are

67a
commonly used, including the Vineland Adaptive
Behavior Scales (“Vineland”), the Adaptive Behavior
Scales (ABS), the Scales of Independent Behavior, the
Comprehensive Test of Adaptive Behavior-Revised,
and the Adaptive Behavior Assessment System-II
(ABAS). The AAIDD Manual advises that an
administrator should obtain information regarding
the individual’s adaptive behavior “from a person or
persons who know the individual well. Generally,
individuals who act as respondents should be very
familiar with the person and have known him/her for
some time and have had the opportunity to observe
the person function across community settings and
times. Very often, these respondents are parents,
older siblings, other family members, teachers,
employers, and friends.” [DX 4, AAIDD Manual at 47].
122. Dr. Fletcher testified that practitioners
generally do not, and should not, assess criminal
behavior as part of the criterion for an adaptive
behavior problem. He described incarceration as “a
highly structured and very atypical social situation.”
Criminal behavior and facts of the underlying crime
are not used to identify adaptive behavior weaknesses
because this is evidence of maladaptive behavior, and
adaptive behavior and maladaptive behavior are
entirely different phenomenon. [H.T. Vol. 5: 74-75].
Dr. Proctor agreed with Dr. Fletcher that adaptive
behavior and maladaptive behavior are separate and
distinct concepts. [H.T. Vol. 7:244].
123. Marc Tasse, Ph.D., an expert on the
assessment of adaptive behavior, in an article titled
“Adaptive Behavior Assessment and the Diagnosis of
Mental Retardation in Capital Cases,” published in
the peer-reviewed journal Applied Neuropsychology,

68a
also recommends that correctional officers not be
interviewed as respondents for adaptive behavior
assessment:
Correctional officers and other
prison personnel should probably
never be sought as respondents to
provide information regarding the
adaptive behavior of an individual that
they’ve observed in a prison setting. The
only extreme circumstance when one
might consider interviewing a member of
the prison personnel regarding an
inmate’s adaptive behavior would be if
there is absolutely no one alive who can
provide any information regarding the
individual’s
functioning
prior to
incarceration.
[DX 31, Marc J. Tasse., “Adaptive Behavior
Assessment and the Diagnosis of Mental Retardation
in Capital Cases,” 16 Applied Neuropsychology 114
(Mar. 2009)] (emphasis added).
124. Greg Olley, Ph.D., an expert psychologist and
chair of the Division 33 American Psychological
Association Committee on Mental Retardation,
confirms in his article:
Typical community functioning is
difficult to assess in an individual who is
incarcerated; the essential information
is the individual’s performance in the
community before incarceration—not
behavior in the structured environment
of a jail or prison where a person with
mental retardation may function quite

69a
well. Therefore, observation of the
defendant’s prison functioning and
reports by correctional officers do
not
provide
the
necessary
information for a valid diagnosis.
[DX 29, J. Gregory Olley, “Knowledge and Experience
Required for Experts in Atkins Cases,” 16 Applied
Neuropsychology 137 (2009)] (emphasis added).
125. Dr. Proctor agreed that an adaptive
behavioral assessment should occur in the context of
the individuals’ typical community environment and
that prison adaptive behavior is not valid for
assessing adaptive ability in the free world. [H.T. Vol.
7: 102]. He also agreed with the statement that “[t]he
evidence for adaptive behavior strengths or deficits
must illustrate typical community functioning.” [H.T.
Vol. 6: 231, DX 30, Daniel J. Rechsly, Documenting the
Developmental Origins of Mild Mental Retardation,
Applied Neuropsychology 16, 124-134 (2009)]. Dr.
Proctor has not published peer-reviewed literature on
the subject. [H.T. Vol. 6: 234].
126. Dr. Proctor agreed that “the sole purpose of
the adaptive prong of the definition for the criminal
justice system is to ascertain that the measured
intellectual impairment has
had real life
consequences, and that the presence of confirming
deficits must be the diagnostician’s focus.” [H.T. Vol.
6: 212-214].
A. Dr. Fletcher’s Adaptive Behavior
Assessment
127. Dr. Fletcher used the Vineland test procedure
to analyze adaptive behavior. He testified that the
Vineland is a standardized procedure, and he used a

70a
form of the Vineland that represents a semistructured interview. The Vineland is an appropriate
assessment identified in the AAIDD Manual and also
recognized and accepted by courts 12 in this
jurisdiction. To minimize bias of the answers he
received from his respondents, Dr. Fletcher used an
interview form rather than a checklist. [H.T. Vol. 5:
60-61]. This form generates a set of scores from which
Dr. Fletcher then compared the scores to normative
tables. [H.T. Vol. 5: 54-55]. Dr. Fletcher has
administered hundreds of Vineland tests, followed
proper protocol, and has used retrospective
assessments in the past. [H.T. Vol. 7: 190]. He did not
record his conversations with the respondents but
took notes on the forms because he has become very
familiar with the protocol through his practice. [H.T.
Vol. 5: 131].
128. Dr.
Fletcher
testified
that
when
administering adaptive behavior assessments,
practitioners look for limitations that make it difficult
for a person to function independently in society. He
explained that people with mental retardation have
strengths in certain areas and can do things like learn
to drive cars, work, and get married but that the
12 See, e.g., Wiley v. Epps, 625 F.3d 199, 217 (5th Cir. 2010)

(recognizing that “the authors of the Vineland test expressly
state that retrospective interviews to obtain information about a
subject’s behavior at an earlier stage is permissible in certain
circumstances, including when the subject is in a restricted
environment, such as a prison, and there is a question about the
subject’s adaptive functioning before coming to that
environment’’); Chester v. Quarterman. No. 5:05-cv-29, 2008 U.S.
Dist. LEXIS 34936, at *5 (E.D. Tex. Apr. 28, 2008) (stating the
Vineland test is “an accepted instrument for measuring
limitations in adaptive behavior”).

71a
purpose of an assessment is to focus on the
weaknesses. [H.T. Vol. 5: 51].
129. In determining who to interview, Dr. Fletcher
looked for people who knew Mr. Cathey best during
his developmental period and prior to incarceration.
Mr. Cathey’s parents are deceased, but his older sister
was in the home until she left at the age of eighteen
and when Mr. Cathey was twelve or thirteen. Mr.
Cathey married in his teens, and Ms. Bryant was also
a suitable respondent. [H.T. Vol. 5: 55-56]. Although
“a retrospective adaptive behavior assessment can be
challenging,” literature confirms that it is “often
considered as the only viable option when the
assessed individual is incarcerated. Interviewing a
respondent while asking them to recall a time prior to
the individual’s incarceration is the proposed means
of capturing the individual’s typical adaptive behavior
in the community and establishing a retrospective
diagnosis.” [DX 31, Marc J. Tasse, “Adaptive Behavior
Assessment and the Diagnosis of Mental Retardation
in Capital Cases,” 16 Applied Neuropsychology 120
(Mar. 2009)]; see DX 29A, J. Gregory Olley and Ann
W. Cox, “Assessment of Adaptive Behavior in Adult
Forensic Cases: The Use of the Adaptive Behavior
Assessment System-Ill,” in ADAPTIV E BEHAV IOR
ASSESSMENT-II: CLINICAL USE AND INTERPRETATION
381, 387 (Thomas Oakland and Patti L. Harrison eds,
2009) (“Thus, the focus should be on the proper use of
all available assessment methods and sources of
information. With the best available information in
hand, the expert can exercise clinical judgment to
reach a conclusion.”)].
130. Dr. Fletcher also followed guidelines laid out
by Dr. Mark Tasse for the conduct of retrospective

72a
assessment when he performed the Vineland exams.
Dr. Tasse recommends that a practitioner very
carefully define the time period in which the interview
will occur and then conduct the interview and
establish with the respondent what that time period
is going to be. [DX 31, Marc J. Tasse, “Adaptive
Behavior Assessment and the Diagnosis of Mental
Retardation in Capital Cases,” 16 Applied
Neuropsychology 114 (Mar. 2009)]. 13
131. Dr. Fletcher contacted the developer of the
Vineland, Dr. Sara Sparrow, and asked her if she felt
that retrospective interviews were appropriate and
also whether telephone interviews were appropriate.
Dr. Sparrow responded that both methods were
sound. She indicated there was no difference in
conducting a face-to-face as comparable to telephone
13 These guidelines were updated in 2018 and reaffirm the

actions Dr. Fletcher took in performing the Vineland exams. See
Marc J. Tasse & John H. Blume, INTELLECTUAL DISABILITY AND
THE DEATH P ENALTY (2018) [Attachment 3, Exhibit 3-9]. Other
scholars have written recent publications on the Vineland and
retrospective assessments. See Greg Olley, “Adaptive Behavior
Instruments,” in E. A. Polloway (Ed.), THE DEATH PENALTY AND
INTELLECTUAL DISABILITY 187-200 (2015) (identifying the
Vineland as one of the four acceptable instruments available for
the assessment of adaptive behavior and supporting the use of a
retrospective assessment in Atkins cases because such
assessments are “inherently retrospective because of the need to
interview multiple respondents who knew the individual in the
developmental period and before the crime took place.”)
[Attachment 3, Exhibit 3-10]; Denis W. Keyes & David
Freedman, “Retrospective Diagnosis and Malingering,” in E. A.
Polloway (Ed.), THE DEATH PENALTY AND INTELLECTUAL
DISABILITY (2015) (noting that retrospective assessments are
necessary when an individual is older than the developmental
period indicated by the third prong) [Attachment 3, Exhibit 311].

73a
interview as a result of one of her prior studies. [H.T.
Vol. 5: 57-58].
132. Using the Vineland, Dr. Fletcher interviewed
Mr. Cathey’s older sister, Charlotte Ross, and former
wife, Noaella Bryant, to learn about Mr. Cathey’s
childhood, family history, and development. Dr.
Fletcher reviewed all materials provided to him,
including the trial transcript, affidavits from family
members, which he found consistent with his
independent assessment, the school records, and
formal assessments, through the Vineland, of Mr.
Cathey’s former wife, Noaella Bryant, and older
sister, Charlotte Ross. [H.T. Vol. 5: 53]. He did not
review the offense report, the guilt-innocence
testimony, the punishment testimony, prison records,
commissary records, or prison correspondence
because he found these records irrelevant to adaptive
behavior assessment and not indicative of Mr.
Cathey’s adaptive behavior before the age of eighteen
[H.T. Vol. 5: 97-98]. Dr. Fletcher did not examine or
interview Mr. Cathey because outside sources provide
a more reliable basis for assessment than the
individual himself, who may as a result of
socialization, or a desire to please, over or
underestimate his abilities. 14 [DX 4, AAIDD Manual
at 51]. Dr. Fletcher’s decision is confirmed by Dr.
Tasse, who in one of his articles, states that “as many
researchers have documented numerous times,
14 During his testimony at the punishment phase of trial, Dr.

Yohman testified that Mr. Cathey, in response to the personality
tests Dr. Yohman administered, was “portraying himself in a
better light probably than is likely to be found on objective
evidence...He wanted to look good.” [DX 48, Trial Transcript, Vol.
23: 35].

74a
individuals with low IQ may not always be reliable
self-reporters.” [DX 31, Marc J. Tasse, “Adaptive
Behavior Assessment and the Diagnosis of Mental
Retardation in Capital Cases,” 16 Applied
Neuropsychology 114 (Mar. 2009)].
133. Dr. Proctor testified that Dr. Fletcher’s
adaptive behavior assessment used the best possible
information. Authoritative sources in the field of
forensic psychology instruct those assessing adaptive
behavior to either use a standardized measurement
device or to collect information from other sources.
[H.T. Vol. 6: 178]. The best and most reliable
informants are those who are around the person the
most, including teachers, spouses, and family
members. [H.T. Vol. 6: 184]. Dr. Fletcher interviewed
people who had most opportunity to interact with Mr.
Cathey. [H.T. Vol. 6: 238]. Dr. Proctor, on the other
hand, reviewed only records and did not conduct any
interviews.
134. Dr. Fletcher interviewed Mr. Cathey’s older
sister, Charlotte Ross, and his notes and observations
in the form of the Vineland are admitted as an exhibit.
[DX 39, Vineland-II Adaptive Behavior Scales Test of
Charlotte Ross (January 22, 2010)]. In discussing
what Dr. Fletcher characterized as conceptual skills,
Ms. Ross said she would have to repeat things to Mr.
Cathey and could not leave him to do anything Mr.
Cathey was easily distracted and would believe
anything he was told. He did not talk very much,
talked in a monotone, rarely initiated conversation,
and was probably at a sixth grade reading ability.
[H.T. Vol. 5: 60-61]. In discussing what Dr. Fletcher
described as practical skills, Ms. Ross said Mr. Cathey
needed help with lots of things, and she would have to

75a
watch him or things would not get done. He never
used tools. He knew coin denominations but did not
have much experience with money, [H.T. Vol. 5: 61].
In discussing what Dr. Fletcher described as social
skills, Ms. Ross explained that Mr. Cathey did not
play sports, was not very expressive, could play simple
games but not complex ones, and was teased
frequently by other children. [H.T. Vol. 5: 63]. Based
on his interview with Ms. Ross, Dr. Fletcher computed
the adaptive behavior composite score as 66, which he
testified is at the first percentile. Mr. Cathey received
a score of 66 in socialization, a 68 in daily living skills,
and a 69 in communication, scores the Court finds
indicative of mental retardation. [H.T. Vol. 5, p. 63].
135. Dr. Fletcher also interviewed Mr. Cathey’s
former wife, Ms. Noaella Bryant, who married Mr.
Cathey when he was a teenager but then divorced him
a few years later. [DX 38, Vineland-II Adaptive
Behavior Scales Test of Noaella Bryant (January 22,
2010)]. Ms. Bryant told Dr. Fletcher that Mr. Cathey
would not talk with her or communicate very much,
he was not very cooperative, and she could not trust
him to watch any of the children. [H.T. Vol. 5: 65]. Dr.
Fletcher computed the adaptive behavior composite as
59, which is at the less than the first percentile for his
age. Mr. Cathey had a standard score of 61 in
communication, 61 in daily living, and 60 in
socialization, scores the Court finds consistent with
the presence of mental retardation. [H.T. Vol. 5: 66].
136. The interviews of Ms. Ross and Ms. Bryant
corroborated the affidavits Dr. Fletcher reviewed, and
Dr. Fletcher found the affidavits from Mr. Cathey’s
family members reliable evidence. [H.T. Vol. 5: 98].
Dr. Proctor, by contrast, did not consider the affidavits

76a
nor attempt to interview the family members,
although he had full opportunity to do so. [H.T. Vol. 6:
214, 223]. The Court finds the affidavits submitted by
Mr. Cathey’s family members reliable and indicative
of adaptive behavior deficits.
137. From the Houston Independent School
District records, Dr. Fletcher learned that Mr. Cathey
had serious academic problems, that he had failed the
ninth grade, and that he had dropped out of school.
[DX 41, Houston Independent School Records]. He
also read the trial transcript of Mr. Cathey’s teacher’s
testimony who characterized him as seriously behind
in middle school. [H.T. Vol. 5: 72]. Dr. Fletcher found
the records consistent with his assessment that Mr.
Cathey has adaptive behavior deficits.
B. Conceptual Skill Area
138. The Court finds that Mr. Cathey has the
following deficits in the conceptual skill area:
139. Language. Mr. Cathey’s family, who
witnessed him growing up and who have intimate
personal knowledge of his abilities, remember his
difficulties expressing himself. His younger brother,
Robert Charles Cathey, Jr., [DX 43, Affidavit of
Robert Charles Cathey, Jr.], remembers Mr. Cathey’s
communication problems very clearly:
Eric had problems expressing himself
and didn’t speak often. He talked with
me more than anybody else. I would
understand what he was trying to say
even when the words didn’t make perfect
sense. He felt most comfortable talking
when he was doing something he

77a
understood, like playing basketball. He
always used simple sentences and words.
Eric didn’t have the confidence to
verbally confront people because he
didn’t feel that he would get it right. He
would get frustrated when he couldn’t
find the right words or when people
didn’t understand what he was saying.
Sometimes when Eric got into trouble
with other kids, I would step in because
I was much better at talking to people
than he was. He was physically strong
but he was not good at verbal arguments.
Eric was not very good at talking about
his emotions and reacted physically
instead. On several occasions, he
punched holes in the wall because he was
upset and frustrated. I remember this
happening both in his childhood and
during his marriage to Noaella.
140. Mr. Cathey’s older sister, Charlotte Ross,
confirms and similarly recounts Mr. Cathey’s
communicative deficits [DX 42, Affidavit of Charlotte
Ross]:
When we were growing up, Eric was
always very quiet. If you talked to him
he would talk back but he would never
initiate conversations. If Eric did ever
speak, what he said would be short and
straight to the point. I never heard him
use long words. He would usually go
without instead of asking for anything. If

78a
it wasn’t provided for him, he wouldn’t
ask for it.
141. Even Mr. Cathey’s younger sibling, Celecia
Baker, states that Mr. Cathey had difficulties
expressing himself [DX 45, Affidavit of Celecia
Baker]:
As a child, Eric was slower than the rest
of us and didn’t catch onto things quickly.
I don’t think he understood lots of the
things that people said to him. I
remember always having to repeat
myself. Sometimes he would drift off and
wander off to play by himself.
142. Money, time, and number concepts. Mr.
Cathey failed to manage his money. His older sister
recounts that “Eric never had a bank account for his
earnings to go in. He gave all his money and earnings
to Noaella and she paid all the bills.” [DX 42, Affidavit
of Charlotte Ross].
143. The fact that Mr. Cathey was provided
commissary money and used it to make purchases
while on death row does not contradict this finding.
Under Moore I it is generally inappropriate to rely on
adaptive strengths developed in a controlled setting
such as prison. Moore I, 137 S. Ct. at 1050 (citing
AAIDD Manual and DSM-5). Further, in Moore II the
Supreme Court specifically criticized the Court of
Criminal Appeals’ reliance on prison commissary
purchases as evidence of adaptive strengths. Moore II,
586 U.S. ___, ___ (2019) (slip op., at 8). Even at
Polunsky, Mr. Cathey was unable to manage the $85
he was given every two weeks. [H.T. Vol. 8: 70]. Mr.
Cathey spent over his spending limit on several

79a
purchases. [DX 59, Commissary Purchase Receipts;
H.T. Vol. 8: 70-71]. Additionally, there is evidence and
a declaration from an inmate, Mr. Faryion Wardrip,
that Mr. Cathey was assisted on several occasions in
totaling and managing his purchases. [DX 50,
Declaration of Faryion Wardrip].
144. Reading and writing. Mr. Cathey’s school
records indicate limited functioning in reading and
writing. It is clear that he performed poorly in school
and on standardized tests during his academic career,
failed ninth grade, and dropped out the following year.
[DX 41, Houston Independent School District
Records]. In the seventh grade, Mr. Cathey received
D’s in math, history, and science. The next year he
scored below 70 percent in history, science, and one
semester of typing, and received D’s in English,
language arts, reading, math, and one semester of
typing. In his first year of high school, he failed one
semester of English and Spanish. He did not score
higher than a 72 in any subject. [DX 41, Houston
Independent School Records]. Experts in adaptive
behavior assessment recognize that “[g]rading
standards vary from school to school. Information on
the grades earned by other students in the same
education settings can be enlightening. It is important
to understand the grading standards in a specific
school context.” [DX 30, Daniel J. Rechsly,
“Documenting the Developmental Origins of Mild
Mental Retardation,” 16 Applied Neuropsychology,
129 (2009)]. Important then, although Dr. Fletcher
has worked with the Houston Independent School
District and is familiar with Ryan Middle School and
Yates High School, Dr. Proctor, who practices and
lives in Dallas, Texas, admitted that he has no similar

80a
knowledge of the schooling system. [H.T. Vol. 6: 257].
145. Mr. Cathey’s standardized test scores also
show objective evidence of functional academic
impairment. In the spring semester of his ninth grade
year, Mr. Cathey’s Metropolitan Achievement Test
(“MAT”) scores were 5.6 grade level in math, 5.7 grade
level in spelling, 5.4 grade level in language, 6.9 grade
level in science, 5.9 or 6.9 (difficult to read) grade level
in social studies, 5.7 grade level in research skills, 7.1
grade level in total reading, 6.0 grade level in total
math, 5.6 grade level in total language, 6.3 grade level
in total basic battery, and 6.5 grade level in total
comprehensive battery. Mr. Cathey underperformed
by multiple grade levels. [DX 41, Houston
Independent School Records].
146. At the punishment phase of his trial, Mr.
Cathey’s teacher at Ryan Middle School, Ms. Anne
Smith, testified that on grade placement tests for high
school, “[o]n the math test, [Mr. Cathey] functioned
basically in the 30th/40th percentile. He passed all
three sections of the math, the reading, and writing of
the Teams Test, but he was still seriously below grade
level.” [DX 48, Trial Transcript, Vol. 22: 235].
147. Although Mr. Cathey passed the TEAMS test
in the ninth grade, this is no indication that he is not
mentally retarded. Dr. Fletcher testified the TEAMS
test is an achievement test and that even people with
mental retardation can pass the TEAMS test. TEAMS
is a minimal standards test that was dropped by the
State in 1989 and replaced by the TAKS and TAAS
tests that test basic competency. [H.T. Vol. 7: 183].
The TEAMS test was widely criticized for its failure
to accurately measure achievement relative to state
standards. [H.T. Vol. 5: 158].

81a
148. Although Mr. Cathey’s older sister Charlotte
Ross testified at trial that Mr. Cathey was a good
student, in speaking to Dr. Fletcher, she explained
that this meant he was well-behaved and did not get
any detentions. [H.T. Vol. 5: 120]. Ms. Ross also
testified at trial that Mr. Cathey was a “nerd” but this
meant he would read comic books, including
Spiderman. Dr. Fletcher testified that Spiderman was
not a graphic and intricate novel when Mr. Cathey
read it during his childhood and that reading of such
comic books, even today, is consistent with mental
retardation. [H.T. Vol. 5: 121, 161].
149. The fact that Mr. Cathey was not placed in
special education classes because of a disability is still
consistent with a finding of mental retardation.
Literature in the area of mental retardation supports
that “[s]chool diagnoses of [mental retardation] have
become increasingly rare over the last 30
years...Schools increasingly become reluctant to
diagnose [mental retardation] even with persons who
were clearly eligible on relevant criteria.” [DX 30,
Daniel J. Rechsly, “Documenting the Developmental
Origins of Mild Mental Retardation,” 16 Applied
Neuropsychology 128 (2009)].
150. Dr. Yohman administered to Mr. Cathey a
series of achievement tests, including the Wide Range
Achievement Test-Revised (“WRAT-R”) and the
Woodcock Johnson-Revised. [DX 49, Additional Score
Sheets Provided by Dr. Yohman]. On the WRAT-R,
Mr. Cathey’s score indicated he is in the fourth
percentile for spelling and in the eighth percentile for
letter-word
identification
and
passage

82a
comprehension. 15 Id. Dr. Yohman also concluded from
a series of memory tests that Mr. Cathey was
“moderately deficient at about the second percentile
level.” [DX 48, Trial Transcript, Vol. 23: 21]. The
Court finds these results are consistent with and
indicative of deficits in conceptual skills.
151. Additionally, Dr. Yohman administered to Mr.
Cathey a Categories Test and the California Verbal
Learning Test (“CVLT”), tests that are not
intelligence tests, like the WAIS-R, but that are most
related to IQ. [H.T. Vol. 7: 192; DX 49, Additional
Score Sheets Provided by Dr. Yohman]. Dr. Fletcher
testified that the Categories Test is a concept
formation test that has different trials in which a
person has to do problem solving. On this test, Mr.
Cathey obtained a percentile score at the eighth
percentile. [H.T. Vol. 7: 193]. Dr. Fletcher testified
that the CVLT is a verbal memory test and is designed
to examine a person’s ability to organize and encode
information. On the CVLT, Mr. Cathey received a T
score of 26. Dr. Fletcher testified that a T score has a
mean of 50 and a standard deviation of 10. A score of
26 is about two and a half standard deviations below
average, putting Mr. Cathey below the second
percentile. [H.T. Vol. 7: 192-193]. The Court finds
these results consistent with Mr. Cathey’s deficits in
15 At the punishment phase of Mr. Cathey’s trial, Dr. Yohman

testified that Mr. Cathey ‘‘may possibly have a learning disorder
which we’d call a learning disorder not otherwise specified, which
means he has impairment in a variety of academic areas which
certainly led to poor academic achievement, but not particularly
in one area enough of a deficiency to warrant a selective learning
disorder in that area. In other words, he was borderline to mildly
deficient in most academic areas.” [DX 48, Trial Transcript, Vol.
23: 20].

83a
conceptual and memory skills.
152. Dr. Yohman also administered to Mr. Cathey
the Minnesota Multiphasic Personality Inventory
(“MMPI”), which Dr. Fletcher testified is not a
neuropsychological test but is a personality
questionnaire. [H.T. Vol. 7: 195]. Dr. Fletcher stated
the MMPI is not a reading test, and contrary to Dr.
Proctor’s opinion, the MMPI’s test manual and
publisher, Pearson, advises that the average reading
level for the test is a fifth grade level. [H.T. Vol. 7: 195196]. Dr. Fletcher further testified, to which Dr.
Proctor conceded, that the MMPI does not require a
full reading of all its items. Id. Dr. Yohman’s reports
also indicate that he administered to Mr. Cathey a
Trail Test, which Dr. Fletcher testified requires no
abstraction or judgment but is a vocabulary-based
test. [H.T. Vol. 7:198]. Dr. Fletcher, unlike Dr.
Proctor, is a board certified neuropsychologist, and in
his opinion, the scores Mr. Cathey received on these
tests are consistent with mental retardation. 16
153. The fact that Mr. Cathey’s signature appears
on letters and TDCJ forms does not prove that he did
not have adaptive deficits before age 18 and does not
show that he is without deficits today. Captain Bryant
16 Dr. Fletcher testified that although the tests, besides the

WAIS-R, that Dr. Yohman administered to Mr. Cathey are
neuropsychological tests, and not intelligence tests, the Flynn
Effect also effects these scores. [H.T. Vol. 7: 198]. Dr. Fletcher
stated that articles, such as the one admitted into evidence titled
“The Flynn Effect and its Relevance to Neuropsychology,”
explains to neuropsychologists the relevance of the Flynn Effect
and how the phenomenon of norm obsolescence affects
neuropsychological assessments. Id. [DX 52, Merrill Hiscock,
The Flynn Effect and its Relevance to Neuropsychology,” 29(5)
Journal of Clinical and Experimental Neuropsychology (2007)].

84a
admitted that he had not personally seen Mr. Cathey
fill out TDCJ forms. [H.T. Vol. 8: 65]. Further, the
following grievance forms, admitted through
Applicant’s Exhibit 53 17 , included notations
indicating that Mr. Cathey received help 18 in
completing TDCJ Offender Grievance Forms:
•
TDCJ Offender Grievance Form,
received November 2, 2009, including
notation “assisted by”;
•
TDCJ Offender Grievance Form,
received April 8, 2009, including
notation “This Complaint was assisted
by and with the help of Offender”;
•
TDCJ Offender Grievance Form,
received March 5, 2009, including
notation “This was assisted by offender”;
and
•
TDCJ Offender Grievance Form,
received February 13, 2009, including
notation “Assisted by Offender.”
154. Several of the TDCJ forms, with Mr. Cathey’s
name and information, were also filled out in different
handwritings, which confirms the finding that Mr.
Cathey received help from other people. [DX 58, TDCJ
Visitor Forms; H.T. Vol. 8: 67]. From State’s Exhibit
17 Applicant’s Exhibit 53 includes an affidavit from counsel for

Applicant, clarifying that the grievance forms were received after
she submitted an open records request to the TDCJ, The records
were included in Mr. Cathey’s offender’s file, but the State had
not received a copy of the same through their subpoena to the
TDCJ.
18 The names of the people, mostly offenders, who assisted Mr.

Cathey were redacted.

85a
15, but entered as Applicant’s Exhibit 58, the
following visitor change forms, verified by Captain
Bryant, were written in different script:
•
TDCJ Visitor Change Form, dated
April 30, 1997;
•
TDCJ Visitor Change Form, dated
July 20, 1998;
•
TDCJ Visitor Change Form, dated
May 27, 1998; and
•
TDCJ Visitor Change Form, dated
June 22, 2005.
Leah Madison, a correctional officer at the Polunsky
Unit, admitted she did not personally see Mr. Cathey
writing the romantic letter he allegedly gave her that
also caused Mr. Cathey disciplinary problems. [H.T.
Vol. 8: 82]. Dr. Proctor testified that one of the poems
in Mr. Cathey’s letters was plagiarized, and he also
acknowledged that some of the material in the letters
was copied directly from the internet. [H.T. Vol. 6:
140, H.T. Vol. 7: 271]. Dr. Proctor did not see Mr.
Cathey write the letters, and he did not interview
anyone who had seen Mr. Cathey write the letters.
[H.T. Vol. 6: 268]. Although Mr. Cathey spells at the
fourth percentile level, although his full-scale IQ score
was 77 even without correcting for the Flynn Effect,
although Dr. Proctor has never seen Mr. Cathey use a
dictionary, although Dr. Proctor would not expect
someone who spells at a fourth percentile level to be
able to spell the word “renaissance” found in Mr.
Cathey’s letters, which Dr. Proctor admitted not being
able to spell, Dr. Proctor testified that he believes it is
likely that Mr. Cathey wrote the letters. [H.T. Vol.
7:31]. If, however, Mr. Cathey did not write the letters

86a
or the grievance forms, Dr. Proctor stated that his
opinions on mental retardation would change. [H.T.
Vol. 6: 252].
155. There is evidence that inmates in neighboring
cells assisted Mr. Cathey in writing letters. [DX 50,
Declaration of Faryion Wardrip and DX 51,
Declaration of Ronald Hamilton]. Mr. Wardrip, for
example, verified that he lived next to Mr. Cathey at
the Polunsky Unit, read to Mr. Cathey his letters, and
helped Mr. Cathey write letters that related to
political topics, which Mr. Cathey would then copy
and mail. [DX 50, Declaration of Faryion Wardrip].
Mr. Hamilton provided confirming statements,
affirming in his declaration that he read to Mr.
Cathey his letters and helped Mr. Cathey write letters
that related to romantic topics, which Mr. Cathey
would then copy and mail. [DX 51, Declaration of
Ronald Hamilton]. Dr. Fletcher confirmed that adult
men with learning disabilities often ask other men for
help writing romantic letters. [H.T. Vol. 7: 182], Dr.
Proctor was not aware that Mr. Cathey was assisted
by neighboring inmates, but he conceded that this fact
would impact his assessment of Mr. Cathey’s writing
skills. [H. T. Vol. 6: 275].
156. Dr. Fletcher testified that he believed Mr.
Cathey could not have authored the letters included
in the prison records on his own. [H.T. Vol. 7: 175]. He
stated that it was not possible for someone who was
spelling and writing at a fifth grade level to write the
letters that were described, unless there was some
intensive intervention program. [H.T. Vol. 7: 182].
There is no program for death row inmates that could
accelerate development of an individual whose
spelling is in the fourth percentile. Id.

87a
157. Dr. Proctor agreed with the DSM-IV and
admitted that individuals with mild mental
retardation can acquire academic skills up the sixth
grade level by their late teens. [H.T. Vol. 7: 86-87]. To
a certain extent, people with mild mental retardation
are educable, teachable, trainable, and can improve
their writing skills with rote practice. [H.T. Vol. 6:
225].
158. Even if Mr. Cathey had prepared letters on his
own with no assistance, under Moore I it is generally
inappropriate to rely on adaptive strengths developed
in a controlled setting such as prison. Moore I, 137 S.
Ct. at 1050 (citing AAIDD Manual and DSM-5).
Further, in Moore II the Supreme Court specifically
criticized the Court of Criminal Appeals’ reliance on
prison correspondence as evidence of adaptive
strengths, and failure to consider the possibility that
the applicant had received outside help. Moore II, 586
U.S. ___ , ___ (2019) (slip op., at 7-8).
C. Social Skill Area
159. The Court finds that Mr. Cathey has the
following deficits in the social skill area:
160. Gullibility and naiveté. On cross examination
at the punishment phase of Mr. Cathey’s trial. Dr.
Yohman testified that Mr. Cathey is “a follower, who
is very unsophisticated, who has limited intellectual
resources, and who is going to gravitate to whoever
will give him attention and affection, who is going to
be easily manipulated.” [DX 48, Trial Transcript, Vol.
23:35].
161. Dr. Yohman’s testimony comports with
history provided by Mr. Cathey’s sisters and brother:

88a
When Eric was young, other kids would
tell him to do things and he would just
agree. On one occasion, a group of kids
convinced Eric to egg a car and he did.
Another time, one of our cousins
persuaded Eric to throw rocks at cars
from a bridge. Eric wouldn’t put up any
kind of fight. I think he was trying to fit
in and didn’t want to be called chicken.
When he got older, Eric started to be
persuaded to stay out late and not tell
people where he was going. [DX 42,
Affidavit of Charlotte Ross].
Because Eric was slower, he was easily
manipulated by others. He always
wanted other people’s approval and
would do anything to please them. He
always followed the lead of others and
rarely made decisions for himself. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
Eric didn’t have a group of friends when
he was young, so when he started to
make friends as an adult he was very
loyal and wanted to impress them. A lot
of his friends used him and played on his
weakness. They would get Eric to do
favors for them, such as lending them
money. [DX 43, Affidavit of Robert
Charles Cathey, Jr.].
Eric wasn’t very popular. He used to
keep to himself. He had problems
expressing himself. Eric was never a
leader. He always followed. He told me

89a
that he just wanted to fit in. [DX 44,
Affidavit of Celecia Baker].
162. Dr. Proctor admitted, for example, that Mr.
Cathey did not plan the kidnapping, was not a
passenger of the car that was surveying the victim,
did not drive either car involved in committing the
crime, and did not ask any questions of the victim.
[H.T. Vol. 7: 17].
163. Dr. Proctor submitted that it is possible that
Mr. Cathey was asked to participate in the escape
attempt because he is gullible, and Dr. Proctor also
conceded that Mr. Cathey did not plan the escape.
[H.T. Vol. 7: 13-14]. There is no evidence in the
affidavits of Mr. Cathey’s family members that
indicated any leadership characteristics. [H.T. Vol. 7:
15].
164. Self-esteem. Mr. Cathey’s adaptive deficits
caused him to suffer a further impairment of his selfesteem. Mr. Cathey’s brother explains that “Eric
always felt that he wasn’t as good as everybody else.
He was often very hurt about the way other kids
treated him and was upset that he didn’t have many
friends.” [DX 43, Affidavit of Robert Charles Cathey,
Jr.].
165. Charlotte Ross, Mr. Cathey’s older sister,
confirms and recounts first-hand experience with Mr.
Cathey’s low self-esteem [DX 42, Affidavit of
Charlotte Ross]:
Eric got upset very easily. He never
talked about his emotions, but I used to
find him crying. He used to get really
frustrated when we were doing
something that Eric couldn’t do as well

90a
as us. For example, I was a tomboy when
I was young and used to be better than
him at football. This really upset him. He
always looked to us siblings for
reassurance and to tell him that things
would be okay, especially when he got
picked on or told off by his father.
166. Avoiding being victimized. Mr. Cathey was
not able to avoid being a victim during his childhood.
He was often bullied by other children, as described
by his older sister:
Some kids picked on him at school once,
and instead of fighting back or getting a
teacher, he jumped out of a second story
window and ran away. On another
occasion, Eric was at the public pool and
some older guys picked on him and he got
a beating. He didn’t fight back. [DX 42,
Affidavit of Charlotte Ross].
167. Other children took advantage of his impaired
functioning, as described by his brother:
Eric was often teased by other kids
because they thought he was “weird” and
because he was tall and skinny. Eric
found it difficult to avoid fights because
he always reacted to teasing and could
never shrug off insults. Kids in the
neighborhood knew how to wind him up
and enjoyed provoking him. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
168. Interpersonal relations. Mr. Cathey was
severely impaired in terms of interpersonal
relationships. Although Mr. Cathey quit school early

91a
and married Ms. Bryant after she became pregnant
with his child, Ms. Bryant divorced and left him for
someone else. [DX 48, Vol. 23: 27]. Even Ms. Bryant
recounted Mr. Cathey’s limited functioning in the
context of married life [DX 44, Affidavit of Noaella
Bryant]:
What Eric thought was really funny
annoyed me. He used to jump out at me
when it was dark and when I was in the
house and thought I was alone. I would
tell him that he was scaring me, but he
laughed and kept doing it. Eric didn’t
understand why it wasn’t funny. We
fought a lot about this.
169. Mr. Cathey’s older sister also remembers her
brother’s interpersonal difficulties [DX 42, Affidavit of
Charlotte Ross]:
I never knew Eric to have any friends.
The only friends that he had were mine
and his other sister’s and brother’s
friends. Sometimes, when our friends
came around, they would think he was
weird at the beginning because he was
tall, lanky, and never said anything. He
would be quiet and stay in his own space.
170. Mr. Cathey’s brother confirms and also
provides further evidence of Mr. Cathey’s impaired
adaptive functioning [DX 43, Affidavit of Robert
Charles Cathey, Jr.]:
Eric was not very social and did not
speak to many people. When family
friends and relatives visited the house,
he did not want to be around them and

92a
wandered off on his own. He would often
ignore visitors when they spoke to him.
Eric was often teased by other kids
because they thought he was “weird” and
because he was tall and skinny. Eric
found it difficult to avoid fights because
he always reacted to the teasing and
could never shrug off insults. Kids in the
neighborhood knew how to wind him up
and enjoyed provoking him.
Eric always felt that he wasn’t as good as
everybody else. He was often very hurt
about the way other kids treated him
and was upset that he didn’t have many
friends.
171. Dr. Walter Quijano, a licensed clinical
psychologist who testified at the punishment phase of
Mr. Cathey’s trial, administered to Mr. Cathey a
Mallon Clinical Inventory on February 28, 1997 and
testified at trial that Mr. Cathey has a dependent and
compulsive type of personality. [DX 48, Trial
Transcript, Vol. 23:42]. Dr. Quijano described these
personality types as follows:
The dependent personality is one that
uses the relationship to hang on to their
relationship. Their relationship is not
reciprocal like most normal relationships
are, but
the
dependent person
ingratiates, holds, does things for the
other
person
not
because
the
relationship is reciprocal but because
you want to hold on to that relationship.
So, you are bound to do things that you

93a
don’t otherwise want to do or to do
humiliating things to purchase that
relationship.
The compulsive is similar except that the
trick used by the compulsive is to keep
the distance, to not express true feelings,
not express true opinions, less he
displeases the other person and so he
would appear very compliant with rules,
regulations, will do everything properly,
cross the t’s and dot the i’s, not because
it’s rewarding for him, but again because
he wants that relationship to continue.
[DX 48, Trial Transcript, Vol. 23:42-43].
172. Dr. Proctor testified that he did not know if
Mr. Cathey was good at making friends, and there is
no evidence from the trial transcript that Mr. Cathey
had this characteristic. The affidavits of Mr. Cathey’s
family members indicated Mr. Cathey was shy and
did not make friends. Dr. Proctor admitted that this
fact, if true, would indicate a deficit in social adaptive
behavior. [H.T. Vol. 6: 207].
D. Practical Skill Area
173. The Court finds that Mr. Cathey has the
following deficits in the practical skill area:
174. Activities of daily living. Mr. Cathey’s ability
to take care of his daily activities was significantly
impaired by his mental retardation. Mr. Cathey’s
older sister, Charlotte Ross, verified that he was very
dependent on others and unable to manage the
simplest activities:

94a
Eric could never do the washing or the
cooking. I would always do that. He
never helped me with chores around the
house unless I asked him. I would always
have to tell him what to do. He would
never do anything like that on his own
initiative. Sometimes, I would make the
cleaning and washing up into a game, so
that he would help me. I taught him how
to use the microwave and how to clean
around the house. [DX 42, Affidavit of
Charlotte Ross].
175. As confirmed by Mr. Cathey’s family, even
with direction, Mr. Cathey was unable to manage his
home life and marriage:
When he first moved in with me, he could
hardly do anything around the house. I
had to tell him how to wash clothes and
cook. I remember he didn’t even know
how to flip a hamburger patty. I had to
show him how to do everything. I often
left notes for him around the house, so
that he would remember to do chores and
things for the kids, but he often didn’t
finish the chores that I left for him. Eric
also didn’t know how to fix anything
around the house. I always had to call
someone out to fix things. [DX 44,
Affidavit of Noaella Bryant].
One time I went over to see Eric at their
apartment. Noaella had post-it notes all
over the place telling him what to do and
when to do it. The walls were completely
yellow with post-it notes, but he did not

95a
finish what she told him to do. I noticed
that the house was still very messy
though. It was horrible in there. There
were food and clothes everywhere. [DX
42, Affidavit of Charlotte Ross].
176. Dr. Proctor testified that people with mild
mental retardation can master practical skills, can be
aware of their pending execution, can be aware of the
need to buy things, can ask for other people for money,
can ask other people for help, and can be aware of
future court hearings. [H.T. Vol. 6: 277]. Dr. Proctor
agreed that it would be unsound and unreliable expert
methodology to conclude that a person did not have
adaptive behavioral deficits by pointing to his
strengths. [H.T. Vol. 6: 213]. To rely on the fact that a
person does not have adaptive behavioral deficits by
focusing on their strengths is a position that is
unsupported in peer-reviewed literature. [H.T. Vol.
6:214].
177. Use of safety. Mr. Cathey was significantly
impaired in assessing risks and taking precautions.
His sister and brother both recount several occasions
when Mr. Cathey injured himself because of his
failure to assess risk:
On one occasion, we were chasing each
other around a wall. Eric hit his head so
hard it knocked him down, but he got up
and started running and laughing again.
He ran into the wall and hit his head
again, busting it open this time, but
again just got up and carried on running.
This continued until we had to stop him

96a
and tell him that he was hurt. [DX 42,
Affidavit of Charlotte Ross].
Eric was just not aware of risk. If what
he was doing involved risks, he never
made sure that he was safe. He wouldn’t
think to do anything if he got hurt, we
would have to tell him to or do it for him.
Eric got injured a lot. When he was 8 or
9, he cracked his head swinging on a
clothes line. Once, he got spooked by a
bug on the wall and fell off and bumped
his head. Another time, at the age of 8,
Eric fell off a merry-go-round and
bumped his head so hard he passed out.
Around the same age, he broke his arm
swinging on some monkey bars. [DX 42,
Affidavit of Charlotte Ross].
If anything was out of place in the house,
we would immediately think it was Eric
For example, if there was blood on the
walls, we would check Eric’s head and
see if there was a bruise. A saying
developed in our house that it was just
“typical Eric.” [DX 42, Affidavit of
Charlotte Ross].
Eric was especially accident-prone as a
child and often tripped over things.
When he was 9 or 10 years old, he fell off
the porch and injured his head. I
remember my mother and the rest of the
family saying that Eric had “lost his
mind” because of his dazed behavior
after the accident. I also remember him
breaking his arm in Emancipation Park.

97a
[DX 43, Affidavit of Robert Charles
Cathey, Jr.].
178. The incident in which Mr. Cathey fell from the
monkey bars required surgery and a three-day
hospital stay. [DX 46, Harris County Hospital District
Medical Records].
179. Occupational skills. Mr. Cathey had difficulty
obtaining and keeping a steady job. His former wife
explains Mr. Cathey’s impaired occupational skills
[DX 44, Affidavit of Noaella Bryant]:
Our son Eric was born in 1989. Eric had
to get a job to bring in the income. I had
to look for jobs for Eric because he didn’t
look himself. He used to tell me that he
didn’t think that he could get a good job
because he didn’t have any skills. He had
never learned any trades. He sat at home
for a long time with no work. I told him
that he had to get a job so that we could
pay for rent. Eric eventually got a job as
a security guard. He worked by himself
at night, five nights a week. The only
thing that he told me about the job was
that he had a flashlight, and he might be
getting a permit to carry a gun. Eric was
fired from the job because he didn’t wait
to be relieved by the person who came to
take over his shift.
180. Mr. Cathey’s older sister also confirmed Mr.
Cathey’s impairment in occupational skills [DX 42,
Affidavit of Charlotte Ross]:
When Eric was still living at home, my
husband and I got Eric to come to work

98a
with us. We felt like we needed to help
him out. We never gave him any
responsibility though, because Eric
would mess it up. Eric would never have
gotten stressed if we gave him any
responsibility. He was so used to being
told what to do. I always felt like he
needed this guidance, because he
couldn’t cope with things by himself.
181. At the punishment phase of Mr. Cathey’s
trial, Mr. Luke Ezeh, Ms. Charlotte Ross’s former
husband, testified that Mr. Cathey worked with him
at his battery shop for two years. [DX 48, Trial
Transcript, Vol. 22: 242-244]. Mr. Ezeh stated that his
business related to the reconditioning of car batteries
and that he taught Mr. Cathey to check dead batteries
and also asked him to watch the shop for him while he
was away. Id. Dr. Proctor conceded that the work Mr.
Cathey performed at the battery shop was work a
person with mental retardation can perform. [H.T.
Vol. 6: 227-228]. Although Dr. Proctor used evidence
of Mr. Cathey’s occupational skills to evaluate
whether Mr. Cathey had adaptive behavior deficits,
Dr. Proctor also admitted that he did not know how
long Mr. Cathey held jobs, information that is
important to his own evaluation. [H.T. Vol. 6: 226].
182. The fact that Mr. Cathey worked, although he
was terminated, is consistent with mental
retardation. Dr. Fletcher testified that even people
with mental retardation are able to work and learn to
replicate specific tasks, like the tasks Mr. Cathey
performed at the battery shop. [H.T. Vol. 5: 51]. In his
interview of Ms. Bryant, Dr. Fletcher also learned
that when Mr. Cathey did find a job, often he could

99a
not keep it. [H.T. Vol. 5: 159].
E. Testimony and Records from the TDCJ
183. Reliance on evidence of improved adaptive
behavior in prison is generally inappropriate in light
of Moore I and Moore II. Moore I, 137 S. Ct. at 1050
(citing AAIDD Manual and DSM-5); Moore II, 586
U.S. at ___ (slip op., at 8). “Clinicians . . . caution
against reliance on adaptive strengths developed ‘in a
controlled setting,’ as prison surely is. DSM-5, at 38
(‘Adaptive functioning may be difficult to assess in a
controlled setting (e.g., prisons, detention centers); if
possible, corroborative information
reflecting
functioning outside those settings should be
obtained.’); see AAIDD–II User’s Guide 20 (counseling
against reliance on ‘behavior in jail or prison’).” Moore
I, 137 S. Ct. at 1050 (quoting DSM-5 and AAIDD
User’s Guide).
184. During the evidentiary hearing to determine
whether Mr. Cathey meets the diagnostic criteria for
mental retardation, the State called several Texas
Department of Criminal Justice (“TDCJ”) correctional
officers and officials. The State also admitted records
from the TDCJ as evidence. The Court finds that the
environment in which the correctional officers and
officials observed Mr. Cathey is not indicative of
typical community functioning. All inmates are
housed in their cells twenty-three hours a day. The
prison officials tell inmates when to shower, recreate,
and eat. The prison system also supplies all
necessaries to inmates. [H.T. Vol. 8: 69].
185. Dr. Proctor agreed that prison guards are
typically not used for evaluating adaptive behavior
because their interaction with the assessed individual

100a
is too limited. [H.T. Vol. 6: 185]. Dr. Proctor—the
State’s only witness to offer an opinion on whether Mr.
Cathey is a person with mental retardation–admitted
that he did not use, interview, or rely on any
communication with any prison guard or official for
his opinions that Mr. Cathey is not mentally retarded.
[H.T. Vol. 6: 241]. He also admitted that “the fact that
an individual possesses one or more skills that might
be thought by some laypersons as inconsistent with
the diagnosis of mental retardation cannot be taken
as disqualifying.” [H.T. Vol. 6: 212].
186. Although testimony from the State indicated
Mr. Cathey had several books in his cell, Captain
Bryant testified that he had not seen Mr. Cathey read
a book. [H.T. Vol. 8: 63]. There is also evidence that
inmates could easily pass, borrow, and share books
through a “4-inch-by-4 inch hole at the bottom of the
door...” [H.T. Vol. 8: 65]. Captain Bryant stated he had
seen some rather large items such as small paperback
books fit through the gaps, id., and Leah Madison
testified that inmates would pass papers, reading
materials, and almost anything they are asked to
pass. [H.T. Vol. 8: 81]. Dr. Fletcher also indicated that
people with mental retardation try to impress others
and make them think they know a lot more than they
really do. Having books like The Echelon Vendetta [SX
21, State Inventory of Mr. Cathey’s Cell], Tactics and
Strategy of Chess [SX 21, State Inventory of Mr.
Cathey’s Cell], and The Looking Glass [SX 21, State
Inventory of Mr, Cathey’s Cell], in one’s cell when one
has a history of reading deficits, as Mr. Cathey has, is
consistent with Dr. Fletcher’s testimony. [H.T. Vol. 7:
191]. Further, Mr. Faryion Wardrip, who lived next to
Mr. Cathey at the Polunsky Unit, provided a

101a
declaration that Mr. Cathey would hold books for him
and for another inmate in his cell and that very often,
inmates would trade books and even letters through
the gaps in the cell doors. [DX 50, Declaration of
Faryion Wardrip].
187. Similarly, although testimony from the State
indicated Mr. Cathey had a chess board. Captain
Bryant testified he had not seen Mr. Cathey play
chess. [H.T. Vol. 8: 65]. Investigator Don Cohn
admitted that he did not see any chess pieces in Mr.
Cathey’s cell. [H.T. Vol. 8: 21]. Dr. Proctor admitted
that he and others had made assumptions that Mr.
Cathey had been playing chess, when without
evidence of Mr. Cathey even having chess pieces, he
could have been playing checkers. [H.T. Vol. 7:97].
Further, Mr. Faryion Wardrip, who lived next to Mr.
Cathey at the Polunsky Unit, provided in a
declaration that Mr. Cathey did not play chess and
only had a chess board because he wanted to trade it
with another inmate. [DX 50, Declaration of Faryion
Wardrip]. Although Leah Madison stated she had
seen Mr. Cathey play chess, [H.T. Vol. 8: 77], her
testimony is inconsistent with the overwhelming
testimony and evidence that Mr. Cathey did not play
chess. Ms. Madison did not testify as to how long Mr.
Cathey played chess, how often he played chess, or
whether the pieces being used were actually chess
pieces.
188. Dr. Proctor admitted that inmates do not have
access to the internet and that someone else must
have posted the profile in Mr. Cathey’s name. [H.T.
Vol. 6: 278].
189. The State presented evidence of visitor
records, including documentation of visits made to Mr.

102a
Cathey by his attorneys and clergy. [SX 15, TDCJ
records]. The State stated on record that use of the
visitor records was solely to show what changes had
been made to Mr. Cathey’s visitor list, also stating the
visitor records were received as part of the entire
TDCJ file. [H.T. Vol. 6: 167]. The Court finds that
these records are irrelevant to the issue of whether
Mr. Cathey is a person of intellectual disability.
VII. PRONG THREE: ONSET BEFORE THE
AGE OF EIGHTEEN
190. There is credible and reliable evidence that
Mr. Cathey suffered from significant deficits in
intellectual and adaptive functioning before the age of
18. Although the limitation in his functioning was not
formally documented before the age of 18, all risk
factors commonly associated with mental retardation
were present prior to Mr. Cathey turning 18. No
evidence was presented at the evidentiary hearing
that established an intervening cause after the age of
18 that could account for Mr. Cathey’s limitations in
intellectual and adaptive functioning.
191. The Court finds that Mr. Cathey exhibited
significant limitations in general intellectual
functioning concurrent with deficits in adaptive
behavior that originated before the age of 18.
VIII. APPLICATION OF THE DSM-5
192. In this Court’s Findings of Fact and
Conclusions of Law issued on December 31, 2012, the
Court applied the Briseno factors for intellectual
disability. But in Moore I, “the Supreme Court
criticized [the CCA’s] reliance on Briseno’s evidentiary
factors for assessing adaptive functioning.” Ex parte
Moore, 548 S.W.3d 552, 559 (Tex. Crim. App. 2018).

103a
Accordingly, on remand from Moore I, the CCA
concluded that “the DSM-5 should control our
approach to resolving the issue of intellectual
disability.” Id. at 559-60.
193. While the evidence herein is primarily
discussed using the language of the AAIDD Manual,
the language of the DSM-5 likewise supports a finding
of intellectual disability. The DSM-5 describes the
three-pronged definition of intellectual disability as
follows: (1) “deficits in intellectual functions”, (2)
accompanied by related “deficits in adaptive
functioning”, (3) the onset of which occurs “during the
developmental period,” i.e. prior to age eighteen.
DSM-5 at 33, 37-38.
A. Prong One: Deficits in Intellectual
Functions
194. Like the AAIDD Manual, the DSM-5
recognizes that an IQ score is indicative of intellectual
disability if it is “approximately two standard
deviations or more below the population mean,
including a margin for measurement error (generally
+5 points). On tests with a standard deviation of 15
and a mean of 100, this involves a score of 65-75 (70
±5).” DSM-5 at 37. Further, the DSM-5 recognizes
that the Flynn effect may affect test scores, resulting
in “overly high scores due to out-of-date test norms.”
DSM-5 at 37.
195. Based on the evidence of record the Court
finds that Mr. Cathey’s IQ score, corrected for the
Flynn Effect and the standard error of measurement,
is within the range of intellectual disability, as
defined by the DSM-5.
B. Prong Two: Deficits in Adaptive

104a
Functioning
196. Like the AAIDD Manual, the DSM-5 similarly
states that the requirement for deficits in adaptive
functioning is met “when at least one domain of
adaptive
functioning—conceptual,
social,
or
practical—is sufficiently impaired that ongoing
support is needed in order for the person to perform
adequately in one or more life settings at school, at
work, at home, or in the community.” DSM-5 at 38.
These deficits are directly related to deficits in
intellectual functioning. Id.
197. Based on the evidence of record the Court
finds that Mr. Cathey suffers from deficits in adaptive
functioning related to deficits in intellectual
functioning, as defined by the DSM-5.
C. Prong Three: Onset During the
Developmental Period
198. Like the AAIDD Manual, the DSM-5 does not
require that a diagnosis of intellectual disability was
made during the developmental period, but instead
“refers to the recognition that intellectual and
adaptive deficits are present during childhood or
adolescence. DSM-5 at 38.
199. Based on the evidence of record the Court
finds that Mr. Cathey exhibited deficits in intellectual
functioning concurrent with related deficits in
adaptive functioning that originated during the
developmental period, i.e., before the age of 18.
IX.RISK FACTORS FOR INTELLECTUAL
DISABILITY
200. The AAIDD Manual sets forth risk factors
commonly associated with intellectual disability. The

105a
four categories of risk factors are: (1) biomedical:
factors that relate to biologic processes; (2) social:
factors that relate to social and family interaction; (3)
behavioral: factors that relate to potentially causal
behaviors; and (4) educational: factors that relate to
the availability of educational supports that promote
mental development and the development of adaptive
skills. [DX 4, AAIDD Manual at 60]. Intellectual
disability often reflects the cumulative or interactive
effects of multiple risk factors.
201. The AAIDD Manual highlights that the
etiology of intellectual disability may facilitate
diagnosis. The AAIDD Manual states that “All
relevant risk factors are identified, including those
that are thought to be most important (such as
trisomy 21 or Down syndrome) as well as those that
are thought to be less important (such as social
deprivation or lack of timely educational
intervention). The presence of interactions between
risk factors are then evaluated and described.
Etiological diagnosis and classification thus consists
of a comprehensive list of all of the risk factors and
interactions among risk factors for which the
available data provide sufficient evidence.” [DX 4,
AAIDD Manual at 68].
202. Because of correlation between risk factors
and intellectual disability, it is relevant to this Court
to determine whether Mr. Cathey’s history contains
any of the risk factors for intellectual disability
identified by the AAIDD Manual. See Moore I, 137 S.
Ct. at 1051 (traumatic experiences such as childhood
abuse and suffering are risk factors for intellectual
disability) (citing AAIDD Manual). There is ample
evidence from the family history witnesses that

106a
establish Mr. Cathey was exposed to all risk factors
commonly associated with intellectual disability. The
presence of these risk factors lends further weight to
the diagnosis of intellectual disability in this case.
A. Biomedical Risk Factors
203. Traumatic brain injury is a risk factor
included within the biomedical category. [DX 4,
AAIDD Manual, Table 6.1 at 60]. Mr. Cathey presents
numerous occasions of serious head trauma during his
childhood. At age two, Mr. Cathey “allegedly fell &
struck edge of table,” according to hospital records.
[DX 46, Harris County Hospital District Medical
Records]. His older sister Charlotte Ross recounts
other head injuries for which Mr. Cathey did not
receive medical attention [DX 42, Affidavit of
Charlotte Ross]:
On one occasion...Eric hit his head so
hard [on a wall] it knocked him
down...He ran into the wall and hit his
head again, busting it open this time.
Once, he got spooked by a bug on the wall
and fell off and bumped his head.
Another time, at the age of 8, Eric fell off
a merry-go-round and bumped his head
so hard he passed out.
204. Mr. Cathey’s younger brother confirms and
recalls two more serious blows to the head [DX 43,
Affidavit of Robert Charles Cathey, Jr.]:
When he was 9 or 10 years old, he fell off
the porch and injured his head. I
remember my mother and the rest of the
family saying that Eric had “lost his

107a
mind” because of his dazed behavior
after the accident.
[W]hen Eric was 15 or 16....[he was hit]
in the face with a vase...The vase
smashed, leaving him with a scar down
his face.
205. Mr. Cathey’s younger sister remembers “He
must have busted his head open at least twice but I
can’t remember his exact age.” [DX 45, Affidavit of
Celecia Baker].
B. Social Risk Factors
206. An impaired child-giver and adult nonresponsiveness are risk factors included within the
social category of risk factors for mental retardation.
[DX 4, AAIDD Manual, Table 6.1 at 60]. Mr. Cathey’s
mother showed signs of impairment: “When I first
started going with Eric, I thought his family was very
weird. Their house was completely out of the order. It
was disgusting. Everything was completely chaotic.
Eric’s mother seemed very slow.” [DX 44, Affidavit of
Noaella Bryant].
207. Mr. Cathey’s mother was also non-responsive:
“Eric sometimes told me that he felt left out and
different from Robert, my older sister Charlotte, and
me. He often said that our mother didn’t like him as
much and that she treated him differently.” [DX 45,
Affidavit of Celecia Baker]. Mr. Cathey’s older sister
also had to call the ambulance when he broke his arm,
rather than his own parents. [DX 42, Affidavit of
Charlotte Ross].
C. Behavioral Risk Factors
208. Child abuse and neglect, domestic violence,

108a
and social deprivation are included within the
behavioral category of risk factors for mental
retardation. [DX 4, AAIDD Manual, Table 6.1 at 60];
Moore I, 137 S. Ct. at 1051 (citing AAIDD Manual). As
attested to by his family members, Mr. Cathey was
exposed to extraordinary levels of violence and neglect
once his father began dealing drugs from home:
While we were growing up, our father
was a drug dealer... There was drugdealing, drug use, and prostitution in our
house. The house could be chaotic with
people firing guns and shouting and
cursing. Eric and I and our sister Lisa
would run and hide in the bedroom. One
time, we climbed out of the bedroom
window to hide in the yard. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
209. At the punishment phase of Mr. Cathey’s
trial, Mr. Cathey’s older sister, Ms. Charlotte Ross,
testified about the violent, chaotic, and abusive
environment in the home. [DX 48, Trial Transcript,
Vol. 22: 202-206] (testifying that Mr. Cathey’s father
was a drug dealer, their home was robbed twice, and
the children would constantly be yelled at by their
parents). Ms. Ross also testified that neither she nor
her siblings would discuss the robberies because it
was a “taboo” in the house. [DX 48, Trial Transcript,
Vol. 22: 207].
210. During the punishment phase of his trial, Mr.
Cathey’s mother, Ms. Willie Lee Cathey, confirmed
and testified that Mr. Cathey’s father sold drugs for
many years from the house. [DX 48, Trial Transcript,
Vol. 23: 83]. Ms. Cathey also testified that her
husband, Mr. Cathey’s father, was robbed twice in the

109a
house at gunpoint, and during one occasion, the entire
family hid underneath a table. [DX 48, Trial
Transcript, Vol. 23: 83-86].
D. Educational Risk Factors
211. Impaired parenting and inadequate family
support leads to educational risk factors. [DX 4,
AAIDD Manual, Table 6.1 at 60].
212. The affidavits of Mr. Cathey’s family members
indicate there was inadequate family support in the
household. “There was drug-dealing, drug use, and
prostitution in our house. The house could be chaotic
with people Firing guns and shouting and cursing.”
[DX 43, Affidavit of Robert Charles Cathey, Jr.].
X. DETERMINATION CONCERNING
INTELLECTUAL DISABILITY
213. Mr. Cathey is a person with intellectual
disability. His full scale obtained score of 77 on the
WAIS-R, administered by Dr. Yohman, without
correction for the Flynn Effect, demonstrates that his
intellect is firmly in the range of mild intellectual
disability, as recognized by the DSM-5 and AAIDD
Manual. With correction for the Flynn Effect, Mr.
Cathey’s score on the WAIS-R is a 71.6, and after
applying the standard error of measurement, his
corrected score falls within the range of intellectual
disability. The finding of intellectual disability is
further supported by Dr. Fletcher’s determination
that Mr. Cathey has significant deficits in adaptive
functioning in the conceptual, social, and practical
realms that place him more than two standard
deviations below the mean in adaptive functioning.
Taking into account all of this evidence, Mr. Cathey
meets the diagnostic criteria for intellectual

110a
disability. [H.T. Vol. 3:57].
Y. DECEMBER 2019 WRIT HEARING – DR.
JACK FLETCHER
214. Fletcher testified that his clinical opinion
remains unchanged; that the applicant satisfies the
ID criteria of the DSM-5 and the AAIDD-11 (I W.H.II.
at 26-27).
215. Fletcher testified that it remains his clinical
judgment that in order to take the Flynn Effect into
account in the applicant’s case it is appropriate to
reduce the WAIS-R score by 5.4 points (18 x .3).
Therefore, in his clinical judgment, the applicant’s IQ
score was 71.6 rounded up to 72 +/- 5 (I W.H.II. at 21).
216. In addition to offering Fletcher’s testimony,
the applicant introduced Fletcher’s August 22, 2019
affidavit (II W.H.II at 298-304). In this affidavit
Fletcher references and attaches eight scholarly
articles published since the applicant’s 2010 writ
evidentiary hearing. These articles include his own
scholarship. According to Fletcher, these articles
support his position regarding the scientific validity of
the Flynn Effect and the appropriateness of a
retrospective diagnosis (II W.H.II. at 110-332).
217. Regarding the Flynn Effect, Fletcher testified
that the DSM-5 “talks about a lot of the factors that
influence the determination of a person’s IQ,
including the need to correct for. . . the Flynn Effect”
(I W.H.II at 15)(emphasis added).
218. The Court finds that the DSM-5 does not say
a clinician “need[s]” to correct for the Flynn Effect.
Instead the DSM-5 directs a clinician to consider
whether the Flynn Effect “may” have affected an IQ
score. DSM-5 at 37.

111a
219. The Court finds that, according Fletcher’s
testimony and scholarship introduced into the habeas
record at the hearing by the applicant, it was possible
to calculate 12 variants of a Flynn Effect on the
applicant’s score ranging from 5.4 +/- 5 (the largest) to
3.93 +/- 4.5 (the smallest); that in Fletcher’s clinical
judgment the largest adjustment was appropriate
even though the deduction involved a calculation
contrary to (i) the User’s Guide’s guidance, (ii) the testspecific, WAIS-R SEM for the applicant’s age group,
and (iii) findings from his own scholarship regarding
the size of the Flynn Effect (I W.H.II 27-50) (II W.H.II.
at 341).
220. On cross-examination, Fletcher acknowledged
the DSM-5 states, “Adaptive functioning is assessed
using both clinical evaluation and individualized,
culturally appropriate, psychometrically sound
measures,” and that he did not conduct a clinical
evaluation of the applicant (I W.H.II. at 51).
221. Before the evidentiary hearing, Fletcher
prepared two draft “reports” for the applicant’s
counsel. In both “reports” Fletcher concludes “Atkins
hearings are life or death. The idea that conventional
clinical practice should be followed when life and
death is on the table is an unreasonable standard.”
Respondent’s Ex. A, May 9, 2019 Report of Dr. Jack
Fletcher; Respondent’s Ex. B, Aug. 9, 2019 Report of
Dr. Jack Fletcher.
Z. DECEMBER 2019 WRIT HEARING - DR.
TIM PROCTOR
222. Proctor testified that in his clinical judgment
there remains insufficient evidence to support a
diagnosis of ID applying the DSM-5 diagnostic

112a
criteria; that a scholarly article by Lawrence G. Weiss
introduced into evidence by the applicant, and cited
approvingly by Fletcher, recognizes that it remains
“controversial” to adjust an IQ score for the Flynn
Effect in Atkins litigation; that he agrees with the
conclusion of a scholarly article by Stephanie C. Black,
introduced into evidence by the applicant, and cited
approvingly by Fletcher, that concludes “practitioners
need to ensure that the most current editions of IQ
tests . . . are used”; that debate about application of
the Flynn Effect to the applicant’s IQ score could have
been mooted had the applicant been administered a
new IQ test; that, in light of the DSM-5, contemporary
professional norms do not recommend a diagnosis of
ID if a clinician does not actually meet and interview
that individual (I W.R.II. at 62-67).
CONCLUSIONS OF LAW
1. The preponderance of the evidence establishes
that Mr. Cathey has significant limitations or deficits
in general intellectual functioning.
2. The preponderance of the evidence properly before
the court shows that Mr. Cathey suffers from
significant limitations or deficits in adaptive behavior.
3. The preponderance of the evidence properly before
the court shows that Mr. Cathey exhibited significant
limitations or deficits in general intellectual
functioning concurrent with significant limitations or
related deficits in adaptive behavior that originated
before the age of 18.
4. The preponderance of the evidence properly before
the court shows several risk factors for intellectual
disability present in Mr. Cathey’s history.
5. The preponderance of the evidence properly before

113a
the court shows that Mr. Cathey is a person with
intellectual disability. Accordingly, under the
holdings of Atkins v. Virginia, 536 U.S. 304 (2002),
Moore v. Texas, 137 S. Ct. 1039 (2017), and Moore v.
Texas, 586 U. S. ____ (2019), he cannot be put to death.
His death sentence must be modified to a sentence of
life imprisonment.
6. The Flynn Effect is a scientifically valid and
reliable phenomenon applied to correct for norm
obsolescence.
7. The Flynn Effect is used by clinical practitioners
in the diagnosis of intellectual disability and is used
by practitioners outside the criminal justice system to
correct for norm obsolescence.
8. The Flynn Effect should be applied to individual
test results to correct for norm obsolescence when a
test with aging norms is used, and it is a generally
accepted scientific procedure.
9. The Flynn Effect has a known or potential error
rate sufficiently precise to be applied.
10. Any findings of fact determined to be
conclusions of law shall be such, and any conclusion of
law determined to be a finding of fact shall be so.
Based on the foregoing, the Court hereby recommends
relief.
SIGNED this

15 day of June

, 2020.

/s/ Nikita V. Harmon
Nikita V. Harmon
Presiding Judge of the 176th Criminal
District Court

114a
Cause No. 713189-B
EX PARTE

§

ERIC DEWAYNE
CATHEY,

§

Applicant.

§

IN THE 176TH
DISTRICT
COURT
OF
HARRIS
COUNTY, TEXAS

ORDER
THE CLERK IS HEREBY ORDERED to prepare a
transcript of all papers in cause no. 713189-B and
transmit same to the Court of Criminal Appeals, as
provided by Article 11.071 of the Texas Code of
Criminal Procedure. The transcript shall include
certified copies of the following documents:
1. all of the applicant’s pleadings filed in cause
number 713189-B, including his application for writ
of habeas corpus;
2. all of the Respondent’s pleadings filed in cause
number 713189-B, including the Respondent’s
Original Answer and Supplemental Answer;
3. all affidavits and exhibits filed in cause no.
713189- B;
4. this court’s findings of fact, conclusions of law and
order denying relief in cause no. 713189-B;
5. any Proposed Findings of Fact and Conclusions of
Law submitted by either the applicant or Respondent
in cause no. 713189-B;
6. the transcripts of the writ hearings held on

115a
January 22 – 26, 2010 and December 16, 2019 , in
cause no. 713189-B; and,
7. the indictment, judgment, sentence, docket sheet,
and appellate record in cause no. 713189, unless they
have been previously forwarded to the Court of
Criminal Appeals.
THE CLERK IS FURTHER ORDERED to send a
copy of the court’s findings of fact and conclusions of
law, including its order, to applicant’s counsel: Layne
Kruse; Norton Rose Fulbright; 1301 McKinney, Suite
5100; Houston, Texas 77010; Dov Preminger; Norton
Rose Fulbright; 1301 McKinney, Suite 5100; Houston,
Texas 77010; and to the Respondent: Joshua Reiss;
Harris County District Attorney’s Office; 500
Jefferson Street, Suite 600; Houston, Texas 77002.
SIGNED this

15 day of June

, 2020.

/s/ Nikita V. Harmon
Nikita V. Harmon
Presiding Judge of the 176th Criminal
District Court

116a
APPENDIX C

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-55,161-02
EX PARTE ERIC DEWAYNE CATHEY
ON APPLICATION FOR WRIT OF HABEAS
CORPUS IN CAUSE NO. 713189-B IN THE
176th DISTRICT COURT OF HARRIS
COUNTY
Per curiam.
ORDER
This is a subsequent application for writ of habeas
corpus filed pursuant to the provisions of Texas Code
of Criminal Procedure Article 11.071.
In March 1997, a jury convicted Applicant of the
offense of capital murder. The jury answered the
special issues submitted pursuant to Code of Criminal
Procedure article 37.071, and the trial court,
accordingly, set punishment at death. This Court
affirmed Applicant’s conviction and sentence on direct
appeal. Cathey v. State, 992 S.W.2d 460 (Tex. Crim.

117a
App. 1999). The Court denied Applicant’s initial postconviction application for writ of habeas corpus. Ex
parte Cathey, No. WR-55,161-01 (Tex. Crim. App.
April 2, 2003)(not designated for publication).
Applicant later filed a subsequent state habeas
application, in which he alleged that he is
intellectually disabled and ineligible for the death
penalty under the United States Supreme Court’s
holding in Atkins v. Virginia, 536 U.S. 304, 321 (2002).
We denied that application in 2014. Ex parte Cathey,
451 S.W.3d 1 (Tex. Crim. App. 2014). In March 2015,
we declined Applicant’s suggestion to reconsider our
disposition of that application.
The United States Supreme Court thereafter issued
its opinion in Moore v. Texas, 137 S. Ct. 1039 (2017).
In Moore v. Texas, the Supreme Court rejected the use
of the Briseno 1 factors to analyze adaptive deficits
because they “creat[e] an unacceptable risk that
persons with intellectual disability will be executed.”
Id. at 1051. The Supreme Court held that this Court
improperly “fastened its intellectual-disability
determination to ‘the AAMR’s 1992 definition of
intellectual disability that [it] adopted in Briseno for
Atkins claims presented in Texas death-penalty
cases.” 2 Id. at 1053.
The Fifth Circuit authorized Applicant to file a
successive habeas petition in federal court. In re
Cathey, 857 F.3d 221 (5th Cir. 2017). The federal
district court stayed its proceedings to give “the Texas
1 Ex parte Briseno, 135 S.W.3d 1, 8 (Tex. Crim. App. 2004).
2 See American Association on Mental Retardation (AAMR),

Mental Retardation: Definition, Classification, and Systems of
Supports (9th ed. 1992).

118a
courts an opportunity to decide whether Moore
requires reconsideration of [Applicant’s] Atkins
claim.” Cathey v. Davis, No. H-15-2883 (S.D. Tex. July
28, 2017). Applicant has now submitted the instant
“suggestion for [this] court to reconsider [this] case on
its own initiative.”
While the Rules of Appellate Procedure do not
permit the filing of a motion for rehearing following
the denial of a post-conviction application for writ of
habeas corpus, we may on our own initiative choose to
exercise our authority to reconsider our initial
disposition of a capital writ. See Ex parte Moreno, 245
S.W.3d 419, 427-29 (Tex. Crim. App. 2008)(stating
that we may choose to exercise this authority only
“under the most extraordinary of circumstances”). In
light of the Supreme Court’s recent opinion in Moore
v. Texas, we exercise our authority to reconsider this
case on our own initiative.
This cause is remanded to the habeas court to
consider all of the evidence in light of the Moore v.
Texas opinion and make a new recommendation to
this Court on the issue of intellectual disability. If the
habeas court deems it necessary, then it may receive
evidence from mental health experts and any
witnesses whose evidence the court determines is
germane to the question of intellectual disability. The
habeas court shall then make findings of fact and
conclusions of law regarding the issue of intellectual
disability.
This cause will be held in abeyance pending the trial
court’s compliance with this order. The habeas court
shall resolve the issue and make the required findings
and conclusions within 60 days of the date of this
order. Immediately thereafter, the clerk shall forward

119a
to this Court a supplemental transcript containing the
trial court’s findings of fact and conclusions of law,
any additional documents filed, and the transcripts of
any hearings. Any extensions of time shall be
obtained from this Court.
IT IS SO ORDERED THIS THE 7TH DAY OF
NOVEMBER, 2018.
Do Not Publish

120a
APPENDIX D

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-55,161-02
Ex Parte ERIC DEWAYNE CATHEY, Applicant
ON APPLICATION FOR A WRIT OF HABEAS
CORPUS IN CAUSE NO. 713189-B IN THE
176th DISTRICT COURT
HARRIS COUNTY
COCHRAN, J., delivered the opinion of the Court in
which KELLER, P.J., and MEYERS, WOMACK, JOHNSON,
KEASLER, H ERV EY, and ALCALA, JJ., joined.
PRICE, J., joined Parts I and IIA and filed a
concurring opinion.
OPINION
Applicant was convicted of capital murder and
sentenced to death in 1997 for fatally shooting
Cristina Castillo while kidnapping her. We affirmed
his conviction and sentence in 1999, 1 and denied relief
on his first application for a writ of habeas corpus in
1 Cathey v. State, 992 S.W.2d 460 (Tex. Crim. App. 1999).

121a
2003. 2 On the day before his scheduled execution,
applicant filed a subsequent writ alleging, for the first
time, that he was mentally retarded and therefore
exempt from the death penalty. The next day we
stayed applicant’s execution and issued an order
finding that his claim satisfied the requirements of
Article 11.071, § 5, and remanded the case to the trial
court to conduct a hearing on his mental retardation
claim. 3 The trial judge conducted a five-day hearing
that included testimony from numerous expert
witnesses. Both the State and applicant filed proposed
findings of fact and conclusions of law on February 21,
2011. On December 31, 2012, almost two years after
the hearing and on the last day of her term of office,
the trial judge signed applicant’s proposed findings of
fact and conclusions of law. We filed and set this case
and ordered briefing by the parties.
We hold that applicant has not established, by a
preponderance of the evidence, that he is mentally

2 Ex parte Cathey, No. WR-55,161-01 (Tex. Crim. App. April 2,

2003) (not designated for publication).

3 Ex parte Cathey, No. WR-55-161-02, 2008 WL 4927446 (Tex.

Crim. App. Nov. 18, 2008) (not designated for publication).

122a
retarded 4 under Atkins v. Virginia 5 and Ex parte
Briseno; 6 therefore he is not exempt from the death
penalty. We conclude that the record does not support
the habeas judge’s factual findings or legal
conclusions. In short, the judge erred in finding,
(1) The “Flynn Effect” authorized her to subtract
5.4 points from applicant’s IQ score of 77, and
the standard measurement of error authorized
her to subtract another 5 points from his IQ
score, thus concluding that applicant’s “true”
IQ score is as low as 66.6.
(2) The State was not allowed to have applicant’s
IQ retested with a more recently normed test
when Dr. Flynn testified that his purpose in the
“Flynn Effect” is to show that IQ tests should
be normed and revised with greater frequency.7
4 The term “mentally retarded” has been

changed to
“intellectually disabled,” as mental health advocates decided
that the former term had pejorative connotations. See Tomoe
Kanaya, et al., The Flynn Effect and U.S. Policies: The Impact of
Rising IQ Scores on American Society Via Mental Retardation
Diagnosis, 58 AM. PSYCH. 778, 788 (2003) (noting that “the fact
that the MR label carries with it an inherent negative stigma is
no better illustrated than by the fact that a former label is
continually supplanted by newer ones over time. For example,
terms such as imbecile and feeble-minded were considered
scientific and acceptable in the first quarter of the 20th century
but were replaced after time with successive euphemisms.”). The
terms may be used interchangeably.
5 536 U.S. 304 (2002).
6 135 S.W.3d 1 (Tex. Crim. App. 2004).
7 Applicant’s Proposed Findings at 38 (“Because Mr. Cathey’s

experts relied on Dr. Yohman’s score [77 I.Q.] during the
evidentiary hearing and did not present testimony based on a
new intelligence test, retesting was not necessary.”). A footnote

123a
(3) The Vineland test answers given by applicant’s
sister trying to retrospectively remember her
brother’s behavior twenty-six years earlier and
that of his former wife some eighteen years
earlier were scientifically valid.
(4) The Vineland test answers given by applicant’s
sister and his former wife were reliable when,
in fact, they contradicted their prior trial
testimony at a time that they had no motive to
exaggerate applicant’s poor adaptive behavior.
(5) The applicant is mentally retarded or
intellectually disabled, because we conclude
attached to this finding states that “[t]he State should be
collaterally estopped from objecting now to Dr. Yohman’s testing
and score because it failed to object on these grounds at Mr.
Cathey’s trial.” This makes no sense. Collateral estoppel applies
only when an elementary issue has been fully and finally
litigated. There was no “element” of mental retardation at
applicant’s trial, which took place before Atkins was decided.
Furthermore, this footnote states that “[t]he issue of cognitive
disability was placed before the jury during the punishment
phase of trial, and the State had ample reason, at that time, to
request testing of Mr. Cathey.” No such issue was “placed before
the jury” at trial in 1997, and Dr. Yohman did not testify at trial
that applicant was mentally retarded or intellectually disabled.
As we explained in Ex parte Reed, 271 S.W.3d 698, 727 (Tex.
Crim. App. 2008), we normally defer to the habeas judge’s factual
findings, but “[w]hen our independent review of the record
reveals that the trial judge’s findings and conclusions are not
supported by the record, we may exercise our authority to make
contrary or alternative findings and conclusions.” And, “[w]hen
our independent review of the record reveals findings and
conclusions that are unsupported by the record, we will,
understandably, become skeptical as to the reliability of the
findings and conclusions as a whole. In such cases, we will
proceed cautiously with a view toward exercising our own
judgment.” Id.

124a
that the evidence clearly demonstrates his
intellectually competent adult behavior.
Although we agree that factfinders may “consider”
the concept of the “Flynn Effect” in assessing the
validity of a WAIS or WAIS-R IQ test score, they may
consider that effect only in the way that they consider
an IQ examiner’s assessment of malingering,
depression, lack of concentration, and so forth. It is a
generalized consideration that could detract from the
over-all validity of the score obtained. The preferred
solution to an outdated IQ score is not to start
subtracting from that score, it is to retest with a more

125a
recently normed IQ test. 8 As Professor James Flynn 9
8 ALAN S. KAUFMAN, IQ TESTING 101, 203 (2009) (noting that

publishers standardize IQ tests and determine the basis for
calculating IQ scores at specific points in time; thus an IQ test
grows outdated and its norms grow obsolete as time passes from
the time when the publisher standardized the test, and obsolete
norms inflate IQ scores because they measure test performances
against the scores of test takers from the past, as opposed to the
higher scores of test takers from the present); see also JAMES R.
FLYNN, WHAT IS INTELLIGENCE? BEYOND THE FLYNN EFFECT 11128 (Cambridge Univ. Press 2009). Professor Flynn notes that
“the target percentage of about 2 percent” of children being
diagnosed as mentally retarded “has been attained only
fleetingly and then only by accident.” Id. at 128. See also James
R. Flynn, Individual Differences: Implications for Educational
Policy: The Hidden History of IQ and Special Education: Can the
Problem Be Solved?, 6 PSYCH. PUB. POL’Y & L. 191, 191-98 (2000)
(suggesting that a team of qualified psychologists gather a
representative sample of MR children based on behavioral
criteria and reform IQ tests every seven years); Tomoe Kanaya,
et al., The Flynn Effect and U.S. Policies, 58 AM. PSYCHOL. 778,
780 (2003) (“As IQ norms age, fewer students receive MR
services, but when a newly normed test is introduced, the
number of students eligible for these services will suddenly
increase.”).
9 Professor Flynn is a Professor Emeritus of Political Studies

at the University of Otago in New Zealand who conducts
research on intelligence testing. After noting “massive” IQ gains
of 5 to 25 points in 14 different countries within a single
generation, Professor Flynn posited, “The hypothesis that best
fits the results is that IQ tests do not measure intelligence but
rather correlate with a weak causal link to intelligence.” James
R. Flynn, Massive IQ Gains in 14 Nations: What IQ Tests Really
Measure, 101 PSYCH. BULL. 171, 171 (1987). That is, IQ tests
measure abstract problem-solving ability (APA), but that
abstract ability does not necessary correlate strongly to one’s
competency to survive and succeed in the real world. Id. at 188.
As Professor Flynn notes, if rising IQ scores really were an
indication that Americans were getting significantly “smarter”
with each generation, then their SAT scores should be increasing

126a
stated at the writ hearing, “[T]here would be no
competent clinical psychologist today, if they
inherited a score from a school psychologist that was
ten years obsolete, any competent one would throw
that out and regive a test. That I will say flatly.”
In sum, the trial judge’s finding that Dr. Yohman’s
1997 IQ test score was reliable after subtracting ten
points was contradicted by the evidence and led to
further factual findings errors, including an error in
the ultimate factual finding that applicant is
intellectually disabled under Atkins.

as well. But SAT scores have been declining over the past several
generations. Id. at 189. He explained,
Thanks to gains on Wechsler-Benet tests, it
seemed that those entering American high
schools were getting more and more intelligent,
and yet they were leaving high school with worse
and
worse
academic
skills.
Unless
nonintellectual traits, such as motivation, study
habits, and self-discipline were deteriorating at
an incredible rate, how could more intelligent
students be getting so much less education? Now
the solution is apparent: High school students in
1981 did not necessarily have higher intelligence
than their counterparts in 1963, they merely had
higher APSA [abstract problem solving ability].
Id. One possible explanation of why IQ test scores rose
immediately after WWI and then again during the post-WWII
era is that, as nations moved from a relatively agrarian society
into the industrial age and then from the industrial age into the
technological age, the emphasis on abstract problem-solving
increased, but over-all academic achievement, as measured by
instruments such as the SAT, did not. As Professor Flynn notes,
an IQ test score is probably less predictive of “success” in society
than are other measurements of social and academic skills.

127a
I.
Applicant was charged with capital murder for
fatally shooting twenty-year-old Cristina Castillo
while kidnapping her on September 12, 1995. The
evidence at trial showed that applicant, along with
five other men, planned to rob Cristina and her
boyfriend, Hector Alicia, because they thought the two
had drugs and money in their apartment. According
to one of the conspirators, applicant was the only
person armed. He had a 9 mm pistol and grabbed
Cristina as she was getting out of her car at the
apartment complex. Applicant held Cristina at
gunpoint and forced her into a red car occupied by
several of the conspirators, who then tied her up with
duct tape. Applicant called the other conspirators,
who were in a white car, and told them to meet at his
mother’s house on Palmer Street.
Once at the Palmer Street house, all six men
questioned Cristina in an attempt to find the drugs
and money. Even though they began to beat her,
Cristina continued to deny any knowledge of drugs or
money and told them that she was pregnant.
Applicant and two others continued kicking and
beating Cristina for about fifteen minutes. Finally,
they took her to a remote location to abandon her. As
one set of conspirators drove off, leaving Cristina with
applicant, they heard a gunshot. Applicant later told
his cohorts that he had shot her. Cristina’s
decomposed body was found almost two weeks later in
a field. She had been shot three times in the head, and
three 9-mm Luger casings were recovered from
underneath her body. Police were able to match the
shell casings to a 9 mm pistol that Mark Young had

128a
snatched from applicant over a month after the
murder.
At the punishment phase, evidence of applicant’s
prior acts of violence was admitted, including
evidence of the kidnapping of Mark Young and two
little girls at a Chevron station. Evidence showed that
applicant was accompanied by two other men, and he
was armed and in charge. He made Mr. Young get into
the back seat of his own car while applicant drove that
car with the two little girls jammed in the front seat.
He demanded money from Mr. Young and wanted to
know where he lived, but, when the car stopped near
some semi-abandoned apartments, Mr. Young was
able to snatch applicant’s semi-automatic pistol away
from him. Then applicant and his two cohorts ran off.
In a different incident, Frank Condley testified that
he was walking from his apartment near the
Sherwood Forest Apartments to a convenience store
when he saw some men with cocked guns in a nearby
parked van. Mr. Condley turned away, but applicant
came after him, armed with a .38 or 9 mm gun in each
hand. Applicant ordered Mr. Condley to lie down and
then shot the prostrate man four times as he begged
for his life. He still has three bullets in his body
because they were lodged so close to his spine.
Antonio Glenn testified that he lived across the
street from applicant during 1995 and sold cocaine to
him in the Sherwood Forest Apartments. Applicant
would then cut it and resell it for a 50% profit. One
time applicant came to Glenn’s apartment with a
sawed-off shotgun, forced Glenn to undress, tied him
up, and held his shotgun to Glenn’s head, demanding
drugs. When Glenn said that he didn’t have any drugs

129a
right then, applicant beat him up with the stock of the
shotgun.
Albert Garcia testified that applicant knocked on
the door of his Sherwood Forest townhouse one night
in October 1995 and demanded to be let in. Mr. Garcia
refused to open his door and told applicant to leave.
Applicant then began banging on the sliding glass
patio door. The door broke while Mr. Garcia was
calling 911, and applicant came into his bedroom,
demanding to know where “the dope” was kept. He left
through the front door with another man when Mr.
Garcia told him that he was on the phone with the
police.
Applicant’s sister, Charlotte, testified that he went
to Blackshear Elementary School, Brian Middle
School, and Yates High School. He was “average” and
played a little football and a little baseball while
growing up. According to Charlotte, he was a “nerd”
because he “read a lot of books, stayed to himself a lot,
[and] did a lot of drawing.” Applicant and his brother
were kind of “spoiled,” and “they never went without.”
Applicant was shy but “he opened up more to older
people.” As far as she knew, applicant did well in
school, but he dropped out when he was seventeen to
marry Noaella. They had two children, but later
divorced. While he was married, applicant sometimes
worked for Charlotte’s former husband, Luke Ezeh, at
Dynamic Battery Exchange.
Mr. Ezeh testified that applicant worked for him “off
and on” between 1991 and 1993, when applicant was
twenty to twenty-three-years old. Mr. Ezeh said that
applicant was a technician and a good, trustworthy
worker who could also watch the shop when Mr. Ezeh

130a
made deliveries. Applicant was twenty-four when he
committed this capital murder.
Applicant’s school records showed that he was home
schooled during most of third grade because he had
tuberculosis, but he kept up with his class work. 10
Applicant’s former middle-school teacher, Anne
Smith, testified that she taught him Texas history and
she remembered him as “such a very well behaved,
very nice, very sweet young man.” He was shy, but
well-liked by both boys and girls. He had “very good
home training . . . he was a very mannerable child.” In
reviewing applicant’s school records, Ms. Smith noted
that his conduct was always “[v]ery good to excellent.”
She stated that applicant, like most of his
schoolmates, “was functioning slightly below grade
level.” 11 His high school records showed that he
functioned at about the 30th/40th percentile in math;
“[h]e passed all three sections of the math, the
reading, and writing of the TEAMS Test, but he was
still seriously below grade level.” Ms. Smith noted
that when grades drop in the 9th or 10th grades, it is
frequently because of the child’s poor adjustment from
middle school to high school. Applicant’s grades
dropped dramatically in 9th grade, and he quit school
the following year to get married.
10 This program was called “special ed,” but it was based on a

medical problem, not academics. He got 2 B’s and 2 C’s for his
work in Math, Spelling, Language, and Reading during the first
semester and all B’s during the second semester. At the end of
the year, his supervising teacher said that applicant “is a very
good student. I feel he will do well in 4th grade.”
11 Applicant’s grades in 6th grade were mainly B’s and C’s, but

by 7th grade, most of those B’s had dropped to C’s and D’s. By 8th
grade, most of applicant’s grades were D’s.

131a
Applicant’s mother testified that his father was in
construction work, but then turned to “selling drugs.”
When applicant, his two sisters, and his brother were
young, two men came to their home to rob their father
of his money and drugs. The kids hid, but they saw
the robbers and their guns. They took applicant’s
father’s money and drugs. The kids were outside
during a second home robbery with different gunmen
looking for drugs and money. Applicant’s mother said
that, after applicant was divorced, he started using
drugs, mainly cocaine, because he was depressed.
Before trial, Dr. Robert Yohman, a clinical
neuropsychologist, interviewed applicant for six hours
in the Harris County Jail to evaluate his cognitive and
emotional functioning. He was careful to ensure that
applicant was not malingering or faking, so he gave
him about two dozen tests. Applicant scored a 77 IQ
on the WAIS-R, which was “borderline intellectual
functioning.” 12 In other achievement tests, applicant
functioned in the borderline to mildly deficient range–
about the 8th percentile. He did not have a specific
learning disorder, but he was mildly deficient in most
academic areas, and in the memory test, dealing with
the ability to recall a short story, he was “low average
to average.” On the word association test, applicant
scored in the high average range of the 81st percentile.
That is, 81% of the population would score lower than
12 However, Dr. Yohman’s 1996 scoring sheet for applicant’s

test contains a written notation concerning the Barona Index
with an estimated Full Scale IQ of 83. The Barona Index
estimates IQ taking into account various demographic and
cultural features, including age, education, race, and
occupational history.

132a
applicant. On the “Trails B” test, applicant scored in
the 75th percentile.
Dr. Yohman gave applicant several personality
tests, including the MMPI, which indicated that
applicant was within normal limits for anxiety and
depression, but was a “fairly naive individual,
psychologically naive, unsophisticated.” Applicant
“wanted to look good . . . wants to be well thought of,
be liked.” Dr. Yohman did not, however, find anything
in his testing that indicated “any impulse disorder,
explosive disorder, anything of that nature.” Although
applicant had had a couple of “blows to the head as a
youngster,” nothing suggested any focal or localized
brain damage. Dr. Yohman noted that applicant had
a behavioral change after his wife left him. Overall,
applicant fit in the borderline intelligence function, a
category that covers about 8% of the population. 13
Dr. Walter Quijano, a clinical psychologist, also
interviewed applicant for an hour and a half in the
jail. He gave him the MCMI 2, a personality test, and
determined that he was excessively dependent and
compulsive. Dr. Quijano said that applicant did not
meet the definition of “a full-blown antisocial
personality,” but he exhibited some antisocial
features. Dr. Quijano originally thought that
applicant was “psychologically functioning okay,” but
13 According to the standardized IQ Bell Curve, only the lowest

2.2% of the population score at or below a 70-75 IQ and are
considered mentally retarded or intellectually disabled. See
Atkins, 536 U.S. at 309 n.5 (“It is estimated that between 1 and
3 percent of the population has an IQ between 70 and 75 or lower,
which is typically considered the cutoff IQ score for the
intellectual function prong of the mental retardation
definition.”).

133a
he had not known about the robberies, shootings, and
murder that applicant had committed. If applicant
had a history of those offenses, then Dr. Quijano
believed that he would fit the “antisocial personality
disorder” category.
No one at trial intimated that applicant was
mentally retarded or intellectually disabled. No one
suggested that he was mentally “slow” or had any
adaptive deficiencies. His elementary school grades
were entirely normal, even though he spent much of
his 3rd grade being home-schooled because he had TB.
His middle-school history teacher never suggested
any intellectual disabilities; she attributed his
plummeting grades to the difficulties of making the
transition from middle school to high school. Still,
applicant passed all three sections of the TEAMS Test
in high school. Both applicant’s mother and sister
thought he was entirely normal, if a bit “nerdy,” as a
child. Applicant worked as a technician in a batteryreplacement shop, and his ex-brother-in-law left him
in charge while he made deliveries.
Neither applicant nor any mental health
professional identified applicant as mentally retarded
until ten years after he was sentenced to death for
capital murder and six years after the Atkins decision
exempted from execution those who are found to be
mentally retarded.
II.
Applicant filed this subsequent writ application on
November 17, 2008, the day before he was scheduled
to be executed. Because the legal basis for his claim
was unavailable on the date he filed his previous
application, we granted his motion to stay the

134a
execution and remanded his application to the trial
court for a live evidentiary hearing on his mentalretardation claim. 14 Under Texas law, applicant is
required to prove, by a preponderance of the evidence,
that he is intellectually disabled under a threepronged test: (1) “significantly subaverage general
intellectual functioning,” (2) “that is concurrent with
deficits in adaptive behavior,” and (3) “originates
during the developmental period.”15 We conclude that
the record does not support the trial judge’s factual
findings 16 that applicant has proven all three prongs.
He has not proven any of those three prongs by a
preponderance of the evidence.
Although psychology and psychologists inform the
factual decision, they do not determine whether an
inmate is exempt from execution under Atkins. 17 We
14 The Texas Legislature has changed the applicable term

from “mental retardation” to “intellectual disability” but the
definition is still the same. TEX. HEALTH & SAFETY CODE §
591.003 (7-a), (13). See supra note 4.
15 Briseno v. State, 135 S.W.3d 1, 7 (Tex. Crim. App. 2004)

(adopting AAMR and Texas Health and Safety Code definitions
of intellectual disability).

16 The trial judge signed applicant’s Proposed Findings of Fact

and Conclusions of Law on December 31, 2012, her last day in
office. In this case, Applicant’s proposed findings are so
adversarial and slanted that they are hard to credit. Many are
not supported by the record.
17 See Ortiz v. United States, 664 F.3d 1151, 1168 (8th Cir.

2011) (“[P]sychology informs, but does not determinately decide,
whether an inmate is exempt from execution.”); see also Hooks v.
Workman, 689 F.3d 1148, 1172 (10th Cir. 2012) (Atkins could
have adopted the clinical standard but explicitly declined to do
so.”); Clark v. Quarterman, 457 F.3d 441, 445 (5th Cir. 2006)
(Atkins “did not dictate that the approach” to defining mental

135a
must apply our own judgment on the “appropriate
ways” to enforce the ultimately legal prohibition on
executing mentally retarded offenders. 18 Atkins did
not conclude that there was a national consensus
concerning the definition of mental retardation;
rather, the Supreme Court concluded that there was
a national consensus against execution of those
offenders who fit within a given state’s definition of
mental retardation, while permitting the states to
continue to refine the contours of that definition in
their own ways. 19
With the understanding that juries and judges, not
psychologists, decide the factual question of whether
a particular person is “intellectually disabled” so as to
be exempt from the death penalty, we turn to the
Texas definition of “intellectual disability.”
A. “Significantly subaverage general
intellectual functioning.”

retardation “must track the approach of the [AAIDD] or the APA
exactly”); United States v. Bourgeois, Nos. C-02-CR-216 and C07-223, 2011 WL 1930684, at *24 (S.D. Tex. May 19, 2011) (not
designated for publication) (Atkins “left the contours of the
constitutional protection to the courts”); Briseno, 135 S.W.3d at
9 (“Although experts may offer insightful opinions on the
question of whether a particular person meets the psychological
diagnostic criteria for mental retardation, the ultimate issue of
whether this person is, in fact, mentally retarded for purposes of
the Eighth Amendment ban on excessive punishment is one for
the finder of fact, based upon all of the evidence and
determinations of credibility.”).
18 Atkins, 536 U.S. at 317.
19 See id.; see also United States v. Wilson, 922 F. Supp. 2d 334,

340 (E.D. N.Y. 2013).

136a
As we noted in Ex parte Briseno, “[s]ignificantly
subaverage intellectual functioning is defined as an
IQ of about 70 or below (approximately 2 standard
deviations below the mean).” 20 As we explained,
mental health professionals are flexible in their
assessment of intellectual disability; sometimes a
person whose IQ has tested above 70 may be
diagnosed as intellectually disabled while a person
whose IQ tests below 70 may not be disabled. 21 In the
new DSM-5, an IQ score is even vaguer and of less
critical importance to the diagnosis than in earlier
versions of the DSM, 22 thus making the
20 Ex parte Briseno, 135 S.W.3d at 7 n.24 (quoting DSM–IV at

39; see also AMERICAN ASSOCIATION ON MENTAL DEFICIENCY
(AAMD), CLASSIFICATION IN MENTAL RETARDATION 1 (Grossman
ed. 1983)).
21 Id. (quoting AAMD at 23); see also Hall v. Florida, 134 S.Ct.

1986, 1994-95 (2014) (rejecting State’s position that a firm cutoff IQ test score above 70 disqualifies a capital defendant from
offering other evidence of possible intellectual disability;
“Florida’s rule disregards established medical practice in two
interrelated ways. It takes an IQ score as final and conclusive
evidence of a defendant’s intellectual capacity, when experts in
the field would consider other evidence. It also relies on a
purportedly scientific measurement of the defendant’s abilities,
his IQ score, while refusing to recognize that the score is, on its
own terms, imprecise.”).
22 American Psychiatric Association, DSM-5 Intellectual

Disability
Fact
Sheet,
available
at
http://www.dsm5.org/documents/intellectual%20disability%20fa
ct%20sheet.pdf. As the fact sheet explains,
DSM-5 emphasizes the need to use both clinical
assessment and standardized testing of
intelligence when diagnosing intellectual
disability, with the severity of impairment based
on adaptive functioning rather than IQ test
scores alone. By removing IQ test scores from the

137a
“intellectually disabled” diagnosis even more of a
subjective battle of the experts than it had been
formerly. 23
diagnostic criteria, but still including them in the
text description of intellectual disability, DSM-5
ensures that they are not overemphasized as the
defining factor of a person’s overall ability,
without adequately considering functioning
levels. This is especially important in forensic
cases.
It is important to note that IQ or similar
standardized test scores should still be included
in an individual’s assessment. In DSM-5,
intellectual disability is considered to be
approximately two standard deviations or more
below the population, which equals an IQ score
of about 70 or below.
This change in the definition of intellectual disability turns an
Atkins hearing into that much more of a subjective battle
between dueling forensic experts. Thus, factfinders may choose
to rely more upon the existence of objective, contemporaneous
evidence of a person’s intellectual abilities to assess the
reliability of conflicting psychological expert opinions.
This definitional subjectivity is the primary reason why we
developed the seven, more objective, Briseno factors as a possible
guide to assessing the type of intellectual-disability concerns
raised by the Atkins Court. Of course, those factors are not part
of the definition of “intellectual disability,” and trial and
appellate courts may ignore some or all of them if they are not
helpful in a particular case.
23 See Wiley v. Epps, 625 F.23 3d 199, 215 (5th Cir. 2010)

(noting that most Atkins cases involve “essentially a battle of the
experts, who gave competing opinions as to [an inmate’s] IQ and
intellectual functioning”). Part of the problem of relying too
heavily upon the psychological community in determining
whether an inmate is mentally retarded under Atkins is that the
psychological community’s “understanding of mental retardation
is evolving. The few short years since the Atkins decision has

138a
To prove this first prong, applicant relied upon his
1996 WAIS-R IQ score of 77 to establish that he was
intellectually disabled by arguing that (1) his score
should be lowered five points to account for the SEM
or standard error measurement, and (2) his score
should be lowered another 5.4 points to account for
“the Flynn Effect.” Therefore, what started as an IQ
test of 77, with an SEM range of 72 to 82, well within
the borderline intelligence category, but outside the
mentally retarded or intellectually disabled category,
became, according to applicant, an IQ score with a
range of 66.6 to 76.6, which he argues satisfies the
initial prong of intellectual disability. 24

seen change in the definition of mental retardation, renovation
of the name of the most prominent advocacy organization, and
even abandonment of the very term mental retardation.
Adoption of the phrase ‘intellectual disability’ is only the mostrecent terminology in the psychological community’s developing
understanding of mental retardation.” United States v.
Bourgeois, 2011 WL 1930684, at *24 n.29 (S.D. Tex. May 19,
2011) (not designated for publication).
24 The trial judge’s finding number 205 states, in part, that

“[w]ith correction for the Flynn Effect, Mr. Cathey’s score on the
WAIS-R is a 71.6, and after applying the standard error of
measurement, his corrected score falls within the range of
mental retardation.” However, even under the most generous
view of the SEM and even if courts were permitted to subtract
points for the Flynn Effect, applicant’s IQ would fall within the
range of 66.6 to 76.6; only 1/3 of this range falls two standard
deviations below the average. Because there might be some
possibility, however small, that applicant’s “true” IQ could fall
below 70, the factfinder may consider other indicia of intellectual
functioning, such as school records, in deciding whether
applicant has proven this prong by a preponderance of the
evidence.

139a
When we remanded this case for an evidentiary
hearing, we ordered the trial judge to evaluate
evidence concerning the following four issues:
(1) the scientific validity and reliability of the
“Flynn Effect”;
(2) whether clinical practitioners who are
ordinarily called upon to diagnose mental
retardation for purposes outside of the criminal
justice system use and apply the “Flynn Effect”
to I.Q. test results when making their
particularized diagnoses of mental retardation;
(3) whether the application of the “Flynn Effect” to
individual test results is generally accepted
scientific procedure in
the
pertinent
professional community outside of the criminal
justice system; and
(4) the known or potential “error rate” of the
“Flynn Effect” as it applies to a specific I.Q. test
result. 25
1. The “Flynn Effect” exists and is generally
considered valid.
The trial judge heard extensive evidence concerning
the “Flynn Effect,” including testimony from Professor
Flynn himself. It was generally agreed by all of the
experts that the “Flynn Effect” does exist and is valid.
Put simply, the “Flynn Effect” refers to the tendency
for scores on an IQ test normed for one particular age
group on one date to increase when that same test is

25 Ex parte Cathey, No. WR-55,161-02, 2008 WL 4927446, at

*1 (Tex. Crim. App. Nov. 18, 2008) (not designated for
publication).

140a
given to others many years later. 26 The aggregate
average gain is approximately .3 IQ points per year
from the time that an IQ test is originally normed.
There is considerable debate as to precisely why such
an effect occurs and equally robust debate as to
whether that effect is increasing, decreasing, or
changing in different populations. 27
Although we remanded this case in part to consider
the known error rate of the Flynn Effect as applied to
a specific test result, we agree with the testifying
experts that this is not really an appropriate question
because the Flynn Effect deals with IQ test score
averages, not individualized scores. 28 Although the
past average increase had been .3 IQ points per year
after an IQ test is formed, there is considerable debate
about the appropriateness of that number for all IQ
tests (as opposed to simply Wechsler and Benet tests)
26 According to the writ-hearing expert witnesses, “norming a

test” means that the test is given to a sample group that reflects
the demographics of the population for which the test is intended
(e.g., English-speaking Americans in 2010), such as age, gender,
ethnicity, socioeconomic background, and geographical region, so
that if 15% of the population has college degrees, then 15% of the
same group used for norming would have college degrees.
27 See generally THE RISING CURVE: LONG-TERM GAINS IN IQ

AND RELATED MEASURES (Ulric Neisser ed., 1998) (collecting
chapters by psychologists addressing the Flynn Effect and its
possible causes). Taken all together, the experts seem to agree
that nobody really knows what causes this phenomenon. Id.

28 Professor Flynn acknowledged that he reached the .3

number in his research by averaging the rates of increase even
though the rates of increase differ depending on the specific test,
country, and year, and that .3 is not a static number. He
admitted that the rate of increase appears to have slowed for the
current generation.

141a
and even greater debate concerning whether that
effect exists at all in the WAIS-III or WAIS-IV
versions. 29
The general notion is that IQ scores on a specifically
normed test tend to rise over time, at least in part,
because modern societies and cultures have tended to
emphasize abstract, problem-solving skills more with
each passing generation over concrete, knowledgebased, skills. But test-takers should be normed
against their own generational cohort, not against an
earlier one. 30 Thus, the “Flynn Effect” does not mean
29 Because of that scientific uncertainty, we are highly

skeptical that testimony about the Flynn Effect would be
admissible when considering the WAIS-III or WAIS-IV IQ tests.
30 As one expert has explained,

In discussions about FE [“Flynn Effect”] adjustments, the key
issue centers on which generation constitutes an appropriate
normative reference group for the individual being tested. A
person who was born in 1978 and tested in 2010 at age 32 using
a current IQ test will be compared with a normative reference
group of 30-34-year-olds born between 1976 and 1980. In this
case, the person is being compared with the generation to which
he or she belongs. If the test used was 20 years old at the time
the person was tested, then he or she would be compared with a
group of 30-34-year-olds who were born between 1956 and 1960–
clearly not the same generation. If generational effects exist–as
all contributors to this special issue agree they do–then this is
clearly not the optimal normative reference group for this
individual. Consequently, an adjustment to the person’s score
that takes into account changes in the normative reference group
may be appropriate. This example makes clear that the FE is
related to changes in the score distribution of the reference
sample.
Lawrence G. Weiss, Considerations on the Flynn Effect, 28 J.
PSYCHOEDUC. ASSESSMENT 482, 489 (2010). This article, along
with ten others concerning the existence, significance,
consideration, and use of the “Flynn Effect” were compiled in a

142a
that young people today are “smarter” than their
parents who are, in turn, “smarter” than their
grandparents, it simply means that the questions
used on intelligence tests change from one generation
to another as does the testing environment and the

special issue of the Journal of Psychoeducational Assessment.
Some of these articles challenged Flynn’s theory, others agreed
with it; some questioned whether the effect will continue into the
future, others questioned whether IQ scores should be used at all
to determine mental retardation. See, e.g., Robert J. Sternberg,
The Flynn Effect: So What?, 28 J. PSYCHOEDUC. ASSESSMENT 434
(2010) (concluding that the use of IQ scores for mental
retardation determinations is limited and ignores ethical
considerations because those scores measure only cognitive
intelligence and not the more significant “ethical intelligence”).
All of these articles were introduced into evidence at the writ
hearing.

143a
instructions for the test. 31 The “Flynn Effect” gains
simply reflect the obsolete norms of outdated tests. 32
As the expert witnesses explained at the writ
hearing, 33 IQ scores are, after all, relative, not
31 The “Flynn Effect” seems to be much more apparent for

“fluid” intelligence–abstract reasoning and problem solving–
than it is for more concrete, knowledge-based intelligence. As one
expert explained:
The third clue [in attempts to understand what
cognitive ability is actually rising], which has
been discussed above, consists of findings that
the scores on culture reduced tests, or tests of
fluid intelligence, show an increase twice as large
as that observed for tests of learned information,
or tests of crystallized intelligence. The increase
represents largely an enhancement of people’s
ability to solve certain kinds of problems rather
than their acquisition of more information from
the culture in which they live.
Merrill Hiscock, The Flynn Effect and Its Relevance to
Neuropsychology, 29 J. CLINICAL & EXPER. N EUROPSYCH. 514,
517 (2007). The author notes that “IQ gains since World War II,
according to Flynn, can be attributed to a shift of emphasis from
reading, writing, arithmetic, and other ‘disciplined’ learning to
‘on-the-spot problem-solving skills.’ This educational shift seems
to be associated with several demographic trends, such as
greater urbanization and affluence, decreasing family size,
changes in the kinds of work that people do, and the increasing
importance of leisure activities.” Id. at 520.
32 KAUFMAN, supra note 5, at 203; James R. Flynn, The Mean

IQ of Americans: Massive Gains 1932 to 1978, 95 PSYCHOL. BUL.
29, 32–34 (1984).

33 Numerous expert treatises and journal articles were

introduced into evidence at the writ hearing. They, rather than
the experts’ courtroom testimony, are referred to whenever
possible as the bench and bar may consult these published and

144a
absolute, and one’s IQ should be determined by using
a scale based on the scores of other test-takers of
similar age taking the test at approximately the same
time. 34 After selecting and testing a representative
standardization sample, test developers create a bell
curve based on the scores of the representative sample
with the average of the scores normed at 100, meaning
that a score of 100 represents “average” performance
on the IQ test. Additionally, IQ tests generally have a
standard deviation of fifteen or sixteen points. 35 And
the MR or Intellectual Disability category is
approximately two standard deviations below the
average, about an IQ score of 70. Approximately two
percent of the population falls into this category and
approximately two percent fall into the “gifted”
category with an IQ score of about 130 or higher. 36
In sum, the Flynn Effect, its possible causes, and its
meaning have been studied extensively since the
1980s, but it was not until the Atkins decision in 2002
widely available scientific articles without the need to find a copy
of the writ hearing testimony in this particular case.
34 KAUFMAN, supra note 8, at 130 (noting that the performance

of others of the same age or age group on an IQ test at a specific
point in time defines a person’s score on the same IQ test).

35 Id. at 119–23. While Wechsler IQ tests use fifteen points as

the standard deviation, Stanford-Binet IQ tests have used
sixteen points until recently. Id. at 107, 119–23. The StanfordBinet Intelligence Scales, Fifth Edition now uses fifteen as its
standard deviation. GALE H. ROID & ANDREW BARRARA,
ESSENTIALS OF STANFORD-BINET INTELLIGENCE SCALES (SB5),
Assessment 3 (2004).
36 What Is an

IQ Test? What Is a High IQ Score?
http://www.i3mindware.com/what-is-an-iq-test-and-iq-score
(last visited Nov. 4, 2014).

145a
that it took on practical significance in state and
federal courts. The question for courts is whether
psychologists or factfinders should adjust IQ scores for
the Flynn Effect in making a determination of
intellectual disability under Atkins. The answer to
that question would seem to depend on whether
clinicians adjust IQ scores in their normal working
world outside the courtroom.
2. There is insufficient evidence that clinical
practitioners outside the criminal justice system
normally use and apply the “Flynn Effect” to IQ test
results.
Although many psychologists agree that the
historical data have shown that IQ test scores on a
given type of IQ test have risen on an average of .3
points a year between 1972 and 2002, 37 they disagree
on whether clinicians normally do or should adjust
individual IQ scores in their daily work. In making a
determination of intellectual disability under Atkins,
the factfinder should certainly be aware of how the
clinical practitioner makes these determinations in
the real world and may follow that procedure, 38
37 The experts disagree on whether the Flynn Effect continues

to exist for the most recent IQ test revisions and, if it does, what
effect it still has. See the ten articles contained in the 2010
symposium issue of the Journal of Psychoeducational
Assessment referred to in note 30.
38 See Hall v. Florida, 134 S. Ct. 1986, 1993 (2014) (noting that

courts are informed by the work of medical experts and their
“learning and skills to study and consider the consequences of
the classification schemes they devise in the diagnosis of persons
with mental or psychiatric disorders or disabilities. Society relies
upon medical and professional expertise to define and explain
how to diagnose the mental condition at issue.”). Those clinicians
who actually administer IQ tests to a wide range of subjects for

146a
unless there are special reasons why that general
routine should not be followed in a specific case. 39
a wide variety of reasons are best positioned to know and apply
the appropriate professional standards.
39 See, e.g., Coleman v. State, 341 S.W.3d 221, 242 (Tenn. 2011)

(stating that “[i]n formulating an opinion regarding a criminal
defendant’s I.Q. at the time of the offense, experts may bring to
bear and utilize reliable practices, methods, standards, and data
that are relevant in their particular fields.”). The court
explained,
[I]f the trial court determines that professionals
who assess a person’s I.Q. customarily consider a
particular test’s standard error of measurement,
the Flynn Effect, the practice effect, or other
factors affecting the accuracy, reliability, or
fairness of the instrument or instruments used to
assess or measure the defendant’s I.Q., an expert
should be permitted to base his or her
assessment of the defendant’s “functional
intelligence quotient” on a consideration of those
factors.
Id. at 242 n.55; see also State v. Ball, 2014 WL 2547721, at *36
(Tenn. Crim. App. May 30, 2014) (not designated for publication)
(stating that it was following Coleman in concluding that a trial
court “may reject the application of the Flynn Effect to adjust I.Q.
scores based upon evidence of its lack of validity and consider the
I.Q. score of 75 as the defendant’s functional I.Q.”) (internal
quotation marks omitted); Jahi v. State, 2014 WL 1004502, at
*106 (Tenn. Crim. App. March 13, 2014) (not designated for
publication) (declining to apply Flynn Effect when defense expert
“acknowledged that the application of the Flynn Effect was not
considered an acceptable practice by either the APA or the
AAIDD and that the Wechsler series did not allow for the results
to be adjusted pursuant to the Flynn Effect. Dr. Bishop stated
that, to her knowledge, capital litigation is the only area of the
law addressing intellectual disability where the Flynn Effect was
being applied.”); Ledford v. Head, ___ F. Supp. 2d ___, 2014 WL
793466, at *2-3 (N.D. Ga. 2014) (declining to “apply the Flynn
Effect because the phenomenon is not used in clinical practice

147a
The American Association on Intellectual and
Developmental Disabilities (AAIDD) Manual states
that “best practices” warrant recognition of the Flynn
Effect when older versions of an IQ test are used. 40 It
notes, “In cases of tests with multiple versions, the
most recent version with the most current norms
should be used at all times. In cases where a test with
aging norms is used, a correction for the age of the
norms is warranted.” 41 The term used is “warranted,”
not “required.” But applicant has failed to offer
sufficient data to support a finding that ordinary
clinicians in their normal work actually do subtract
points from IQ scores to account for the Flynn
Effect. 42
and the Court was ‘hesitant to apply a theory that is used solely
for the purpose of lowering IQ scores in a death penalty
context.’”).
40 The AAIDD is a professional non-profit association, much

like the American Bar Association or American Association of
Retired Persons, that advocates for the rights of the mentally
impaired and those with developmental disabilities. It does not
develop, administer, or score IQ tests.
41 ROBERT L. SCHALOCK, ET AL., U SER’ S GUIDE 23 (11th ed.,

AAIDD 2012). The User’s Guide accompanies ROBERT L.
SHALOCK, ET AL., INTELLECTUAL DISABILITY: DEFINITION,
CLASSIFICATION, AND SYSTEMS OF SUPPORT (11th ed., AAIDD
2010) (AAIDD Manual).
42 Professor Flynn stated that clinicians need not adjust their

IQ scores in routine examinations to decide if a child qualifies for
extra tutoring or special education because there is no real
concern with whether the score is 69, 70, or 71. But he advocates
adjusting IQ scores when the death penalty is at stake because
then an IQ score may be a matter of “life or death.” He admitted
that he was adjusting the data to fit a desired result, but justified
doing so because the consequence “might kill somebody.” He
would adjust individual IQ scores if there is a benefit at stake

148a
Many experts disagree with Professor Flynn’s
“correction” of IQ scores. 43 Indeed, Dr. Lawrence
“that will keep them alive.” According to one article introduced
by applicant at the writ hearing, Professor Flynn advises
psychologists to either “select the version of the IQ test that is
more likely to yield the desired classification, or they can
disregard IQ testing and classify individuals solely on the basis
of adaptive functioning.” Merrill Hiscock, The Flynn Effect and
Its Relevance to Neuropsychology, 29 J. CLINICAL & EXPER.
N EUROPSYCH. 514, 525 (2009). This would appear to be resultoriented reasoning at its apogee.
43 Many courts also disagree with him. A few courts adjust IQ

scores downward to account for the Flynn Effect, see, e.g., United
States v. Hardy, 762 F. Supp. 2d 849, 866-68 (E.D. La. 2010)
(noting that the Flynn Effect is “well established scientifically”
and that adjusting for it is a “best practice”); United States v.
Lewis, 2010 WL 5418901, at *11 (N.D. Ohio Dec. 23, 2010) (not
designated for publication) (recognizing the Flynn Effect “as a
best practice for an intellectual disability determination” and
adjusting IQ score accordingly), but many more courts have
declined to subtract points from IQ scores based on the Flynn
Effect. See, e.g., United States v. Candelario-Santana, 916 F.
Supp. 2d 191, 207-08 (D. P.R. 2013) (collecting cases and
concluding that “the Flynn Effect remains highly controversial
and many courts have declined to accept its application”); United
States v. Salad, 959 F. Supp. 2d 865, 872 n.10 (E.D. Va. 2013)
(“Because the Fourth Circuit does not necessarily instruct courts
to apply an adjustment to account for the Flynn Effect, and
because any such adjustments at this juncture would require
unsubstantiated speculation, the court declines to apply any
Flynn adjustments to the scores in this case.”); United States v.
Jimenez-Bencevi, 934 F. Supp. 2d 360, 370 (D. P.R. 2013) (“The
Flynn Effect remains controversial among scientific experts.
Courts of law are not in the business of endorsing one side or the
other in a scientific controversy. Instead, we look to ground our
decisions on reliable sources. The Flynn Effect is sufficiently
controversial as to be unreliable. Under such circumstances, the
Flynn Effect has no relevance to our inquiry and we agree with
the government’s experts that it should not apply here.”); Hooks
v. Workman, 689 F.3d 1148, 1170 (10th Cir. 2012) (noting that

149a
Weiss, senior psychologist of the Wechsler test group
(the drafters of the WAIS-R, the WAIS-III, and the
2008 WAIS-IV), stated that “[a]s the publisher of the
Wechsler series of tests, Harcourt Assessment does
not endorse the recommendation by Flynn to adjust
WAIS-III scores.” 44 The single most important
“Atkins does not mandate an adjustment for the Flynn Effect”
and that there is no uniform consensus concerning the
application of the Flynn Effect in death penalty cases); see
generally, Geraldine W. Young, Note, A More Intelligent and Just
Atkins: Adjusting for the Flynn Effect in Capital Determinations
of Mental Retardation or Intellectual Disability, 65 VAND. L. REV.
615, 630 (2012) (summarizing the inconsistent treatment of the
Flynn Effect in Atkins cases).
44 Lawrence G. Weiss, WAIS-III Technical Report: Response to

Flynn
(2007)
available
at:
http://images.pearsonclinical.com/images/products/wais-iii/waisiii_tr_lr.pdf. Although Dr. Weiss was speaking only of the WAISIII, his thrust was that more modern IQ test development and
norming may have slowed or stopped the “Flynn Effect” of rising
IQ scores as the tests became “obsolete.” As Dr. Weiss explained,
Professor Flynn’s only evidence to support his suggestion that
WAIS-III scores should be adjusted by 2.34 “is that WAIS-III
scores do not fit expectations made based on the Flynn Effect.
However, the progress of science demands that theories be
modified based on new data. Adjusting data to fit theory is an
inappropriate scientific method, regardless of how supported the
theory may have been in previous studies.” Id. Dr. Weiss
elaborated:
There are many reasons why the WAIS-III, SB-5
and DAS-II tests do not show the .3 point per
year rise in IQ scores predicted by Flynn
including a possible slowing of the effect, better
representation of low SES subjects in more
recent standardization projects, and construct
changes in the newer versions of these tests. As
Flynn observes, his effect is not consistent across
all subtests. As test developers add or delete
subtests when revising existing intelligence test

150a
question relative to “real world” use of the Flynn
Effect by ordinary clinicians is whether the IQ test
manuals themselves require or recommend that every
IQ test be adjusted downward by .3 points per year. 45
That would be the advice that the ordinary clinician
is most likely to follow.
The authors of one recent psychology article in a
professional symposium journal concerning the
“Flynn Effect” stress that adjusting IQ scores based
on the Flynn Effect “does not comport with the
standard of forensic psychological practice.” 46 The
batteries based on newer theories of cognition
and brain functioning, the pattern of IQ
increases across time will vary from expectations
based on Flynn’s original data. Although such
construct changes are necessary to advance the
field of intellectual assessment, these same
changes make it difficult to study changes in
intelligence across the generations.
Id. In sum, although the Flynn Effect seems to have been valid,
on average, for many prior IQ tests, beginning with the WAISIII, its existence and dimension is considerably less certain.
45 The AAIDD User’s Guide is not a manual for giving or

scoring IQ tests, rather its purpose is “to provide that clear
understanding of ID [Intellectual Disability] and summarize best
practices in the field.” U SER’S GUIDE, supra note 41, at 1. Like
the American Bar Association (ABA), the American Association
on Intellectual and Developmental Disabilities is a professional
organization. Just as the ABA does not administer the bar exam,
the AAIDD does not administer IQ tests.
46 Leigh D. Hagan, et al., IQ Scores Should Not Be Adjusted

For the Flynn Effect in Capital Punishment Cases, 28 J.
PSYCHOEDUC. ASSESSMENT 474, 475 (2010); see also Roger B.
Moore, Jr., Letter to the Editor, Modification of Individual’s IQ
Scores is Not Accepted Professional Practice, PSYCHOLOGY IN
MENTAL RETARDATION AND DEVELOPMENTAL DISABILITIES
(American Psychological Association/ Division 33, Washington,

151a
authors cite a 2008 research article about a survey of
program directors of APA-approved psychology
programs, graduate faculty, and clinicians who were
certified school psychologists. 47 These are the people
who actually use IQ tests and score them as a part of
their everyday line of work, and they do not adjust for
D.C.) Fall 2006, at 11, 12 (“If there are factors that lead the
psychologist to believe that the scores do not represent an
accurate or reliable measure of the individual’s functioning, such
issues are delineated in the discussion and interpretation of the
scores; the scores themselves are not changed. Modification of
individual scores is not accepted professional practice, for good
reason, and should not be introduced into the court as such.”).
47 Leigh D. Hagan, et al., Adjusting IQ Scores for the Flynn

Effect: Consistent with the Standard of Practice?, 39 PRO.
PSYCHOL.: RES. & PRAC. 619, 620-21 (2008). Dr. Hagan testified
at the writ hearing about his national survey, and that his study
reached the following conclusions: (1) adjusting obtained IQ
scores and recalculating them on the basis of the Flynn Effect
does not represent the conviction and custom in psychology; (2)
recalculating an individual’s actual data likely violates the
standardization procedures and departs from training practices,
prevailing canons, guidelines, most treatises, and test
instruction manuals; and (3) noting, in the narrative part of the
report, any issues that may compromise the findings, is
appropriate (including issues about out-of-date norms).
Dr. Hagan testified that, in a review of 5,000 special education
IQ reports, only six mentioned the Flynn Effect and none of those
six adjusted the IQ scores. This is potent real-world evidence that
the Flynn Effect is an abstract intellectual concept that
influences how frequently IQ tests should be renormed and
redesigned, but that it is not to be used to “change” a specific
person’s IQ test score. Similarly, Dr. Proctor testified that he has
reviewed a large number of reports for the Social Security
Administration and that he had never seen an individual IQ test
report (except in the Atkins setting) that mentioned the Flynn
Effect.

152a
the Flynn Effect in their practices. 48 The survey
authors also found that IQ-test manuals, Social
Security Administration reports and manuals, and
APA ethical and testing guidelines did not refer to the
Flynn Effect or suggest making any adjustments
because of it. 49 Instead, all of these sources
recommended that clinicians and psychologists–
including forensic psychologists–rely on up-to-date
test norms and use regularly updated IQ tests. 50 That
is precisely what Professor Flynn said at applicant’s
writ hearing: Do not rely on outmoded IQ tests;
instead, retest with the most recent version. 51 There
is, however, a certain tension, in death-penalty cases,
between the reliability of using the most recently
normed IQ test versus the reliability of using a preAtkins, pre-age-18 IQ test. The former may be
discounted for potential malingering and the latter
discounted for the “Flynn Effect.”
When it is impossible to retest using the most
current IQ test available, then factfinders may
consider the Flynn Effect and its possible impact on
IQ scores generally, just as they may consider the
practice effect, potential malingering, the examiner’s
behavior, and so forth. 52 These considerations should
48 Id.
49 Id. at 622-23.
50 Id.
51 Professor Flynn’s advice was echoed by applicant’s other

experts, Dr. Kaufman and Dr. Fletcher, as well as the State’s
experts, Dr. Proctor and Dr. Hagan.
52 AAIDD U SER’ S GUIDE, supra note 41, at 36 (“An IQ score is

subject to variability as a function of a number of potential
sources of error, including variations in test performance,

153a
be noted in the interpretative narrative, but the IQ
test score itself may not be changed. 53
We therefore reject the habeas judge’s finding that
the evidence shows that the Flynn Effect is used in
determining special education benefits and socialsecurity benefits and that clinical practitioners use
examiner’s behavior, cooperation of the test taker, and other
personal and environmental factors.”).
53 Dr. Timothy Proctor testified

that he recommends
“considering the impact of the Flynn Effect in the framework of
interpreting the score but not doing a correction or an
adjustment to the score.” He noted that there are “lots of other
contaminants” that do not require an adjustment; in this case,
for example, jail conditions and distractions might have
artificially depressed his IQ score. Articles introduced at the writ
hearing reiterate that a person’s IQ score should not be changed
to accommodate the Flynn Effect. See Robert J. Sternberg, The
Flynn Effect: So What?, 28 J. PSYCHOEDUC. ASSESSMENT 434, 435
(2010) (the Flynn Effect “is not equally distributed across ability
levels. If one were to try to adjust an individual’s IQ level by the
FE, one would be embarking on a hazardous mission, because
the effect varies in magnitude across the distribution of IQs. . . .
The FE seems to apply in the aggregate, but it is extremely
difficult to apply it in individual cases.”); Stephen J. Ceci &
Tomoe Kanaya, “Apples and Oranges Are Both Round:”
Furthering the Discussion on the Flynn Effect, 28 J. PSYCHEDUC.
ASSESSMENT 441, 446 (2010) (concluding that “it is not
appropriate to merely subtract 0.3 points for every year that a
norm has aged until we know that everyone experiences the
same gains on the same subtests and at the same time”); Leigh
D. Hagan, et al., IQ Scores Should Not Be Adjusted For the Flynn
Effect in Capital Murder Cases, 28 J. PSYCHOEDUC. ASSESSMENT
474, 475 (2010) (“Altering obtained IQ scores based on the FE
does not comport with the standard of forensic psychological
practice, . . . the current state of psychological science–
particularly in light of the established variability of individual
cases–does not support devising some other score based on the
FE and then substituting that score for the one obtained.”).

154a
the Flynn Effect outside of the criminal-justice
system. We conclude that the habeas judge erred in
changing applicant’s IQ score from 77 to 71.6 based on
the Flynn Effect. We agree that, taking the SEM into
account, applicant’s IQ score range is between 72 and
82.
The fact that applicant took an outmoded 54 version
of the WAIS-R in 1996 might tend to place his actual
IQ in a somewhat lower portion of that 72-82 range,
while the fact that he took the test under adverse
circumstances, while in jail and awaiting trial in a
capital murder case, might tend to place his actual IQ
in a somewhat higher portion of that 72-82 range.
Taken altogether, there is no reason to think that
applicant’s obtained IQ score of 77 is inaccurate or
does not fairly represent his borderline intelligence
during the developmental stage. 55 Applicant could
have taken the most recently revised and renormed
IQ test (the WAIS-IV normed in 2008) if he had
wanted to validate or dispute his 1996 IQ score, but
he did not wish to, and he refused to allow the State’s

54 “Outmoded” in this context means simply that the test was

designed and normed several years earlier; it does not mean that
there was a newer, “better” test available. In 1996, the WAIS-R
was the “best” test available even though it was “outmoded.”
55 Applicant’s school records and TEAMS testing appear to

validate the accuracy of that score, while a TDCJ “Service
Investigation Worksheet” for a 1998 prison disciplinary hearing
indicates that one of the reasons a “Counsel Substitute” was
appointed for that hearing was because of an “EA score below 5
and an IQ below 73," would dispute the accuracy of that score.
We know nothing more about this TDCJ entry, however, and
therefore, given its unknown reliability, will not consider it.

155a
experts to do so. 56 Applicant failed to carry his burden
to prove that he has “significantly subaverage”
general intellectual functioning, the first prong of the
three-part test for intellectual disability under Atkins
and Briseno.
B. “Deficits in Adaptive Functioning.”
The second prong of the intellectual disability
definition is that of significant deficits or limitations
in adaptive functioning. Adaptive behavior refers to
the ordinary skills that are required for people to
function in their everyday lives. Mental retardation or
intellectual disability has been described as “the
failure to carry out everyday activities at the level
56 A question that is not directly before us is whether a capital

murder defendant or death row inmate who wishes to assert an
Atkins claim may rely on expert testimony if he refuses to allow
the State’s experts to test his IQ and interview him concerning
adaptive behavior. Normally, one ought not be able to use an IQ
test or an adaptive functioning test as both a sword and a shield.
The State argued that the Lagrone rule should apply to claims of
mental retardation just as it applies to other psychiatric or
mental-state defenses. See Lagrone v. State, 942 S.W.2d 602, 610
(Tex. Crim. App. 1997) (citing Soria v. State, 933 S.W.2d 46, 57–
59 (Tex. Crim. App. 1996)) (when the defense plans to introduce
testimony based on a psychiatric examination of defendant, the
trial court may compel a psychiatric examination by a State’s
expert, and if the defense introduces expert testimony based on
the defense expert’s examination, the State may present expert
rebuttal testimony); see also Hernandez v. State, 390 S.W.3d 310,
321-22 (Tex. Crim. App. 2012) (“When a defendant intends to
present mental-health expert testimony, the State is entitled to
compel the defendant to undergo examination by the State’s
expert for rebuttal purposes.”). We need not resolve that issue,
however, because the resolution of this case does not depend on
that issue.

156a
expected of adults.” 57 Similarly, the Texas Health and
Safety Code defines adaptive behavior as “the
effectiveness with or degree to which a person meets
the standards of personal independence and social
responsibility expected of the person’s age and
cultural group.” 58
However, unlike medicine, education, or social
services, criminal law is concerned with what was
rather than what currently is. The point of an Atkins
hearing is to determine whether a person was
mentally retarded during his developmental period
and at the time of the crime and therefore ineligible
for the death penalty, not whether a person is
currently mentally retarded and therefore in need of
special services. Because of this, the determination of
mental retardation in the Atkins context is always
complicated by the problems associated with
retrospective assessment and the well-known
consequence of a diagnosis of mental retardation–
exemption from the death penalty. Both experts and
those answering questions about a person’s adaptive
functioning may exhibit significant conscious or
unconscious bias in addressing this issue.
The habeas judge found that applicant proved that
he had significant deficits in adaptive behavior. The
judge relied almost exclusively on a Vineland
Adaptive Behavior Scales test that one of his experts,
57 Gregory Olley, The Assessment of Adaptive Behavior in

Adult Forensic Cases: Part 3, Sources of Adaptive Behavior
Information, PSYCHOLOGY IN MENTAL RETARDATION AND
DEVELOPMENTAL
DISABILITIES
(American Psychological
Association/Division 33, Washington, D.C.) Summer 2007, at 34.
58 TEX. HEALTH & SAFETY CODE § 591.003(1).

157a
Dr. Fletcher, administered by telephone 59 to
applicant’s sister and his ex-wife. We cannot credit the
results of this retrospective test because
(1) the Vineland test was not designed to be
administered retrospectively decades after the
relevant time frame–here, when applicant was
18 or younger–and long after the reporters had
significant daily contact with applicant;
(2) the Vineland reporters–applicant’s sister and
his former wife–were highly motivated to
misremember his adaptive abilities from some
ten to twenty years earlier, knowing that a
finding of intellectual disability would make
him exempt from the death penalty; 60 and
(3) the adaptive behavior applicant’s sister
reported to the expert as part of the Vineland
test was contradicted by her trial testimony
(before Atkins had been decided and any issue
of mental retardation had arisen) that
applicant was “average,” “nerdy,” and read
books all the time. 61
59 The Vineland is normally administered in a face-to-face

interview with the reporters. In this case, applicant’s expert
admitted that the reporters knew that he would be calling them
to conduct an interview about applicant’s adaptive behavior
while growing up because applicant’s lawyers had called them
and prepared them for his telephone interview.

60 Applicant’s sister married and moved out of the family home

when applicant was just twelve. Applicant’s former wife had
married him when he was fifteen and left him about three or four
years later. Neither had had significant personal contact with
applicant in recent decades, although applicant corresponded
regularly with his sister from prison.
61 Applicant’s sister’s trial testimony is consistent with

applicant’s present level of comprehension, reading, and writing

158a
No one who testified at trial suggested that
applicant was intellectually disabled or suffered from
adaptive deficiencies. It is difficult to credit that a
developmental intellectual disability can lie dormant
and undiscovered for thirty-seven years and then
spring full-grown, like Minerva from Zeus’s forehead,
only when that person would be exempted from the
death penalty if found so disabled.
A 2008 affidavit filed by applicant’s sister stated
that she was nine years older than applicant and left
home when he was about twelve. She stated that
applicant did not get along with his father and, when
his father asked applicant to do something, he “would
often be very slow at doing it.” Applicant never helped
her with household chores unless she asked him to do
so, and she had to teach him to use the microwave and
clean the house. 62
abilities in prison. In her post-Atkins Vineland interview,
applicant’s sister says that applicant “believed anything that he
was told and would do things–if he watched Spiderman, he
believed that he could fly from buildings.” But applicant’s
handwritten prison letters show a sophisticated writer who
certainly knows the difference between “play-acting” and reality,
and indulges in “play-acting” as seduction. For example, in one
letter to pen-pal Amanda Grant, applicant claims that he won
$240 million in the Texas Lottery, but then he tells her, “Alright,
alright, I didn’t win 240 million, it was only 15 million. 
Seriously, though, if I did hit the Jackpot of $240 million, I bet
your pretty little ass would say something like ‘Wayne, Baby, you
know it was always meant for me and you to be together’ . . .
Yeah, yeah, I know, I need to stop being silly. But don’t worry, if
I ever win, I will most definitely take care of my girl.”
62 This behavior, although it might be indicative of an

intellectual disability, is also consistent with that of twelve-yearold boys who are of average or above average intelligence. Pre-

159a
By the time of the 2010 interview with Dr. Fletcher,
she remembered that she had to tell applicant “over
and over” to do something, that he was easily
distracted, that he rarely initiated conversations (but
his speech was clear and understandable), that he did
not know his telephone number, and that she
“thought” he had a sixth-grade reading level. She told
Dr. Fletcher that her former husband never gave
applicant any responsibility at the batteryreplacement shop because he would “mess it up,” but
her husband had testified at trial that he often left
applicant, his technician, in charge of the shop when
he made deliveries because applicant was a good,
trustworthy worker. Applicant’s sister told Dr.
Fletcher that applicant was “bullied” at school and
had no friends, but that contradicted the trial
testimony of applicant’s teacher who said that he was
well-liked by his classmates and got along with
everyone.
Applicant’s former wife told Dr. Fletcher in a 2010
interview that she had to show applicant how to wash
clothes, cook, and do chores around the house. She
was “still sort of angry” about how he wouldn’t help
her much and about the friends that he “hung out”
with.
Based on his telephone interview with applicant’s
former wife, Dr. Fletcher scored applicant with a 61 in
communication, 61 in daily living, and 60 in
socialization. Based on his telephone conversation
with applicant’s sister, he scored applicant with a 69
in communications, 68 in daily living, and 66 in
teens and teenagers do not like to be told to “take out the papers
and the trash, yakety-yak.”

160a
socialization. All of these scores are consistent with
the presence of mild mental retardation.
Dr. Proctor, the State’s expert, said that he would
put very little stock in a retrospective Vineland test
that asked applicant’s family members to think back
to his behavior eighteen to twenty-six years earlier.
Furthermore, there were issues of potential bias in
giving the Vineland test to applicant’s family
members who had a motive to underestimate his
abilities and activities. 63 Further, Dr. Proctor said
that clinicians question the validity of any
retrospective use of a formal instrument such as the
Vineland Scale because the norms were not designed
for doing this kind of backward-looking analysis and
looking to behavior more than a decade earlier. 64 The
63 The Fifth Circuit has commented on the potential bias of an

inmate’s relatives in attempting to make a retrospective
behavior assessment. Clark v. Quarterman, 457 F.3d 441, 447
(5th Cir. 2006) (noting that state court had found an adaptive
assessment based on the inmate’s self-reporting coupled with his
ex-wife’s memories about what he could and could not do nine
years earlier “unreliable because it did not account for the
incentive of Clark and his ex-wife to misreport Clark’s adaptive
skills”).
64 Experts in other Atkins cases have expressed the same

concern. See, e.g., United States v. Montgomery, __ F. Supp. 2d
__, 2014 WL 1516147, at *12, 52 (W.D. Tenn 2014) (“Dr.
Marcopulos delivered a persuasive argument for why the
Vineland Adaptive Behavior Scales (“VABS”) administered by
Dr. Reschly in this matter are unreliable based on their
discrepant scores and retrospective application, and thus, why
the Court must examine other sources of evidence to consider
Defendant’s adaptive functioning”; noting that expert concluded
that “these Vineland ‘scores are not reliable, and I don’t feel that
I can trust them as being reliable indices of [Defendant’s]
adaptive functioning because they are not reliable within the
person, they’re not reliable across the persons, and the test was

161a
record does not support the habeas judge’s uncritical
acceptance of Dr. Fletcher’s opinion concerning
applicant’s adaptive deficits based on the Vineland
test. 65
administered in an unstandardized way using retrospective
data.’”); United States v. Jiménez–Benceví, 934 F. Supp. 2d 360,
372 (D. P.R. 2013) (criticizing a “fundamentally unreliable”
VABS administration to the defendant’s sister, who “had a clear
incentive to provide answers that were helpful to her brother”
and derived from memories that “were at least ten years old,
raising doubts about their reliability.”); United States v.
Candelario-Santana, 916 F. Supp. 2d 191, 215-16 (D. P.R. 2013)
(testifying expert described the use of retrospective use of
Vineland test “controversial”); Thorson v. State, 76 So.3d 667,
673 (Miss. 2011) (trial court, in addressing Atkins mentalretardation case, found “the application of retrospective
Vineland tests unreliable and unpersuasive”); Mark Tasse,
Adaptive Behavior Assessment and the Diagnosis of Mental
Retardation in Capital Cases, 16 APPLIED N EUROPSYCHOLOGY
114, 120 (2009) (“It should be noted that there is no research
available examining the reliability or error rate of adaptive
behavior assessments obtained retrospectively. At issue is the
respondent’s ability to correctly recall from memory the assessed
individual’s actual performance. Memory degradation is a real
issue and we do not have any solid research regarding the
forgetting curve regarding someone’s recollection of another
person’s adaptive behavior.”). But see Wiley v. Epps, 625 F.3d
199, 216-18 (5th Cir. 2010) (recognizing that the authors of the
Vineland test express that retrospective interviews are
permissible in certain circumstances).
65 One of the Briseno factors asks whether “those who knew

the person best during the developmental stage—his family,
friends, teachers, employers, authorities—think he was mentally
retarded at that time, and, if so, act in accordance with that
determination?” 135 S.W.3d at 8. Indeed, close family and
friends, as well as teachers, are the most likely to
contemporaneously spot a developmental disability, express
concern about it, and to act upon that determination. What
matters is what family and friends thought of the person during

162a
Even if the Vineland had been administered with
reliable subjects reporting on their contemporaneous
knowledge of applicant’s behavior, the Vineland
would be only one part of a person’s overall adaptive
behavior profile. “[T]he process of assessing adaptive
behavior, particularly on a retroactive sense, ‘is a
matter of drawing information from many sources, all
of which are imperfect.’” 66 Given the vague and
the developmental period, not what they “remember” when they
know that their retrospective memories of disabilities and
limitations may exempt their loved one from the death penalty.
We would be expecting too much of human nature if we thought
that a mother or other loved one, knowing that her memories
suggesting intellectual disability would save her son from
execution, would resolutely assert that he was perfectly normal
in every respect. Clinical psychologists must take into account
both “cognitive bias” and “confirmation bias.” See R. Nickerson,
Confirmation Bias: A Ubiquitous Phenomenon in Many Guises, 2
REV. OF GEN. PSYCH., 175, 177 (1998) (explaining that people
tend to seek information that they consider supportive of favored
hypotheses or existing beliefs and to interpret information in
ways that are partial to those hypotheses or beliefs; conversely,
they tend not to seek and perhaps even to avoid information that
would be considered counterindicative with respect to those
hypotheses or beliefs and supportive of alternative possibilities);
see also Jon D. Hanson & Douglas A. Kysar, Taking
Behavioralism Seriously: The Problem of Market Manipulation,
74 N.Y.U. L. REV. 632 (1999) (providing an overview of findings
from cognitive psychologists and decision theorists suggesting
that humans frequently behave in nonrational ways, and that
these “cognitive biases” are largely incapable of being
unlearned).
For these reasons, we cannot accept, at face value, the habeas
judge’s finding 126 that “the affidavits submitted by Mr. Cathey’s
family members [are] reliable and indicative of adaptive
behavior deficits.”
66 United States v. Candelario-Santana, 916 F. Supp. 2d 191,

216 (D. P.R. 2013) (internal citation omitted) (quoting J. Gregory

163a
amorphous nature of the definition of adaptive
behavior in the relevant statutes and treatises, courts
have adhered to the “relative consensus that the best
way to retroactively assess [an inmate’s] adaptive
functioning is to review the broadest set of data
possible, and to look for consistency and convergence
over time.” 67 A significant impairment in adaptive
behavior may be thought of as “the extent to which the

Olley, The Assessment of Adaptive Behavior in Adult Forensic
Cases: Part 2, PSYCHOLOGY IN MENTAL RETARDATION AND
DEVELOPMENTAL
DISABILITIES
(American Psychological
Association/ Division 33, Washington, D.C.) (Fall 2006)).
67 Candelario-Santana, 916 F. Supp. 2d at 216; see also Ex

parte Butler, 416 S.W.3d 863, 874-75 (Tex. Crim. App. 2012)
(Cochran, J., concurring) (“Assessing adaptive deficits in a
retrospective Atkins hearing is an extremely difficult task. First,
there is a tremendous incentive for those closest to the defendant
to remember him as being deficient. Because a finding of mental
retardation will prevent imposition of a death sentence, it is
understandable that those who wish to spare the defendant’s life
recall and focus on previously unnoted deficits or downplay
competencies, consciously or otherwise. Second, the guidelines
for assessing adaptive deficits are so vague and subjective that
beauty frequently is in the eye of the beholder. In the context of
Atkins hearings, experts routinely disagree about which
behaviors to focus on and what significance different behaviors
have. . . . It was partly for this reason that we adopted the Briseno
factors to assist the factfinder —both the trial judge and this
Court in the context of habeas cases —in considering preexisting
objective data that has not been collected for the sole purposes of
deciding the question of mental retardation in the context of an
Atkins hearing. Those factors focus on the defendant’s behavior
and competency in ‘the real world’ before people are seeking
specific evidence for (or against) a finding of mental retardation
that would bar the defendant’s execution.”).

164a
individual has required assistance to carry out ageappropriate activities.” 68
The best source of retrospective information
concerning
adaptive
behavior
during
the
developmental period is usually school records. Such
records provide an objective, unbiased documentation
of a person’s abilities at the most pertinent time–a
time at which mental retardation or intellectual
disability is most likely to be diagnosed if it exists.
Applicant’s school records show that he was
performing above grade level during the third grade
when he was home-schooled. His grades that year
started with two B’s and two C’s, but he ended the
year with straight B’s.
Applicant was always placed in regular classes and
generally received passing grades. He made a B in
reading lab in the 6th grade, a 72 in Algebra I in the
7th grade, a 72 in physical science, a 70 in history, an
83 in World History, and a 68 in English. In the 9th
grade, he passed all three sections of the standardized
TEAMS test (a test that mentally retarded students
were usually exempt from taking in the late 1980’s).
Applicant’s former middle school history and
homeroom teacher saw him every day. She thought
that he functioned “slightly” below grade level, but she
never suggested that he was intellectually disabled.
Applicant was well behaved, liked by other students,
and got along well with everyone. She felt that
applicant’s falling grades (and his eventual dropping
out) were the result of not making a smooth transition
to high school. All in all, this is not the academic
portrait of an intellectually disabled person.
68 Olley, supra note 57, at 3-4.

165a
And the inventory of applicant’s death-row cell
appears to validate his middle school teacher’s
assessment. Shortly after applicant filed his Atkins
claim of mental retardation, the contents of his cell
were photographed and inventoried. Those contents
are not typical of a person who is intellectually
disabled:
• Applicant’s cell contained numerous
books; a copy of The Echelon Vendetta by
David Stone was open and face-down on
applicant’s bed; other books included
Tactics and Strategy of Chess, The
Complete Jewish Bible (including a
bookmark with the word “redundant”
written on it); Harper Collins Spanish
Dictionary; The Audacity of Hope by
Barack Obama; AIDS in America, by
Susan Hunter; Mein Kampf, by Adolf
Hitler; The Pocket Oxford English
Dictionary; The Source; Larousee
Concise Dictionary; Great Speeches by
African Americans; A Call to Spiritual
Reformation; and Tom Clancy’s Ghost
Recon, by David Michaels (with
applicant’s name and TDCJ number
handwritten on its inside cover).
• Applicant also had an Amazon.com
invoice addressed to him, listing the
books The Looking Glass Wars, The
Looking Glass Wars–Book Two, Seeing
Redd, and ArchEnemy, all to be shipped
to applicant at the Polunsky Unit.
• A composition book containing
approximately 80 handwritten names

166a
and addresses of his pen pals and other
correspondents.
• A TDCJ Offender Grievance Form
containing applicant’s handwritten
name and TDCJ number with his
handwritten grievance complaining that
“within the last few years and essentially
within the previous months the quality
of food served has deteriorated
drastically to a level on the verge of
indecency.” 69
An unrelated property inventory of applicant’s cell
on March 27, 2009, listed the following items: 55
magazines, 12 books, stamps, ink pens, tables,
headphones, and a game board. Although some
mentally retarded persons try to cover up their
disabilities, the notion of a death-row inmate keeping
55 magazines and 12 books in his cell as “cover,” as
well as spending his scarce financial resources
ordering more books from Amazon.com, is
inconsistent with a mentally retarded person
attempting to cover up his disability.
Applicant is not only a prison reader, he is a prison
writer. One pen-pal letter, dated October 22, 2009, to
a woman in Belgium states, “As for myself, well,
yesterday after I found out that Bobby Woods had
another execution date it really troubled my spirit
69 Four other grievance forms, dated after applicant had filed

his Atkins claim, contained the notation “assisted by” other
inmates. It does not appear that applicant needed any such
assistance in filling out forms until after filing his Atkins claim.
Likewise, he apparently never needed assistance in writing
letters to his pen pals discussing his thoughts on the death
penalty and his pending Atkins claim.

167a
because he and I basically have similar claims.” 70 In
a letter to Meg Harper in the United Kingdom,
applicant writes, “Get together and draft up a letter
addressing the injustice of the D/P, and lets send it to
the U.S. attorney general Eric Holder and the
president[.]” He also recounts the number of “blacks,”
“Mexicans,” and “whites” who had been subject to
“legal lynchings here in Texas,” and states, “Now I
elucidated this because Ruth felt like it would be a
good idea to write the Obama administration to
address the issue of the death penalty. And I agree.
But the voices from the people on the outside will have
a more powerful effect when injustice is declared, than
when it comes from those who are incarcerated.”
Another of his pen-pal letters inquires,
And speaking of news, what is your
opinion of the racial incident that
transpired with Professor Gates a few
weeks ago? Now I did like the fact that
the ole racist ass cop lied and falsified his
police report. But I did find it kind of
funny that President Obama offered to
have a beer with both guys at the White
House! 71
70 The evidence at the writ hearing showed that Bobby Wayne

Woods had made an Atkins claim that also relied on the Flynn
Effect.
71 Applicant is referring to the Boston incident in which

Harvard Professor Henry Louis Gates was arrested at his home
based on a 911 call that a burglar was breaking into it. That
incident, in July 2009, received considerable media attention.
See Wikipedia, Henry Louis Gates Arrest Controversy,
http://en.wikipedia.org/wiki/Henry_Louis_Gates_arrest_controv
ersy (last visited Oct. 6, 2014).

168a
In a letter to Sari Kauppinen in Finland, applicant
gives a detailed description of reading The Gates of
Rome, about Julius Caesar.
Dr. Proctor testified that applicant’s letter to
Amanda Grant, instructing her on how to get an I-60
form for visitation, showed that applicant understood
his environment and how to use forms, and that he
could solve a problem using multiple steps. In another
letter to Ms. Grant, applicant describes his upcoming
January 2010 Atkins hearing and says, “So my
lawyers are interviewing doctors, and others that may
testify on my behalf as well as collecting medical and
school records that are needed.” In a letter to The
Prison Journal, applicant stated that he wanted to
submit two poems and a drawing that he hoped the
journal would publish. 72
After examining more than 100 letters written by
applicant, 73 Dr. Proctor testified that these letters
72 The P.U.R.E. Report Newsletter of June 2011, published

one of applicant’s four stanza poems, the first stanza of which
reads as follows:
Bombarded by the cultivation
to ensnare a phantom destiny
of a parents dream lost
to the adversity of change.
Now Precious Angels of a cradle’s caress
are forgotten, as their wrath of heaven
cast out its rebellious demons . . .
73 These one hundred letters contain very few spelling errors,

although the “punctuation police” might well suggest more
commas and hyphens. All of the letters are intelligent, coherent,

169a
showed that applicant was aware of current events,
capable of giving sound advice, capable of planning
and abstract thinking, has political awareness, is
concerned about how the death penalty is applied, and
has ideas addressing the issue. According to Dr.
Proctor, applicant uses humor, speaks in the abstract,
talks about what he wants, expresses his feelings, and
narrates events in his life. These letters demonstrate
applicant’s normal conceptual abilities and social
interactions. We therefore cannot accept the habeas
judge’s
findings
that
applicant
had
(1)
“communicative deficits” and “difficulties expressing
himself” based on his family members’ recent
recollections; (2) “failed to manage his money,” in part
because he overspent his inmate trust account at the
commissary for “several purchases”; (3) “limited
functioning in reading and writing,” despite his vast
wealth of reading materials and handwritten letters
in his cell.
A TDCJ guard, Leah Madison, testified that
applicant gave her a handwritten letter that began,
“Hello Sunshine,” described applicant’s attraction to
her, and included the following: “Because since the
first several time[s] we initially came in contact with
each other, I felt a sense of a kindred spirit between
us. And I’m sure you can relate to what I speak of,
simply because of the compassionate, gentle, loving,
and caring attributes, that we both have in common.”
Ms. Madison reported the letter to the proper
authorities and applicant was moved to a different
pod and level. Applicant told her that he didn’t think
she would turn him in for writing the letter, but that
and consistent. This man intends to communicate with great
grace, and he succeeds.

170a
he understood and knew the consequences. This letter
demonstrates applicant’s well-developed writing and
reasoning abilities, although it also demonstrates his
chutzpah and penchant for flouting the rules.
Speaking of flouting the rules, applicant
participated in a notorious 1998 prison breakout
shortly after he was sent to death row. Applicant was
assigned as a sewing machine operator in the garment
factory. He and several other inmates dyed some
clothes to look like prison guard uniforms, left paper
maché dummies in their cell bunks, and scaled the
inner perimeter fence at the Ellis Unit. With the
exception of the one inmate who got over the fence and
drowned in a creek, they all stopped when guards
began shooting at them. Dr. Proctor testified that the
prison-escape plan contained some “elaborate”
elements and that prisoners organizing a daring
escape would not bring along a mentally retarded
inmate.
Applicant is also an active member of P.U.R.E.
(Panthers United for Revolutionary Education), a
group associated with the Black Panthers. The
P.U.R.E. Newsletter of December 2010, contained an
article written by applicant titled The Echolon
Privilege, arguing that juries find police officers “not
guilty” of murder or “felony brutality” because
[m]any of us in society have been
indoctrinated with trusting those in
authority and placing them on a high
level of esteem. Therefore a common
belief have been embedded in our
subconscious that if we are good law
abiding citizens, then we have nothing to
fear from law enforcement officials. So

171a
when a jury encounters a situation
where a police officer has used force
(deadly or otherwise) their sympathy
gravitates to the officer.
One may agree or disagree with applicant’s position,
which he goes on to explain at great length, but it is
surely cogently articulated. That newsletter also
states, “Panthers United for Revolutionary
Education, founded by Eric Cathey, a Texas death row
Prisoner,” and contains a picture of applicant along
with his TDCJ contact information.
Some psychologists argue that factfinders should
not consider prison behavior in assessing whether a
death row inmate is intellectually disabled because
prison is such a highly regimented society in which
inmates are required to perform rote and simple
activities. 74 But courts should not become so
entangled with the opinions of psychiatric experts as
74 AMERICAN PSYCHIATRIC ASSOCIATION, DIAGNOSTIC AND

STATISTICAL MANUAL OF MENTAL DISORDERS 38 (5th ed. 2013)
(“DSM-5") (“Adaptive functioning may be difficult to assess in a
controlled setting (e.g., prisons, detention centers); if possible,
corroborative information reflecting functioning outside those
settings should be obtained.”). See, e.g., Holladay v. Allen, 555
F.3d 1346, 1358 n.16 (11th Cir. 2009) (“Both experts agreed that
Holladay’s adaptive functioning cannot be accurately assessed
now because he has spent over 17 years in prison, a highly
restricted and restrictive environment.”); Thomas v. Allen, 614
F. Supp. 2d 1257, 1284 n.67 (N.D. Ala. 2009) (“The constraints of
a maximum-security prison environment also limit the
diagnostician’s ability to assess the subject’s adaptive skills
consistently within the AAMR definition.”); see also Thorson v.
State, 76 So.3d 667, 672 n.8 (Miss. 2011) (“Experts for each side
agreed that being on death row for twenty years could have had
an effect, either positively or negatively, on . . . adaptive
functioning.”).

172a
to lose sight of the basic factual nature of the Atkins
inquiry: Is this person capable of functioning
adequately in his everyday world with intellectual
understanding and moral appreciation of his behavior
wherever he is? Or is he so intellectually disabled that
he falls within that class of mentally retarded inmates
who are exempt from the death penalty? In that
inquiry, we should not turn a blind eye to the inmate’s
ability to use society and his environment to serve his
own needs. And sound scientific principles require the
factfinder to consider all possible data that sheds light
on a person’s adaptive functioning, including his
conduct in a prison society, school setting, or “free
world” community. 75
75 See United States v. Montgomery, __ F. Supp. 2d __, 2014

WL 1516147, at *49 (W.D. Tenn. 2014) (noting that some
psychologists decline to give weight to an inmate’s behavior in
jail or prison in assessing mental retardation, but concluding
that “[t]he fact that post-incarceration observers of Defendant’s
adaptive behavior would be inadequate reporters for a
standardized adaptive behavior scale does not mean that all
information regarding Defendant’s post-incarceration behavior
should be ignored entirely.”). In Montgomery, the federal district
judge noted that one expert in that case
disagrees with the statements in the AAIDD
User’s Guide instructing examiners not to
consider past criminal behavior in their
assessment of adaptive functioning. According to
Dr. Welner, “the essence of an ethical practice of
forensic psychiatry is that you don’t pick and
choose your data. You rely on all available
sources of data, ... the idea of just ignoring
behavior altogether is something that has no
foundation in the practice of forensic psychiatry.”
He further testified that he disagrees with the
User’s Guide’s statement that diagnosis of

173a
Some psychologists also say that factfinders should
not consider a person’s strengths, but only his
weaknesses, when deciding the question of
intellectual disability. 76 Most courts, however,
consider all of the person’s functional abilities, those
that show strength as well as those that show
weakness. 77 For example, it would seem foolhardy to
say that a person who has obtained a graduate law
MR/ID is not based on a person’s street smarts,
behavior in jail, or criminal adaptive functioning.
Id. at *49 (record citations omitted). Thus, the district court
refused to disregard the inmate’s “criminal and postincarceration behavior that may lend support one way or another
to Defendant’s adaptive functioning profile.” Id. at *50. The
Montgomery judge noted that this was the approach of some
federal courts as well, including the Fifth Circuit. Id.; see Clark
v. Quarterman, 457 F.3d 441, 447 (5th Cir. 2006) (relying on
evidence that inmate’s “behavior in prison casts serious doubts
on his claims of adaptive limitations as evidence collected from
his cell” showed handwritten letters, complaints, diet plans,
notes about the effects of various chemicals, handwritten puzzles
“including the decipherment of several extremely complicated
codes”).
76 See AAIDD Manual, supra note 41, at 94 (advocating an

approach that “focuses on the individual’s limitations”).

77 See Hooks v. Workman, 689 F.3d 1148, 1172 (10th Cir. 2012)

(rejecting defendant’s contention that Atkins requires courts to
focus solely on a person’s limitations, and concluding that
adaptive functioning means, “What is a given defendant able and
unable to do? Both strengths and deficiencies enter into this
equation because they make up the universe of facts tending to
establish that a defendant either has ‘significant limitations’ or
does not. Not only does Murphy not require the [state court] to
focus on deficiencies to the exclusion of strengths but—most
relevant to our inquiry here—neither does Atkins”; relying, in
part, on defendant’s prison letters in concluding that he did not
suffer adaptive deficits under Atkins).

174a
degree (demonstrating his conceptual abilities), who
is a television talk-show host (demonstrating his
social skills), but who simply cannot learn to drive
properly and has multiple automobile accidents
(demonstrating a limitation in practical skills), meets
the adaptive-deficits prong of intellectual disability by
ignoring all of his educational and social strengths
and focusing exclusively on his deficiencies.
Given the entire body of evidence taken from the
trial and the habeas hearing, including applicant’s
school records and the death-row cell exhibits of his
pen-pal letters and P.U.R.E. articles and poems, we
conclude that applicant has failed to prove, by a
preponderance of the evidence, that he suffers from
significant adaptive deficits or limitations. We must
therefore also conclude that applicant did not
establish the third and final prong of intellectual
disability–its onset during the developmental period.
If applicant has failed to prove that he is intellectually
disabled, he clearly did not prove that he was
intellectually disabled before the age of approximately
eighteen. For these reasons we reject applicant’s
Atkins claim and deny relief on his subsequent
application for a writ of habeas corpus.
Delivered: November 5, 2014
Publish

175a
APPENDIX E

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-55,161-02
Ex Parte ERIC DEWAYNE CATHEY, Applicant
ON APPLICATION FOR A WRIT OF HABEAS
CORPUS IN CAUSE NO. 713189-B IN THE
176th DISTRICT COURT HARRIS COUNTY
PRICE, J., filed a concurring opinion.
CONCURRING OPINION
I join Parts I and IIA of the Court’s opinion today
and otherwise concur in the result. I do not join Part
IIB. For present purposes, suffice it to say that I
continue to disagree with the Court’s decidedly nondiagnostic approach to evaluating the adaptivedeficits prong of the standard for determining
intellectual disability vel non. 1 Particularly after the
1

See Peggy M. Tobolowsky, Different Path Taken: Texas
Capital Offenders’ Post-Atkins Claims of Mental Retardation, 39
HASTINGS CONST. L.Q. 1, 123-25, 163-66 (Fall 2011) (discussing
and quoting extensively from my unpublished dissenting opinion

176a
recent opinion of the United States Supreme Court in
Hall v. Florida, 2 I should think that the writing is on
the wall for the future viability of Ex parte Briseno. 3
FILED: November 5, 2014
PUBLISH

in Lizcano v. State, No. AP-75,879, 2010 WL 1817772 (Tex. Crim.
App. delivered May 5, 2010) (not designated for publication)).
2 134 S.Ct. 1986 (2014). Hall found Florida’s approach to

determining the first prong of the standard for intellectual
disability, the significantly-subaverage-general-intellectualfunctioning prong, to be unconstitutionally narrow. In my view,
Texas’s approach to determining the second prong, the adaptivedeficits
prong,
is
unconstitutionally over-inclusive—
insufficiently tied to the clinical diagnostic criteria and all too
open to non-scientific, impressionistic considerations to
withstand Eighth Amendment scrutiny. Tobolowsky, 39 HAST.
CONST. L.Q. at 163-66 (citing and quoting from Lizcano v. State,
2010 WL 1817772, at *32-40 (Price, J., dissenting)).
3 135 S.W.3d 1 (Tex. Crim. App. 2004). See Tobolowsky, 39

HAST. CONST. L.Q. at 173 (“[T]he Briseno factors remain a
leading candidate for [Supreme] Court scrutiny.”).

APPENDIX F
IN THE 176TH JUDICIAL DISTRICT COURT
OF HARRIS COUNTY, TEXAS
EX PARTE ERIC
DEWAYNE CATHEY,
Applicant.

§
§
§
§
§

TRIAL NO.
713189-B
CCA NO. WR55,161-02

APPLICANT ERIC DEWAYNE CATHEY’S
PROPOSED FINDINGS OF FACT AND
CONCLUSIONS OF LAW
K.S. “Gator” Dunn
State Bar No. 00789266
101 W. Phillips Street, Suite 113
Conroe, Texas 77301
Telephone: (281) 362-7156
Facsimile: (936) 321-8643
Layne E. Kruse
State Bar No. 11742550
Brett Young
State Bar No. 24042203
Adam Bernhard
State Bar No. 24069373
Sumera Khan
State Bar No. 24064319
FULBRIGHT & JAWORSKI L.L.P.
1301 McKinney, Suite 5100

FILED

CHRIS DANIEL
DISTRICT CLERK

Feb 21 2011

Harris County, Texas

Time: ______________

Deputy

By_________________

177a

178a
Houston, Texas 77010
Telephone: (713) 651-5151
Facsimile: (713) 651-5246
Counsel for Eric Dewayne Cathey
Table of Contents
FINDINGS OF FACTS................................................2
I. Procedural History..................................................2
II. The Evidentiary Hearing........................................3
III. The Legal Standard .............................................. 5
A. Three Prongs of Mental Retardation................6
B. Additional Guidance by the AAIDD Manual....8
IV. The Flynn Effect..................................................... 8
A. The Flynn Effect is a scientifically valid and
real phenomenon..........................................................9
B. The Flynn Effect results in about 0.3 points
inflation per year........................................................1 7
C. Scores on intelligence tests should be corrected
for the Flynn Effect.....................................................2 1
D. Correction for norm obsolescence is separate
than the application of the standard error of
measurement..............................................................27
E. The Flynn Effect is applied by clinical
practitioners to individual test results and is also
accepted outside the criminal justice system............29

179a
1. Application of the Flynn Effect in
determining disability in the school system..............30
2. Application of the Flynn Effect in
determining eligibility for Social Security disability
benefits.......................................................................3
F. The known error rate of the Flynn Effect........34
V. Prong One: “Significantly Subaverage” General
Intellectual Functioning............................................36
A. IQ Test Administered by Dr. Yohman in
1996............................................................................36
1. Applying the Flynn Effect and the standard
error of measurement.................................................3 7
2. Reliability of Dr. Yohman’s Score..............37
B. IQ Test Administered by the TDCJ.................39
VI. Prong Two: Significant Limitations in Adaptive
Behavior.....................................................................40
A.
Dr.
Fletcher’s
Adaptive
Behavior
Assessment.................................................................43
B. Conceptual Skill Area......................................4 8
C. Social Skill Area..............................................57
D. Practical Skill Area.........................................61
E. Testimony and Records from the TDCJ..........64
VII. Prong Three: Onset Before the Age of
Eighteen.....................................................................67
VIII. Other Evidence Indicative of Mental
Retardation (Ex Parte Briseno Factors)....................67
IX. Risk Factors for Mental Retardation................70
A. Biomedical Risk Factors..................................7 1

180a
B. Social Risk Factors..........................................7 2
C. Behavioral Risk Factors..................................73
D. Educational Risk Factors................................74
X.
Determination
Concerning
Mental
Retardation................................................................74
CONCLUSIONS OF LAW.........................................75
IN THE 176TH JUDICIAL DISTRICT COURT
OF HARRIS COUNTY, TEXAS
EX PARTE ERIC
DEWAYNE CATHEY,
Applicant.

§
§
§
§
§

TRIAL NO.
713189-B
CCA NO. WR55,161-02

APPLICANT ERIC DEWAYNE CATHEY’S
PROPOSED FINDINGS OF FACT AND
CONCLUSIONS OF LAW
On November 18, 2008, the Court of Criminal
Appeals remanded this cause to the Court for a
hearing on Applicant Eric DeWayne Cathey’s (“Mr.
Cathey”) claim in his Application for Post-Conviction
Writ of Habeas Corpus. In this claim, Mr. Cathey
alleged that he is a person of mental retardation 1 and
1 The term mental retardation is replaced by the
term intellectual disability in the American

181a
thus entitled to habeas relief under the requirements
of the Supreme Court’s decision in Atkins v. Virginia,
536 U.S. 304 (2002), which held that the execution of
defendants with mental retardation violates the
Eighth Amendment to the U.S. Constitution. Mr.
Cathey also alleged that his execution would violate
his due process rights unless he was afforded a full
and fair hearing on his claim of mental retardation.
This Court held an evidentiary hearing to determine
whether Mr. Cathey is a person of mental retardation
and also for evaluating evidence concerning the
following four issues presented by the Texas Court of
Criminal Appeals:
(1) the scientific validity and reliability of the
‘Flynn Effect;’
(2) whether clinical practitioners who are
ordinarily called upon to diagnose mental
retardation for purposes outside of the
criminal justice system use and apply the
‘Flynn Effect’ to I.Q. test results when making
their particularized diagnoses of mental
retardation;
(3) whether the application of the ‘Flynn Effect’
to individual test results is generally accepted
scientific procedure in the pertinent
professional community outside of the
Association on Intellectual and Developmental
Disability Manual, INTELLECTUAL DISABILITY:
DEFINITIONS, CLASSIFICATION, AND SYSTEMS
OF SUPPORT (11th ed. 2010) ("AAIDD Manual"). For
ease of reference, however, the term mental
retardation will be used.

182a
criminal justice system; and
(4) the known or potential ‘error rate’ of the
‘Flynn Effect’ as it applies to a specific IQ. test
result.
Ex Parte Cathey, 2008 Tex. Crim. App. Unpub. LEXIS
850 (Tex. Crim. App. Nov. 18, 2008) (per curiam)
(unpublished).
After reviewing the testimony of witnesses and the
evidence presented at the hearing, the Court finds
that Mr. Cathey has proven by a preponderance of the
evidence that he is a person with mental retardation
and also finds that the Flynn Effect is a scientifically
valid and real phenomenon that should be applied to
intellectual functioning test scores in death penalty
cases to correct for norm obsolescence, and issues
these Findings of Fact and Conclusions of Law in
support.
FINDINGS OF FACT
I. PROCEDURAL HISTORY
1. Applicant Eric De Wayne Cathey (“Mr. Cathey”)
was convicted of capital murder in the 176th Criminal
District Court of Harris County, Texas in Cause No.
713189 on March 12, 1997, and sentenced to death on
March 14, 1997.
2. On March 20, 1997, Mr. Cathey filed a notice of
appeal to the Texas Court of Criminal Appeals. The
Court of Criminal Appeals affirmed the conviction and
sentence on direct appeal on April 21, 1999. Cathey v.
State, 992 S.W.2d 460 (Tex. Crim. App. 1999).
3. On September 16, 1999, Mr. Cathey filed a review
petition to the Supreme Court. The Supreme Court
denied Mr. Cathey’s petition for writ of certiorari on

183a
January 10, 2000. Cathey v. Texas, 528 U.S. 1082
(2000).
4. On March 15, 1999, Mr. Cathey filed an
application for state post-conviction relief under Tex.
Code Crim. Proc., art. 11.071. The Court of Criminal
Appeals denied the application on April 2, 2003. Ex
Parte Cathey, Writ. No. 55,161-01 (Tex. Crim. App.
Apr. 2, 2003) (unpublished).
5. On April 2, 2004, Mr. Cathey filed his federal
habeas petition in the United States District Court for
the Southern District of Texas under 28 U.S.C. § 2254.
The district court denied habeas relief on December
23, 2004.
6. On May 5, 2005, Mr. Cathey filed an application
for certificate of appealability to the Fifth Circuit. The
Fifth Circuit denied Mr. Cathey’s application on April
7, 2006. Cathey v. Dretke, 174 Fed. App’x 841 (5th Cir.
2006).
7. On November 17, 2008, Mr. Cathey filed an
Application for Postconviction Writ of Habeas Corpus
and Motion for Stay of Execution under Tex. Code
Crim. Proc., art. 11.071. By order dated November 18,
2008, the Court of Criminal Appeals granted Mr.
Cathey’s motion to stay and remanded the writ to the
l76th Criminal District Court, Harris County, Texas
for a hearing on Mr. Cathey’s claims. Ex Parte Cathey,
2008 Tex. Crim. App. Unpub. LEXIS 850 (Tex. Crim.
App. Nov. 18, 2008) (per curiam) (unpublished). As a
part of the factual inquiry on the issue of mental
retardation, the Court of Criminal Appeals required
the trial court to evaluate evidence concerning the
Flynn Effect. Id.

184a
II. THE EVIDENTIARY HEARING
8. On January 25-29, 2010, this Court conducted an
evidentiary hearing to determine whether Mr. Cathey
is a person of mental retardation and also to address
the four issues specific to the application of the Flynn
Effect mandated for review by the Texas Court of
Criminal Appeals. Mr. Cathey appeared in person and
through his counsel of record.
9. Mr. Cathey presented live testimony from the
following experts:
a. James Robert Flynn, Ph.D., the discoverer of
and world-renowned expert on the scientific
phenomenon known as the Flynn Effect;
b. Jack M. Fletcher, Ph.D., an expert clinical
neuropsychologist with specific expertise in
classification and
measurement
issues
pertaining to the diagnosis of people with
disabilities; and
c. Alan Steven Kaufman, Ph.D., an expert
psychologist and a top scholar on the
development and interpretation of intelligence
tests.
Mr. Cathey presented testimony by affidavit 2 from
the following people:

2 The Court admitted the affidavits as exhibits
during the evidentiary hearing. "The Court of
Criminal Appeals will defer to the trial court's
findings of fact even when those findings are based on
affidavits rather than live testimony.” Ex parte

185a
a. Greg Olley, Ph.D., an expert psychologist and
chair of the Division 33 American Psychological
Association Committee on Mental Retardation
(DX 47) 3;
b. Charlotte Ross, Mr. Cathey’ s older sister (DX
42);
c. Robert Charles Mr. Cathey, Jr., Mr. Cathey’s
brother (DX 43);
d. Noaella Bryant, Mr. Cathey’s former wife (DX
44);
e. Celecia Baker, Mr. Cathey’s younger sister (DX
45);
f. Faryion Wardrip, an inmate at the Polunsky
Unit (DX 50); and
g. Ronald Hamilton, an inmate at the Polunsky
Unit (DX 51 ).
10. The State presented live testimony from the
following:

Thompson, 153 S.W.3d 416, 418 (Tex. Crim. App.
2005).
3 "DX" refers to exhibits admitted by the Applicant
at the evidentiary hearing. "SX" refers to exhibits
admitted by the State at the evidentiary hearing.
"H.T." refers to the transcript taken at the evidentiary
hearing.

186a
a. Timothy Proctor, Ph.D., an expert forensic
psychologist;
b. Leigh Hagan, Ph.D., an expert psychologist
who offered opinion only on the validity of the
Flynn Effect and not on whether Mr. Cathey is
a person of mental retardation;
c. Don Cohen, an investigator employed by the
Harris County District Attorney’s office for
post-conviction writs;
d. Captain Steven Bryant, a captain at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division;
e. Leah Madison, a correctional officer at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division; and
f. William Cook, a correctional officer at the
Polunsky Unit, Texas Department of Criminal
Justice Correctional Institution Division.
11. Mr. Cathey presented and the Court admitted
a total of 59 exhibits. The State presented and the
Court admitted a total of 21 exhibits.
III. THE LEGAL STANDARD
12. Following the decision of the United States
Supreme Court in Atkins v. Virginia, 536 U.S. 304
(2002), which held that it is “cruel and unusual” to
execute the mentally retarded, the Courts of this and
other states have grappled with the appropriate
procedures and
standards by
which this
straightforward declaration of constitutional principle

187a
is to be applied. In Texas, the procedure is for the
Court, without a jury, to consider appropriate
evidence, including affidavits, and for the applicant to
prove by a preponderance of the evidence that he is a
person of mental retardation. The preponderance of
the evidence means proof “by the greater weight and
degree of credible evidence.” Compton v. Henrie, 363
S.W.2d 179, 182 (Tex. 1963).
13. In determining whether Mr. Cathey is a
person of mental retardation, the Court has been
guided by the scientific and clinical definitions of
mental retardation developed by the American
Association on Mental Retardation (“AAMR”), now
the American Association on Intellectual and
Developmental Disabilities (“AAIDD”), and the
American Psychiatric Association (“APA”). Both
organizations recognize that mental retardation is a
disability characterized by (1) “significantly
subaverage” general intellectual functioning, (2)
accompanied by “related” (AAMR) or “significant”
(APA) limitations in adaptive functioning, (3) the
onset of which occurs prior to the age of eighteen. [DX
4, AAIDD Manual and DX 5, American Psychological
Association, DIAGNOSIS AND STATISTICAL MANUAL OF
MENTAL DISORDER (“DSM-IV”) (1994)].
14. In Ex Parte Briseno, 135 S.W.3d 1, 7 (Tex.
Crim. App. 2004), the Texas Court of Criminal
Appeals noted that Texas had adopted the “AAMR
three-part definition of mental retardation” in the
‘“Persons With Mental Retardation Act,”‘ citing Ex
parte Tennard, 960 S.W.2d 57, 60 (Tex. Crim. App.
1997) and Texas Health & Safety Code§§ 591.003(13)
& (16). The Court then applied that definition in
determining whether the applicant presented

188a
sufficient evidence of mental retardation.
A. Three Prongs Of Mental Retardation
15. Each component of the definition of mental
retardation requires additional explanation. First, the
consensus among mental health professionals and the
AAIDD manual is that the requirement of
significantly
subaverage
general
intellectual
functioning is satisfied by “an IQ score that is
approximately two standard deviations below the
mean, considering the standard error of measurement
for the specific assessment instruments used and the
instruments’ strengths and limitations.” 4 [DX 4,
AAIDD Manual at 27]. The AAIDD Manual also states
that “[a]n IQ score should be reported with confidence
intervals rather than a single score. [DX 4, AAIDD
Manual at 40]. The DSM-IV recognizes that “there is
a measurement error of approximately 5 points in
4 The AAIDD does not intend for a fixed cutoff point to be

established for diagnosing a person with mental retardation. [DX
4, AAIDD Manual at 39-40]. The diagnosis is "intended to reflect
a clinical judgment rather than an actuarial determination." Id.
The AAIDD Manual explains that "it is important to use a range
as reflected in the test's standard error of measurement" because
of variations in test performance, examiner's behavior, or other
undetermined factors. [DX 4, AAIDD Manual]. Accordingly, a
"standard error of measurement" must be taken into account in
interpreting the IQ score obtained on any test. Id. The standard
error of measurement is the range of IQ score of plus or minus
five points within which there is a high level of confidence that a
person's "true" IQ resides. Id. Thus, obtained IQ scores up to 75
can satisfy the first component of the definition of mental
retardation, for the true IQ score of a person who obtains a score
of 75 is within the range of 70-80. See Atkins v. Virginia, 536 U.S.
at 309 ("an IQ between 70 and 75 or lower .. .is typically
considered the cutoff IQ score for the intellectual function prong
of the mental retardation definition").

189a
assessing IQ, although this may vary from instrument
to instrument.” [DX 5, DSM-IV at 39].
16. Next, with respect to adaptive functioning,
the AAIDD Manual recognizes deficits in adaptive
behavior as “performance on a standardized measure
of adaptive behavior that is normed on the general
population including people with and without
[intellectual disability] that is approximately two
standard deviations below the mean of either (a) one
of the following three types of adaptive behavior:
conceptual, social, and practical, or (b) an overall score
on a standardized measure of conceptual, social, and
practical skills.” [DX 4, AAIDD Manual at 43].
17. Third, with respect to the requirement that
the onset of subaverage intellectual functioning and
deficits in adaptive functioning occur before the age of
eighteen, it is not required that there be a diagnosis of
mental retardation before the person’s eighteenth
birthday. [DX 4, AAIDD Manual at 27-28]. Rather, it
is necessary only that the limitations in adaptive
functioning be apparent before the age of eighteen,
that IQ testing sometime during the person’s life
reliably establish an IQ of 75 or below, and that there
be no intervening reason, such as a traumatic head
injury, for the person’s IQ to have diminished since
the age of eighteen. [DX 4, AAIDD Manual at 32].
B. Additional Guidance by the AAIDD
Manual
18. Both the Supreme Court and the Texas Court
of Criminal Appeals have applied the definition of
mental retardation as set forth by the AAIDD,
formerly known as the American Association on
Mental Retardation. See Atkins v. Virginia, 536 U.S.

190a
304, 309 n.3 (2002); Ex parte Briseno, 135 S.W.3d at
7. The AAIDD Manual definition of mental
retardation focuses on the presence of adaptive
behaviors before the age of 18:
Intellectual disability is characterized by
significant
limitations
both
in
intellectual functioning and in adaptive
behavior as expressed in conceptual,
social, and practical adaptive skills. This
disability originates before age 18.
[DX 4, AAIDD Manual at 6]; see also Ex Parte Briseno
at 6-8. The AAIDD Manual also lists the following five
assumptions “which are essential to the application of
the definition”:
Assumption 1: “Limitations in present
functioning must be considered within
the context of community environments
typical of the individual’s peers and
culture.”
Assumption 2: “Valid assessment
considers cultural
and
linguistic
diversity as well as differences in
communication, sensory, motor, and
behavioral factors.”
Assumption 3: “Within an individual,
limitations often coexist with strengths.”
Assumption 4: “An important purpose of
describing limitations is to develop a
profile of needed supports.”
Assumption 5:
“With appropriate
personalized supports over a sustained

191a
period, the life functioning of the person
with ID generally will improve.”
[DX 4, AAIDD Manual at 7].
IV. THE FLYNN EFFECT
19. The Flynn Effect is a scientifically valid and
reliable phenomenon. It is applied by clinical
practitioners in the diagnosis of mental retardation
and is used by practitioners outside the criminal
justice system to correct for norm obsolescence. The
Flynn Effect should be applied to individual test
results to account for norm obsolescence and is a
generally accepted scientific procedure. The Flynn
Effect is sufficiently precise to make corrections to
individual IQ scores because it has a known error rate.
A. The Flynn Effect is a scientifically valid
and real phenomenon.
20. All of the experts presented by the State and
the Applicant recognized the Flynn Effect as a real
phenomenon. The existence of the Flynn Effect,
therefore, is uncontested.
21.
James Flynn, Ph.D. is the foremost expert on
IQ norm obsolescence over time, also known as “the
Flynn Effect.” 5 Dr. Flynn is currently an emeritus
professor and lecturer at the University of Otago in
New Zealand. He attended the University of Chicago
where he received his bachelor’s, master’s, and
5 Dr. Flynn explained that although the Flynn Effect is named

after him, the use of the term was coined in 1994 by authors
Richard Hernstein and Charles Murray in their book, The Bell
Curve. Dr. Flynn had been studying the Flynn Effect beginning
1983 and labeled it in his research as "IQ gains over time due to
norm obsolescence." [H.T. Vol. 4: 31].

192a
doctoral degrees in political science. Before joining the
University of Otago faculty, Dr. Flynn taught
psychology at Cornell University and created a
research project based on his work. Dr. Flynn has
been a distinguished visiting speaker at the
universities of Cornell, Chicago, Harvard, and
Princeton where he lectured on his research in
intelligence and IQ testing. Dr. Flynn was a visiting
scholar at the Sage Foundation in 2008 and 2009 and
was a visiting scholar at the Hoover Institution at
Stanford. Dr. Flynn has been profiled by the Scientific
American. [DX 21, Profile of James Flynn, “Flynn’s
Effects,” SCIENTIFIC AMERICAN 37 (2000)]. In 2007, the
International Society For Intelligence Research
recognized Dr. Flynn as being the most distinguished
researcher in the area of intelligence. The New
Zealand Psychological Society honored Dr. Flynn as
its first honorary fellow for life, and the University of
Otago awarded him an honorary doctorate of science.
Dr. Flynn is one of two distinguished associates of the
Psychometrics Center at Cambridge, which sought
Dr. Flynn’s expertise in designing its IQ tests. Dr.
Flynn delivered the keynote address at the American
Psychological Association’s symposium on the Flynn
Effect at Emory University in 1996 and at Cambridge
University in 2006, leading to his 2007 book with
Cambridge University Press, WHAT IS INTELLIGENCE?
[DX 6, James R. Flynn, WHAT IS INTELLIGENCE?
(2009)]. Dr. Flynn has published 67 articles in peerreviewed journals, with roughly 50 publications
addressing the topic of IQ. He has contributed to
Sternberg’s THE ENCYCLOPEDIA OF INTELLIGENCE, the
CAMBRIDGE H ANDBOOK OF INTELLIGENCE, and the
OXFORD H ANDBOOK OF DEV ELOPMENTAL PSYCHOLOGY.
[H.T. Vol. 4: 31-38].

193a
22. Dr. Flynn authored “The WAIS-III and WAISIV: Daubert Motions Favor the Certainly False over
the Approximately True,” published in the journal
Applied Neuropsychology. [DX 18, James R. Flynn,
“The WAIS-III and WAIS-IV: Daubert Motions Favor
the Certainly False over the Approximately True,” 16
Applied Neuropsychology 98-104 (2009)]. In this
article, the results of Dr. Flynn’s comparative study of
individually administered tests from 1972 to the
present were released. After administering tests with
obsolete norms, alongside tests with current norms,
and comparing the results, Dr. Flynn observed that
there are significant IQ gains over time. Dr. Flynn’s
comparison of these tests was scientific and valid and
included a sound method for translating tests having
different scales, such as the Stanford-Binet and the
Wechsler, so that overall changes in scores over time
could be accurately quantified. [H.T. Vol. 4: 53, 55-56,
58, 60].
23. Dr. Flynn also conducted a study with
psychologist Lawrence F. Weiss, Ph.D., the senior
psychologist in psychometrics at Psychological
Corporation, who is responsible for standardizing and
norming the Wechsler and other intelligence tests. Dr.
Flynn and Dr. Weiss co-authored an article
addressing the Flynn Effect titled “American IQ
Gains from 1932 to 2002: The WISC Subtests and
Educational Progress,” published in the International
Journal of Testing. [DX 19, James R. Flynn &
Lawrence G. Weiss, “American IQ Gains from 1932 to
2002: The WISC Subtests and Educational Progress,”
7(2) Int’! Journal of Testing 209-224 (2007)]. Dr. Weiss
collaborated with Dr. Flynn and recognized the Flynn
Effect in this article, acknowledging that IQ test

194a
norms become obsolete over time. Specifically, Dr.
Weiss found that American IQ gains have occurred at
a rate of 0.3 points per year from 1932 to 2002. [H.T.
Vol. 4: 61-62].
24. Dr. Flynn testified that when a test
administrator administers to the same group of
subjects a recently normed IQ test and a less recently
normed test, subjects will make relatively better
scores on the older test and worse scores on the new
test. [H.T. Vol. 4: 18]. This posed a conundrum
because the recognized theory of intelligence is that
IQ is static. Upon reaching majority, an individual IQ
does not improve over time. [DX 4, AAIDD Manual at
28]. The Flynn Effect has been so well accepted by the
scientific community that as a result, test-makers now
update their intelligence tests more frequently. [H.T.
Vol. 4: 49, 82]. Applying the Flynn Effect to individual
test results is accepted as a valid scientific procedure.
[H.T. Vol. 4: 74].
25. Dr. Flynn testified that administering a test
with outdated norms is comparable to measuring a
person’s height with a shrunken measuring tape,
resulting in a readout that the person is 6’0” tall when
the person is actually 5’6” tall. [H.T. Vol. 4: 47].
26. Dr. Flynn concluded that the Flynn Effect is a
scientifically valid, reliable, and observable fact. The
scientific community has accepted that IQ inflation is
a real phenomenon. [H.T. Vol. 4: 43, 47-48, 50-51, 74].
27. Alan Steven Kaufman, Ph.D. is one of the top
scholars in the United States today on the
development and interpretation of IQ tests. Dr.
Kaufman is a clinical professor of psychology at the
Yale University School of Medicine in the Yale Child

195a
Studies Center and has been associated with Yale
since 1997. Dr. Kaufman also is an academic research
psychologist specializing in areas of educational and
school psychology and is specifically trained in test .
development, interpretation, and research. Dr.
Kaufman holds a bachelor’s degree from the
University of Pennsylvania, a master’s degree from
Columbia University, and a doctorate degree in
psychology from Columbia University with a specialty
of measurement research and statistics. Before
joining the faculty at Yale University, Dr. Kaufman
held the position of professor at the University of
Georgia, the University of Alabama, and the
California School of Professional Psychology. Dr.
Kaufman has written more than twenty books and
holds a patent for a test device related to testing the
ability to process information visually on the subtest
called Magic Window. Dr. Kaufman has authored over
150 articles that have been published in peerreviewed journals. Most of these articles relate to the
interpretation of intelligence tests, the structure and
properties
of
intelligence
tests,
and
neuropsychological tests and their application in
general. Dr. Kaufman has authored 14 IQ tests and
has worked in test development since 1968 when he
took a position at the Psychological Corporation,
which publishes the Wechsler tests. [H.T. Vol. 6: 7-10,
12].
28. Dr. Kaufman has extensive experience
creating, developing, and standardizing IQ tests. Dr.
Kaufman worked closely with David Wechsler, Ph.D.
from 1970-1974 to revise the Wechsler Intelligence
Scale for Children (“WISC”) and re-standardize the
test to get a new normative sample. Dr. Kaufman was

196a
also in charge of supervising the Weschler Intelligence
Scale for Children-Revised (“WISC-R”) which was
published in 1974. Dr. Kaufman has written about 12
books about the Wechsler exams. [H.T. Vol. 6: 10-11].
29.

One such book, ASSESSING ADOLESCENT AND
ADULT INTELLIGENCE [DX 10, Elizabeth Lichtenberger
& Alan Kaufman, ASSESSING ADOLESCENT AND ADULT
INTELLIGENCE (3d ed. 2006)], devotes a section to the
Flynn Effect that summarizes the research by Dr.
Flynn and others in the field, research within the
United States, research cross-cultural in nature, and
integrates the findings. Dr. Kaufman has also
independently, and around the same time as Dr.
Flynn’s
earlier research,
researched norm
obsolescence as well. Dr. Kaufman’s research provides
persuasive evidence that the Flynn Effect is
scientifically reliable. The Flynn Effect is repeatable
within the United States at an average rate of three
points per decade, plus or minus a small margin, from
preschool children to old-age, and it has also been
found for different levels of ability and using different
tests and tasks both verbal and nonverbal as well as
working memory. The Flynn Effect is a reliable and
valid scientific finding that has been true for quite
some time. [H.T. Vol. 6: 16-17].
30. Dr. Kaufman’s book, IQ TESTING 101, [DX 7,
Alan Kaufman, IQ TESTING 101 (2009)] published in
2009, was written as a primer to understand the
important concepts related to IQ tests. IQ TESTING 101
discusses the malleability of IQ and the newly realized
fact that it is not static or constant but is constantly
changing over time in accord with the Flynn Effect.
Dr. Kaufman also discusses the use of IQ tests in the
public domain, including a discussion of the Flynn

197a
Effect in relation to Atkins cases. [H.T. Vol. 6: 17-18].
31. In his other publication, ESSENTIALS OF WAISIV ASSESSMENT, Dr. Kaufman recognizes the Flynn
Effect as “well-known,” describing that “a person’s
standard scores on an old test, with outdated, norms
(e.g., the WAIS-III), will tend to be spuriously high.
[DX 8, Elizabeth Lichtenberger & Alan Kaufman,
ESSENTIALS OF WAIS-IV ASSESSMENT 33 (2009)].
32. Dr. Kaufman testified that based on scientific
research, the Flynn Effect is scientifically valid and
reliable in the United States. [H.T. Vol. 6: 38, 40].
33. Jack Fletcher, Ph.D. is a full professor in the
Department of Psychology at the University of
Houston. For the past thirty years he has completed
research on children and adults with developmental
disabilities. He received a degree in clinical
psychology from the University of Florida in 1978, is
a licensed psychologist in the State of Texas, and is
board certified as a clinical neuropsychologist by the
American Academy of Clinical Neuropsychology and
American Board of Professional Psychology. At the
University of Houston he teaches courses on the
assessment of adults and children, including those
with developmental disabilities. He also teaches
advanced
courses
on
intellectual
and
neuropsychological assessment.
He
routinely
conducts assessment for mental retardation and other
developmental disabilities in children and adults. He
has worked with the government’s Social Security
Administration as well as schools in the Houston
Independent School District to evaluate intellectual
functioning. He has’ specific expertise in classification
and measurement issues pertaining to the diagnosis
of people with disabilities. He served on the

198a
President’s Commission on Special Education, a
commission that was charged by the President to
review the Individuals with Disabilities Education
Act, 20 U.S.C. § 1400, in preparation for its
reauthorization. Dr. Fletcher has published 200
articles in peer-reviewed journals. [H.T. Vol. 5: 7, 8,
10-13].
34. Dr. Fletcher testified that the Flynn Effect is
a widely recognized discovery. He stated that the
Flynn Effect is the phenomenon identified by
increased scores on IQ tests where people perform at
higher levels. [H.T. Vol. 5: 21].
35. Dr. Fletcher observed that the Flynn Effect is
universal, and although people disagree about what
causes it, nobody disputes whether it is real or not.
[H.T. Vol. 5: 43]. He testified that “The Flynn Effect is
a real and novel discovery. It is widely accepted
around the world as an explanation for why IQ scores
change over time.” [H.T. Vol. 5: 77].
36. Timothy Proctor, Ph.D. is a private
practitioner in forensic psychology in Dallas, Texas.
Dr. Proctor received a bachelor’s degree in psychology
from Texas A&M University and a doctorate degree
from the University of Texas Southwestern Medical
Center. He also completed a post-doctoral fellowship
in forensic psychology at the University of Southern
California, Institute of Psychiatry, Law, and
Behavioral Science and completed post-doctoral
training in psychopharmacology. Dr. Proctor is board
certified in forensic psychology. [H.T. Vol. 6: 77]. Dr.
Proctor is not board certified in neuropsychology. Dr.
Proctor devotes about one or two percent of his time
attending to patients, and most of his practice relates
to assessing applicants for disability benefits and

199a
assessing applicants in the civil and criminal justice
system. He has not published any articles on the
Flynn Effect or on mental retardation. (H. T. Vol. 7:
68-72].\
37. Dr. Proctor, who was called by the State,
testified that the Flynn Effect is real and that there
are recognizable IQ gains over time. [H.T. Vol. 7: 43].
Dr. Proctor agrees with the Applicant’s experts that it
is the best practice to recognize the Flynn Effect. (H.T.
Vol. 7:61]. Dr. Proctor further agrees with the WAISIII/WMS III TECHNICAL MANUAL in that there is a real
phenomenon of IQ inflation over time and that an
examinee’s IQ score will generally be higher when
outdated norms are used. (H.T. Vol. 7:54].
38. Leigh Hagan, Ph.D. is a solo practitioner of
clinical and forensic psychology in Virginia. He is
licensed as a clinical psychologist in Virginia. Dr.
Hagan received an undergraduate master’s degree
from the University of Virginia and a doctorate degree
in counseling psychology from the University of
Missouri at Columbia. He completed his postdoctoral
training in Georgia. Dr. Hagan is a diplomate of the
American Board of Forensic Psychology. He conducts
evaluations for a number of forensic purposes. About
90%-95% of people he evaluates have a matter before
the justice system. [Vol. 7: 104-109]. Dr. Hagan has
testified 50 times in the last four years in Atkins cases,
admitting that he has not found or testified that any
death row inmate was a person of mental retardation.
Dr. Hagan also conceded that he had prepared and
provided the State’s counsel with an outline of topics
she should address with him. [Vol. 7: 138-139].
39. Dr. Hagan, who was called by the State,
agreed that there is a “genuine statistical

200a
observation” known as the Flynn Effect. [H. T. Vol. 7:
118]. He also acknowledged that in the WAIS-IV
TECHNICAL AND INTERPRETIV E MANUAL, published by
those who develop the Wechsler tests, the manual
states that a group that scored 100 on the Wechsler
Adult Intelligence Scale-III (“WAIS-III”) was expected
to score between 96 and 98 on the Wechsler Adult
Intelligence Scale-IV (“WAIS-IV”). [H.T. Vol. 7: 142].
This is unequivocal acknowledgement of the practical
impact of the Flynn Effect.
40. Manuals guiding the determination of mental
retardation also recognize the Flynn Effect as a real
phenomenon.
41. The WAIS-III/WMS-III TECHNICAL MANUAL is
authoritative and reliable. This manual recognizes
the Flynn Effect and explains that “average IQ scores
will gradually drift upward and give a progressively
deceptive picture of an individual’s performance
relative to the expected scores in his or her own age
group.” [DX 13, WAIS-III/WMS-III TECHNICAL
MANUAL (3d ed. 1997)] For example, “if the mean of
the U.S. population on the WAIS-R was 100 in 1981,
the inflation might cause it to be about 105 in 1997.”
Id. This increase corresponds to applying the Flynn
Effect’s 0.3 points inflation per year over the sixteen
year period, and the conclusion of this manual is that
because of the Flynn Effect, if an outdated test is
given, an individual’s IQ score will be inflated This
application is a correction for the obsolescence of the
norms. [H.T. Vol. 4: 43, 45-46; H.T. Vol. 6: 31].
42. The 2010 AAIDD Manual is authoritative and
also supports the Flynn Effect, stating that “in cases
where a test with aging norms is used a correction for
the age of the norms is warranted.” [RT. Vol. 4: 73-74].

201a
The AAIDD Manual devotes an entire page and
section to the Flynn Effect, recognizing it as an
increase in IQ scores over time:
The Flynn Effect refers to the
observation
that
every
restandardization sample for a major
intelligence. test from 1932 through
1978 resulted in a mean IQ that tended
to increase over time. Flynn (1987)
reported that this effect was also
observed in samples from other countries.
[DX 4 at 37].
43. The Court finds that the Flynn Effect is a
scientifically valid and real phenomenon.
B. The Flynn Effect results in about 0.3
points inflation per year.
44. It is uncontested that the experts testifying on
behalf of the State and the Applicant recognized that
the Flynn Effect results in about 0.3 points inflation
per year or 3 points per decade.
45. Dr. Flynn testified that analysis of
independently verifiable data establishes that during
the World War I era, the IQ inflation rate was about
0.4 points per year, between WWI and 1972 about 0.33
points, with IQ inflation for the current generation at
about 0.3 points per year. [H.T. Vol. 4: 4, 44]. IQ test
data from the 1970s to the present shows that IQ
gains occur at about 0.30 points per year. [H.T. Vol. 4:
41, 44, 52, 62, 66-70, 105]. Dr. Flynn stated that
psychologists who submit their studies to peerreviewed journals and correct IQ scores for the Flynn
Effect in the amount of 0.3 points per year are more

202a
often published, whereas those who submit articles to
peer-reviewed journals articles and do not correct
obsolete IQ tests for the Flynn Effect will not have
their articles published. [H.T. Vol. 4, p. 101-102, 111].
For Wechsler tests, the 0.3 points per year average
gain is consistently within the margin of error for such
a number. [H.T. Vol. 4: 69-70].
46. Dr. Flynn’s book, WHAT IS INTELLIGENCE?,
includes a Figure AIII, with the following caption that
provides further reliable support for the 0.3 point
inflation per year: “Using the WISC to test whether
the IQ gains of American children have been
relatively uniform (about 0.30 points per year)
between 1947 and 2002, and whether that has been
true at all IQ levels. The three IQ levels I have chosen
are 125-140 (high), 90-115 (average), and 55-80 (low).
At each level, the broken line represents a gain of
exactly 0.30 points per year. The solid lines show how
little actual rates of gain have deviated from that
value.” [DX 6, James R. Flynn., WHAT IS
INTELLIGENCE? (2009)].
47. Dr. Kaufman, Dr. Fletcher, and Dr. Proctor
unequivocally agreed with Dr. Flynn, testifying that
the Flynn Effect is roughly three points per decade or
0.3 points per year. [H.T. Vol. 6: 19; H.T. Vol. 5: 25;
H.T. Vol. 6: 102-103]. Even Dr. Hagan was forced to
concede that after analyzing all the available data on
the Flynn Effect, including an analysis of only the
Wechsler tests, the rate of gain fits tightly around 0.3
points per year. [H.T. Vol. 7: 144]. The precision of the
Flynn Effect correction is supported by the
preponderance of expert testimony in this case.
48. Manuals guiding the determination of mental
retardation also recognize that the Flynn Effect

203a
results in about 0.3 points inflation per year. The
AAIDD Manual, which applies to all intelligence tests,
finds that obsolete norms may create a problem with
identifying people as having intellectual disability.
[DX 4]. The AAIDD Manual specifically instructs
testers to recognize the Flynn Effect in the amount of
0.33 points per year. [H.T. Vol. 4: 132].
49. As long ago as 1997, even test makers
recognized correction for the Flynn Effect. The WAISIII Technical Manual 6 recognizes that there is a real
6 The most updated Wechsler test is the Wechsler
Adult Intelligence Scale-IV ("WAIS-IV"), published in
2008. However, it is significant that even older test
manuals, including the WAISIII which was published
pre-Atkins, recognized the Flynn Effect. Additionally,
silence of the WAIS-IV technical manual on correction
for the Flynn Effect is no evidence that scores should
not be corrected for norm obsolescence when an old
test is used. It is not a surprise that a manual
published for a new test does not mention the Flynn
Effect because such a correction is only needed when
older intelligence tests are used. However, even the
technical manual for the WAIS-IV provides a
conversion table that shows the impact of norm
obsolescence. As stated in a recent article, "Clearly
publishers have acknowledged the [Flynn Effect] by
renorming tests more frequently and providing
validity studies and conversion tables. A publisher
should not be expected to address every use of the
test." Jack M. Fletcher, Karla K. Stuebing, and Lisa
C. Hughes, "IQ Scores Should be Corrected for the
Flynn Effect in High-Stakes Decisions," 28(5) Journal
of Psychoeducational Assessment 469 (2010).

204a
phenomenon of IQ inflation over time and explains
that data suggests the inflation rate is 0.3 of a point
per year. [H.T. Vol. 4: 48-49]. The manual states:
Updating of Norms. Because there is a
real phenomenon of IQ:-score inflation
over time, norms of a test of intellectual
functioning should be updated regularly
(Flynn, 1984, 1987; Matarazzo, 1972).
Data suggest that an examinee’s IQ
score will generally be higher when
outdated rather than current norms are
used. The inflation rate of IQ scores
is about 0.3 point each year.
[DX 13 at 8-9] (emphasis added).
50. Several publications on intelligence and
intelligence scores recognize that the Flynn Effect
results in inflation of 0.3 points per year:
• Alan Kaufman, IQ TESTING 101 203
(2009) (“After 10 years, the norms for an
IQ test are 3 points out of date, and after
two decades the outdatedness reaches a
hefty 6 points.”) [DX 7];
• Elizabeth Lichtenberger & Alan
Kaufman, ESSENTIALS OF WAIS-IV
ASSESSMENT 33-34 (2009) (“Overall, the
Flynn Effect has shown that, on average,
American children and adults have
increased their scores on intelligence
tests at the rate of 3 points per decade ...
“) [DX 8];
• Elizabeth Lichtenberger & Alan
Kaufman, ASSESSING ADOLESCENT AND
ADULT INTELLIGENCE 39 (3d ed. 2006)

205a
(“As impressive as the three-point gain
per decade for people in the United
States has seemed to readers of Flynn’s
(1984) article, the United States has
outgained only two of the nations studied
by Flynn (1987) ... “) [DX 10];
• James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ, and the
Flynn Effect,” 12 Psychology, Public
Policy, and Law 184 (2006) (“It
recommends deducting 0.3 IQ points per
year from the scores of defendants for
every year that passed between the date
when the test was normed and the date
when the test was taken.”) [DX 17];
• James R. Flynn, “The WAIS-III and
WAIS-IV: Daubert Motions Favor the
Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100
(2009) (“The bold highlights comparisons
where either a later form of the WISC
has been used to check an earlier form of
the WISC or a later form of the WAIS has
been used to check an earlier form of the
WAIS. These show rates of gain
averaging at about 0.3 points per year
with admirable consistency.”) [DX 18];
• James R. Flynn & Lawrence G. Weiss,
“American IQ Gains from 1932 to 2002:
The WISC Subtests and Educational
Progress,” 7(2) Int’l Journal of Testing
217 (2007) (“Taking the midpoint of the
most recent estimates, the WISC gives a
gain of 0.318 points for the period

206a
between 1948 and 2002 with little
variation.”) [DX 19];
• James R. Flynn, “The Mean IQ of
Americans: Massive Gains 1932 to 1978,”
95(1) Psychological Bulletin 32 (1984)
(“If we select out the eight combinations
with the largest number of subjects, they
evidence rates of gain whose consistency
is quite remarkable, ranging from .250
points per year to .440 points, with a
median of .332.”) [DX 24];
• Alan S. Kaufman, “Looking Through
Flynn’s
Rose-Colored
Scientific
Spectacles,”
28(5)
Journal
of
Psychoeducational
Assessment
494
(2010) (citing research conducted by
Tomoe Kanaya & Stephen J. Ceci) (“The
bulk of evidence suggests that the Flynn
Effect is at least three points per decade
for IQs in the range associated with
mental retardation.”);
• Alan S. Kaufman & Lawrence G. Weiss,
“Guest Editors’ Introduction to the
Special Issue of JPA on the Flynn Effect,”
28(5) Journal of Psychoeducational
Assessment 379 (2010) (“IQ gains from
one generation to the next have occurred
on a world-wide basis, with the
American gain being three points per
decade.”).
51. The Court finds that the Flynn Effect results
in about 0.3 points inflation per year and that the rate
of gain is sufficiently precise to be relied upon and

207a
applied by this Court.
C. Scores on intelligence tests should be
corrected for the Flynn Effect.
52. It is proper procedure to apply and correct
intelligence scores based on the Flynn Effect because
of norm obsolescence. This is supported by the AAIDD
Manual, credible experts in this case, a survey of
psychological practitioners, the scientific literature,
and other courts.
53. In Atkins cases, the determination of IQ score
is of ultimate importance and every method improving
accuracy must be used. [H.T. Vol. 4: 93-94]. The
AAIDD Manual and the User’s Guide to the AAIDD
affirm that “best practices require recognition of a
potential Flynn Effect when older intelligence tests
are used in the assessment or interpretation of an IQ
score. [DX 4, AAIDD Manual and DX 12, USER’S
GUIDE:
MENTAL
RETARDATION
DEFINITION ,
CLASSIFICATION AND SYSTEMS OF SUPPORT (10th ed.
2007) (“User’s Guide:”)]. As stated by the User’s
Guide:
The main recommendation resulting
from this work [regarding the Flynn
Effect] is that all intellectual assessment
must use a reliable and appropriate
individually administered intelligence
test. In cases of tests with multiple
versions, the most recent version with
the most current norms should be used
at all times. In cases where a test with
aging norms is used, a correction for
the age of the norms is warranted.
[DX 12, User’s Guide at 20-21] (emphasis added). The

208a
AAIDD Manual is the leading guide for those giving
intelligence tests. It is the product of years of
preparation and review for leading practitioners in
the field, rather than one company that publishes and
sells a certain intelligence test. Earlier versions of this
manual are cited in Atkins and Briseno. See, e.g.
Atkins v. Virginia, 536 U.S. 304 (2002) and Ex parte
Briseno, 135 S.W.3d 1 (Tex. Crim. App. 2004)
(applying the definition of mental retardation used by
the American Association of Mental Retardation,
predecessor to the AAIDD).
54. The WAIS-III Technical Manual also
recognizes the need to correct scores for the Flynn
Effect:
Regardless of the reasons for these
changes in test performance, periodic
updating of the norms is essential;
otherwise, average IQ scores will
gradually drift upward and give a
progressively deceptive picture of
an individual’s performance relative
to the expected scores in his or her own
age group.
[DX 13, WAIS III/WMS-III TECHNICAL MANUAL at 9]
(emphasis added).
55. Dr. Flynn, in his article “Tethering the
Elephant” also describes that “Failure to adjust the
scores [for the Flynn Effect] is to take flight from
reality.” [DX 17, James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ~ and the Flynn Effect, 12
Psychology, Public Policy, and Law 170 (2006)]. Dr.
Flynn advocates correcting scores by the following:
“for every year between the year when a person took

209a
a test and the year when the test was normed, deduct
0.3 IQ points from the IQ score.” [DX 18, James R:
Flynn, “The WAIS-III and WAIS-IV: Daubert Motions
Favor the Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100 (2009)].
56. Dr. Kaufman supports the AAIDD Manual’s
scientific opinion that it is good practice to apply the
Flynn Effect in instances where one is not able to use
a recently normed test. [H.T. Vol. 6: 23].
57. Applying the Flynn Effect to an individual
test score to correct for norm obsolescence is a method
for ensuring that the individual is evaluated against
an accurate normative basis. [H.T. Vol. 6: 31]. Dr.
Fletcher testified that it is probably an error to
conceptually think about the Flynn Effect as an
adjustment of an individual IQ score. The Flynn
Effect is actually a correction of the normative base,
the denominator, the ruler against which the attained
score is compared, and as such, a practitioner does not
adjust the score itself but rather corrects the
normative basis against which the score is compared
because that normative base has shifted. [H.T. Vol. 5:
78-79].
58. Dr. Proctor testified that it is important for
him to follow the procedures of the IQ test manuals,
and he relies on them. [H.T. Vol. 6: 161, H.T. Vol. 7:3738]. Dr. Proctor agreed with the WAIS-III Technical
Manual that if test administrators give a test with
outdated norms, then the resulting IQ score could be
deceptively high. [H.T. Vol. 7:43]. If future test
manuals advise practitioners to apply the Flynn
Effect, Dr. Proctor would do so. [H.T. Vol. 7:41]. Dr.
Proctor testified he understands that it is generally
accepted practice to update norms and that one should

210a
not just “accept” an IQ score with an eighteen-yearold normative basis. [H.T. Vol. 7:56]. Indeed, Dr.
Proctor also testified that one of the principal reasons
why IQ tests are renormed is because of the Flynn
Effect. [H.T. Vol. 7: 21].
59. Dr. Proctor’s support for his opinion that it is
inappropriate to take the Flynn Effect into account
when calculating IQ scores is not persuasive. Dr.
Proctor testified that the Flynn Effect is somehow
encompassed by the standard error of measurement
but also conceded that there is no support in the
literature for this opinion. He has not authored any
articles on the subject let alone on mental retardation.
[H.T. Vol. 7: 63, 39, 40, 58, 59].
60. Dr. Greg Olley, chair of the division 33
American Psychological Association Committee on
mental retardation and the death penalty, conducted
a study in the spring of 2008 of a targeted population
to obtain information about the current forensic
practices of psychologists. [DX 47]. Dr. Olley sent a
survey to approximately fifty educators and forensic
psychologists who were nominated by his Committee
based on their experience in mental retardation and
forensic psychology. Dr. Olley received thirty-five
responses. Dr. Hagan testified that he himself
participated in the Olley survey. [H.T. Vol. 7: 167].
Eighty-five percent of the respondents were
psychologists. When asked whether the Flynn Effect
is a real occurrence, 91.2% responded yes. Dr. Hagan
testified that he would have answered yes to this
question. [H.T. Vol. 7: 169]. When asked whether
correcting an obtained IQ score would be justified to
account for the Flynn Effect, 87.5% responded yes.
[DX 47]. The Court finds Dr. Olley’s survey reliable

211a
evidence that correction for the Flynn Effect is
recognized and accepted by practicing forensic
psychologists in the area of mental retardation.
61. Dr. Hagan also conducted a survey in 2007
and found that applying the Flynn Effect was not the
proper and trusted convention and custom in
psychology. [H.T. Vol. 7: 120, SX 20]. Dr. Hagan
surveyed twenty-eight directors of doctoral training
programs approved by the American Psychological
Association and board-certified school psychologists.
[SX 20]. The survey relied on recognition of fourteen
texts, four of which were authored by Dr. Kaufman,
who testified that he advocates correction for the
Flynn Effect. [H.T. Vol. 7: 158]. The survey did not
include manuals such as the AAIDD, which have
explicitly recommended correcting IQ scores for norm
obsolescence. The survey also did not consider
whether and how many of the respondents had
evaluated convicted criminals, and Dr. Hagan
conceded that the school psychologists included in his
survey typically do evaluations in the education
system only, having no experience with Atkins claims
and applicants. [H.T. Vol. 7: 160]. Dr. Hagan also
admitted that the directors of clinical training
programs he surveyed received their training and
education far before the Flynn Effect was discovered.
[H.T. Vol. 7: 167]. The Court finds Dr. Hagan’s
findings unpersuasive because the sample of
practitioners he surveyed lacked the expertise and
proper knowledge to address recognition of the Flynn
Effect in Atkins cases.
62. The Court finds that correction of IQ test
scores for norm obsolescence is warranted. By way of
example, the Court finds the hypothetical presented

212a
on cross-examination to State’s expert, Dr. Hagan,
convincing. Dr. Hagan was asked to assume that two
identical brothers, Joe and Jerry, have identical
intellectual functioning. Joe took an intelligence test
on January 1 of any given year, and Jerry took an
intelligence test similar in content on February 1 of
the same year, a month later. In the intervening time
period, a new IQ test was published so Jerry took a
new test with new norms. Both Joe and Jerry
answered 50 questions correct. Joe scored a 73, and
Jerry scored a 70, although both took the same test
with the same items. Dr. Hagan argued that the
difference in scores was due to Jerry taking a different
measure and denied that the difference in scores
resulted from obsolete norms. [H.T. Vol. 7: 147-148].
The Court disagrees and finds that obsolete norms
may account for difference in IQ scores as presented
by this example.
63. Several experts in the field of mental
retardation have published articles that advocate
application of the Flynn Effect to correct for norm
obsolescence:
• Stephen Greenspan, “Issues in the Use
of the ‘Flynn Effect’ to Adjust Scores
When Diagnosing MR,” 31(3) Psychology
in
Mental
Retardation
and
Developmental
Disabilities
(2006)
(“Given that mild [mental retardation] is
still a somewhat-inadequately defined
category, it is important to err in very
close cases on the side of being overly
inclusive,
especially
given
the
potentially fatal consequences of a false
negative diagnostic conclusion. Use of

213a
the Flynn Effect is a useful, and valid,
method for increasing the likelihood that
a psychologist will correctly diagnose
[mental
retardation] in
someone
deserving of that label.”) [DX 26];
• James R. Flynn, “The WAIS-III and
WAIS-IV: Daubert Motions Favor the
Certainly False Over the Approximately
True,” 16 Applied Neuropsychology, 100
(2009) (“I advocate adjusting WISC and
Wechsler Adult Intelligence Scale
(WAIS) scores as follows: for every year
between the year when a person took a
test and the year when the test was
normed, deduct 0.3 IQ points from the IQ
score.”) [DX 18];
• James R. Flynn, “Tethering the
Elephant: Capital Cases, IQ, and the
Flynn Effect, 12 Psychology, Public
Policy, and Law 174-75 (2006) (“Failure
to adjust IQ scores in the light of IQ
gains over time turns eligibility for
execution into a lottery ... “) [DX 17];
• John H. Blume, Sheri Lynn Johnson &
Christopher Seeds, “Of Atkins and Men:
Deviations from Clinical Definitions of
Mental Retardation in Death Penalty
Cases,” 18 Cornell J. L. & Pub. Pol’y 689,
711-714 (2009) (“Due to the Flynn effect,
IQ scores must be adjusted to take into
account when the IQ test was taken in
relation to when the test was re-normed.
As with the practice effect, failure to take

214a
the Flynn effect into account results in
an artificially high IQ score.”) [DX 15];
• Jack M. Fletcher, Karla K. Stuebing,
and Lisa C. Hughes, “IQ Scores Should
be Corrected for the Flynn Effect in
High-Stakes Decisions,” 28(5) Journal of
Psychoeducational
Assessment
469
(2010) (“IQ test scores should be
corrected for high-stakes decisions in
which a test with older norms is invoked
as evidentiary support in the decisionmaking process. This could include not
only Atkins cases involving capital
offenses and the death penalty but also
intellectual disability (ID) decisions
involving social security eligibility or
special education where eligibility
hinges on a specific score or range of
scores.”);
• Cecil R. Reynolds, John Niland, John
E. Wright, and Michael Rosenn, “Failure
to Apply the Flynn Correction in Death
Penalty Litigation: Standard Practice of
Today Maybe, but Certainly Malpractice
of Tomorrow,” 28(5) Journal of
Psychoeducational Assessment 4 77
(2010) (“As a generally accepted
scientific theory that could potentially
make the difference between a
constitutional and unconstitutional
execution, the [Flynn Effect] must be
applied in the legal context.”).
64. Courts across several jurisdictions have also
recognized and approved of correction for the Flynn

215a
Effect in evaluating intelligence scores in death
penalty cases:
• Ex Parte Sosa, No. W2-7729A
(81st/218th Judicial District, Atascosa
County, Texas, Feb. 10, 2011) (entering
findings of fact and conclusions of law
that recognize the Flynn Effect, stating
that “[i]n the United States, the average
IQ of the population increases .3 points
per year, or 3 points every 10 years.”);
• Thomas v. Allen, No. 09-12869, 2010
U.S. App. LEXIS 10836, *1, *8 (11th Cir.
May 27, 2010) (stating that the Flynn
Effect is a well-supported, “empirically
proven statistical fact,” tested through
peer review and recognized and accepted
by professional communities and holding
that a court must account for the Flynn
Effect when determining whether an IQ
score falls within the mental retardation
range and that a court should not view a
raw, unadjusted IQ score as precisely
measuring true);
• Holladay v. Allen, 555 F.3d 1346, 1358
(11th Cir. 2009) (“Moreover, all of the
scores were on the WAIS tests, which
may have reflected elevated scores
because of the Flynn Effect.”);
• Walker v. True, 399 F .3d 315, 323 (4th
Cir. 2005) (finding district court erred
when it failed to consider the validity of
defendant’s Flynn Effect evidence and

216a
ordering that Flynn Effect evidence be
considered on remand);
• United States v. Davis, 611 F. Supp. 2d
472, 485-88 (E.D. Md. 2009) (“[T]he
Court finds the defendant’s Flynn Effect
evidence both relevant and persuasive,
and will, as it should, consider the Flynnadjusted scores in its evaluation of the
defendant’s intellectual functioning.”);
• Wiley v. Epps, 668 F. Supp. 2d 848,
894-95 (N.D. Miss. 2009) (taking into
consideration the obsolescence of test
norms in weighing the evidence on
intellectual functioning);
• People v. Superior Court of Tulare
County, 155 P.3d 259, 263 n. 4 (Cal.
2007) (recognizing that “[t]he Flynn
effect is the observed tendency of mean
scores on a given IQ test to increase
slowly over time.”);
• United States v. Parker, 65 M.J. 626,
629 (N.M. Ct. Crim. App. 2007) (finding
that the Flynn Effect is to be considered
when evaluating a defendant’s IQ);
• Williams v. Campbell, No. 04-0681WS-C, 2007 U.S. Dist. LEXIS 27050 (S.D.
Ala. Apr. 11, 2007) (holding that the
Flynn Effect could potentially render IQ
scores unreliable);
• Green v. Johnson, 431 F. Supp. 2d 601,
610 (E.D. Va. 2006) (stating that
evaluation of mental
retardation
purposes requires considerations other

217a
than whether the score of above or below
70, including consideration of the Flynn
Effect).
65. The Court finds that correcting intelligence
scores for the Flynn Effect is proper procedure,
supported by peer-reviewed scientific literature, other
courts, and by a preponderance of the expert
testimony and evidence presented to this Court.
D. Correction for norm obsolescence is
separate than the application of the
standard error of measurement.
66. IQ scores, separate and apart from the Flynn
Effect, must account for measurement error. All
psychometric tests, even when they are reliable, like
the Wechsler test, have a small amount of
measurement error that is typically expressed in
terms of standard errors of measurement. [H. T. Vol.
5: 4 7]. Dr. Fletcher testified that the standard error
of measurement is based on an index of variability
around each person’s average score. The error must be
standardized to get the standard deviation, and the
standard error of measurement is computed by the
standard deviation and the square root of the sample
size. [H.T. Vol. 5:48]. Generally, two standard
measurement errors are used to create a 95 percent
confidence interval, equating to about five points. The
convention is to express this as a range that is five
points on either side, plus or minus. Id.
67. The State’s experts’ conclusion that the
standard error of measurement already accounts for
the Flynn Effect is incorrect. Correction for the Flynn
Effect applies to the norms of tests. The standard
error of measurement applies to the observed test

218a
score and is a statistical analysis. Even if the scores
increase, there is no effect on the standard deviation
of the test (usually fifteen points) and has no effect on
the standard error of measurement because the entire
distribution of test scores shifts and are higher than
when originally normed. Thus, applying the
convention that indicates an average IQ is 100 and
two standard deviations below the mean indicates
significantly subaverage IQ, would require scores of
103 and 73 on a ten year old test, 106 and 76 on a 20
year old test, and so on to show mental retardation.
Dr. Fletcher testified that the Flynn Effect cannot
possibly be part of the standard error of measurement,
and Dr. Proctor could not cite to any authority to
support his contrary conclusion. [H.T. Vol. 7: 202].
68. Dr. Flynn described the norming of tests to
measuring height with a measuring tape. He stated
that each test has a reference group that sets the
norms and is a tape measure. The measuring tape
tells a person whether an individual is of average
height, meaning having an intelligence score of 100,
or whether a person is a bit above average, having an
intelligence score of 115, or whether a person is below
average. The norm is “the tape measure for actually
giving the IQ scores.” [H.T. Vol. 4: 44-46]. Dr. Flynn
also explained that if an older test is used, the score
may be deceptive. For example, he explained that if a
person left a tape measure out in the rain, it may
shrink. If the same tape measure was used after it
became obsolete, the height that was measured would
be incorrect. [H.T. Vol. 4: 47].
69. Also supportive, the AAIDD Manual discusses
the Flynn Effect and the standard error of
measurement as two separate issues in two separate

219a
sections. [H.T. Vol. 7: 204]. The AAIDD Manual, on
page 37, recognizes the Flynn Effect as an
“observation that every restandardization sample for
a major intelligence test from 1932 through 1978
resulted in a mean IQ that tended to increase over
time. [DX 4, AAIDD Manual at 37]. On the other
hand, the AAIDD Manual, on page 36, states the
standard error of measurement “is used to quantify [a]
variability and provide a stated statistical confidence
interval within which the person’s true score falls.”
[DX 4, AAIDD Manual at 36].
70. The Court finds that application of the Flynn
Effect is separate than an adjustment for the standard
error of measurement.
E. The Flynn Effect is applied by clinical
practitioners to individual test results
and is also accepted outside the criminal
justice system.
71. Practitioners outside the criminal justice
system apply the Flynn Effect. [H.T. Vol. 6: 39]. Dr.
Fletcher testified that practitioners who are experts
in the area of mental retardation consider and apply
the Flynn Effect in determining whether individuals
are eligible for Social Security benefits or special
education in the school system. [H.T. Vol. 5: 21].
72. The red book, the User’s Guide, [DX 12],
applies to clinical practitioners and is an attempt to
make it clear to clinical practitioners how they should
apply the AAIDD Manual. [H.T. Vol. 5:25]. The User’s
Guide advocates the practice of correcting for aging
norms by applying the Flynn Effect. [DX 12, User’s
Guide at 20-21]. In a list of guidelines for clinical
practitioners, the guide specifically instructs clinical

220a
practitioners to make a correction for the age of the
norms:
The main recommendation resulting
from this work is that all intellectual
assessments must use a reliable and
appropriate individually administered
intelligence test. In cases of tests with
multiple versions, the most recent
version with the most current norms
should be used at all times. In cases
where a test with aging norms is
used, a correction for the age of the
norms is warranted .... Thus the
clinician needs to use the most
current version of an individually
administered test of intelligence
and take into consideration the
Flynn Effect as well as the standard
error
of
measurement
when
estimating an individual’s true IQ
score.
Id. (emphasis added)
73. Applying the Flynn Effect to correct for norm
obsolescence, including to individual test results, is
generally accepted scientific procedure in the
pertinent professional community outside the
criminal justice system, which includes psychologists,
clinical school psychologists, neuropsychologists,
researchers, and test consumers. [H.T. Vol. 6: 39].
74. Dr. Fletcher testified that “you will find people
discussing the Flynn Effect in estimating it 0.3 .
points per year in virtually any major textbook or
treatise on intellectual assessment.” [H.t. Vol. 5: 27].

221a
1. Application of the Flynn Effect in
determining disability in the school
system
75. One of the categories and eligibility criterion
under the Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1400, is mental retardation. The
IDEA is a federal special education law that applies to
all fifty states in terms of determination of disability.
Under the IDEA, mental retardation is analyzed
using a three-pronged definition, similar to that set
out in the AAIDD Manual. Dr. Fletcher testified that
there are several examples of where the states
implement the IDEA and consider the problem of
using obsolete norms and the misdiagnosis of mental
retardation because of inflated scores. [H.T. Vol. 5:
33]. The federal statutes, however, do not specify any
criteria to be used. The states take what Congress
passes and then translate that into standards. Dr.
Fletcher testified that the federal statutes would not
discuss the Flynn Effect, but in practice, it is a
consideration. [H.T. Vol. 7: 206].
76. Dr. Fletcher testified that special education
benefits in schools depend on correction for the Flynn
Effect. Practitioners recognize that obsolescence of old
norms is an issue. The Weschler Intelligence Scale for
Children-Revised (“WISC-R”), for example, for a time,
gave inflated scores, and as a consequence, children
who might have received special education benefits
when assessed with the WISC-R, would not receive
them. Obsolescence is particularly an issue in schools
because school districts cannot always afford to
purchase the newest and latest versions of an IQ test.
[H.T. Vol. 5: 34]. It is proper for school districts that
use outdated IQ tests to correct scores in accordance

222a
with the Flynn Effect. [H.T. Vol. 6: 26].
77. Dr. Fletcher elaborated that when he served
on the President’s Commission for Special Education,
the Commission would hold hearings on the costs of
assessment. The cost of administering tests to
determine whether or not a child was eligible for
special education benefits ranged from $800 to $8,000
and the average was about $4,500 per child. A kit for
the Wechsler, for example, costs over $1,000 with the
hard case, and a school must then buy manuals and
response booklets. [DX 36, Price Sheet for Wechsler
Intelligence Scale for Children – Fourth Edition
(WISC-IV) and DX 37, Price Sheet for Wechsler Adult
Intelligence Scale – Fourth Edition (WAIS-IV); H.T.
Vol. 5: 38].
78. Concerns about costs of purchasing new
intelligence tests are also voiced in peer-reviewed
journals. For instance, in the article, “Are All IQ
Scores Created Equal? The Differential Costs of IQ
Cutoff Scores for At-Risk Children,” authors Tomoe
Kanaya, Ph.D. and Stephen J. Ceci, Ph.D. write
“Replacing old IQ norms with new (more accurate)
norms, however, is an expensive and slow process.
Faced with a cost of approximately $1,000 per testing
kit and the need to purchase many such kits, school
districts can adopt a new IQ norm as quickly as their
budgets allow.” [DX 27, Tomoe Kanaya and Stephen
J. Ceci, “Are All IQ Scores Created Equal? The
Differential Costs of IQ Cutoff Scores for At-Risk
Children,” 1(1) Child Development Perspectives 52
(2007)]. The recommendation of these authors was
that there be a correction for obsolete norms by school
systems. Id.
79.

In a commentary to the article authored by

223a
Tomoe Kanaya and Stephen J. Ceci, Keith Widaman,
in his article “Stalking the Roving IQ Score Cutoff: A
Commentary on Kanaya and CeCi (2007)” agreed that
the Flynn Effect is a proper correction in the
education system:
If Flynn-effect adjustments can dampen
improper score fluctuations due to aging
norms and thereby smooth out the
proportions of students receiving IQs of
70 or below, I think adjustments should
be used; in fact, it would be
inappropriate to do so. This “quick fix” is
admittedly imperfect and should be
monitored by continuing research to
ensure that it has no unintended
negative consequences. Nonetheless,
use of Flynn-effect adjustments,
however imperfect, is likely to have
fewer negative consequences than
would the failure to use such
adjustments.
[DX 32, Keith Widaman, “Stalking the Roving IQ
Score Cutoff: A Commentary on Kanaya and Ceci
(2007)” Child Development Perspectives 57 (2007)]
(emphasis added).
80. Drs. Kanaya and Ceci reasserted their
position very recently in a 2010 article by stating that
“IQ scores play a major role in determining the
educational experiences and opportunities provided to
a child (and the costs incurred by the schools to
implement these special education services)
throughout his or her school years.” Stephen J. Ceci
and Tomoe Kanaya, “‘Apples and Oranges Are Both
Round’: Furthering the Discussion on the Flynn

224a
Effect,” 28(5)
Journal
of Psychoeducational
Assessment 441, 444 (2010) (stating there is a higher
likelihood for the Flynn Effect to have an impact on a
child’s special education diagnosis).
81. Dr. Kaufman concurred in his testimony. He
explained that during one of his lectures at Yale
University, a school psychologist who attended the
lecture commented that his school district has had a
money freeze for years where updated versions of the
different intelligence tests are not available. Dr.
Kaufman responded that the psychologist should use
the best test available, but if the only test available is
an outdated one, then correction for the Flynn Effect
should be made at three points per decade. [H.T. Vol.
6: 27].
82. The Court finds application of the Flynn
Effect in determining special education benefits
persuasive evidence that clinical practitioners use the
Flynn Effect outside of the criminal justice system.
2. Application of the Flynn Effect in
determining eligibility for Social
Security disability benefits
83. The Flynn Effect is recognized by the United
States government. In the Social Security benefits
guide,
MENTAL
RETARDATION,
DETERMINING
ELIGIBILITY FOR SOCIAL SECURITY BENEFITS, prepared
by the Committee on Disability Determination for
Mental Retardation [DX 11], authors advise and
discuss the Flynn Effect:
Research suggests that intelligence in
the entire population increases at a
rate of approximately 3 IQ points
per decade, which approximates the

225a
standard error of measurement for most
comprehensive intelligence tests. Thus,
tests with norms older than 10 to 12
years will tend to produce inflated
scores and could result in the denial
of benefits to significant numbers of
individuals who would be eligible for
them if more recent norms had been used.
Disability examiners who use tests with
outdated norms may be systematically
if unintentionally denying benefits
to those who are legally entitled to them.
The examiners also risk losing their
licenses for ethical violations of the
their professional codes.
[DX 11, National Research Council, MENTAL
RETARDATION, DETERMINING ELIGIBILITY FOR SOCIAL
SECURITY BENEFITS (2002) at 123 (emphasis added);
H.T. Vol. 5: 30].
84. Dr. Fletcher testified he has applied the Flynn
Effect in determining whether individuals have
mental retardation and therefore qualify for benefits
through the Social Security Administration. For
example, he administered an IQ test to an individual,
and after determining that his IQ was in the range
associated with mental retardation, he also
administered an adaptive behavior assessment. Dr.
Fletcher further examined the individual’s school
records, and the records indicated there were
difficulties, although the individual was not in special
education for mental retardation but for· behavior
problems. The IQ test that was given, the Wechsler
Intelligence Scale for Children-Revised (“WISC-R”),
was about fourteen or fifteen years old, and Dr.

226a
Fletcher testified that under these circumstances, he
applied the Flynn Effect. [H.T. Vol. 5: 28-29].
85. Dr. Proctor agreed that when determining
Social Security benefits, if intelligence tests with older
norms are administered, a significant number of
individuals will be denied benefits who would
otherwise be eligible because of “inflated” scores. [H.T.
Vol. 7: 70]. Once again, this is agreement by the
State’s own experts that the Flynn Effect cannot be
ignored.
86. The Court finds application of the Flynn
Effect in determining Social Security benefits
persuasive evidence that clinical practitioners use the
Flynn Effect outside of the criminal justice system.
F. The known error rate of the Flynn Effect.
87. In their professional opinions, both Dr. Flynn
and Dr. Kaufman viewed error rates associated with
correcting individual scores as a misunderstanding of
the application of the Flynn Effect. Correcting for the
Flynn Effect is not a question of modifying individual
scores; instead, it is a question of adjusting the
normative basis of the test, which has been altered by
the rise overall in intelligence scores of about three
points per decade. Therefore, the need to reflect
accurately the individual’s test score is a need to
understand how the norms have changed. [H.T. Vol.
6: 41-42]. For instance, an average IQ score when the
test is normed is 100, but the average will be 103 a
decade later because of norm obsolescence. Correcting
the individual score when a test with aging norms is
used corrects for norm obsolescence. Otherwise,
standards for the determination of mental retardation
would have to increase by three points each decade. In

227a
the example given above, the score associated with
mental retardation on a ten year old test would be 73.
88. On the issue of error rate at the evidentiary
hearing, Dr. Fletcher presented assessments
completed by his research team, which were later
published, Jack M. Fletcher, Karla K. Stuebing, and
Lisa C. Hughes, “IQ Scores Should be Corrected for
the-Flynn Effect in High Stakes Decisions,” 28(5)
Journal of Psychoeducational Assessment, 494 (2010),
that showed that across Wechsler/Binet tests, the
measurement error associated with the Flynn Effect
of three points per decade is plus or minus one on
either side of that confidence interval. [H.T. Vol. 5:
46].
89. Dr. Fletcher testified that this error rate is
minimal given that the average norm obsolescence is
consistently found to be about 0.3 points per year
accounting for different ages, ability levels, and even
different types of tests such as Wechsler, Binet, or
Kaufman. [H.T. Vol. 6: 42]. The amount of variability
around the average amount of change is small given
the size of the mean difference. It is generally larger
at lower levels of IQ so 0.3 points per year is a
conservative estimate.
90. Dr. Fletcher’s published study and related
testimony demonstrated that the 95% confidence
intervals for the Flynn Effect using the 14 studies
identified by Dr. Flynn as contemporary comparisons
of Wechsler and Binet scales is 2.50 to 3.09, with a
weighted mean of 2.80, close to Flynn’s unweighted
average of 2.99. Dr. Fletcher testified and concluded
in his article that the error rate is roughly plus or
minus one point per decade, which is sufficiently
precise for a correction for the Flynn Effect. Jack M.

228a
Fletcher, Karla K. Stuebing, and Lisa C. Hughes, “IQ
Scores Should be Corrected for the Flynn Effect in
High-Stakes
Decisions,”
28(5)
Journal
of
Psychoeducational Assessment, 494 (2010).
91. Dr. Fletcher’s opinion was also based on the
WAIS-IV TECHNICAL AND INTERPRETIV E MANUAL. [DX
14, David Wechsler, WAIS-IV TECHNICAL AND
INTERPRETIV E MANUAL 77 (4d ed. 2008), Table 5.6].
The creators of the manual gave both the WAIS-III
and WAIS-IV to about 240 people. The ranges
included on Table 5.6 in the manual were 95 percent
confidence intervals updated for examinees
administered both tests in counterbalanced order. Dr.
Fletcher testified that the scores were corrected by
three points plus or minus one on either side of the
confidence interval. [H.T. Vol. 5: 45-47].
92. The State’s expert Dr. Hagan agreed that
there is a known or potential error rate for the Flynn
Effect. [H.T. Vol. 7: 118]. Dr. Proctor made no mention
of the error rate. Because the State did not provide
further evidence or any explanation as to the error
rate, the Court finds the State’s evidence lacking and
unsubstantiated and finds Dr. Fletcher’s testimony
credible.
93. The Court finds that there is a known error
rate for the Flynn Effect of 0.1 per year and that the
proposed correction of 0.3 points per year is
sufficiently precise to be applied.
V. PRONG ONE: “SIGNIFICANTLY
SUBAVERAGE” GENERAL
INTELLECTUAL FUNCTIONING
94. Mr. Cathey’s IQ score establishes that he has
“significant limitations” in intellectual functioning or

229a
“significantly subaverage” general intellectual
functioning.
A. IQ Test Administered by Dr. Yohman in
1996
95. Dr. J. Robert Yohman, a licensed Texas
psychologist with specialty certification in clinical
neuropsychology, administered the Wechsler Adult
Intelligence Scale-Revised (“WAIS-R”) to Mr. Cathey
on December 26, 1996. Mr. Cathey’s scaled score on
that test was a 77. [DX 40]. Dr. Yohman made no
correction to Mr. Cathey’s score for the Flynn Effect.
If the Flynn Effect is taken into account, along with
the standard error of measurement, Mr. Cathey’s true
IQ score falls within the range necessary for
diagnosing mental retardation.
1. Applying the Flynn Effect and the
standard error of measurement
96. To apply the Flynn Effect to Mr. Cathey’s
score of 77, Dr. Fletcher testified that an estimate of
the age of the normative sample must first be
calculated. The WAIS-R, administered by Dr. Yohman
in 1996, was normed in 1978. At the time it was
administered to Mr. Cathey, the norms for the WAISR were eighteen years old. Dr. Fletcher stated that to
apply the Flynn Effect in this case, a practitioner
must multiply 0.3 by eighteen, which is 5.4 points.
Correcting the full-scale score of 77 for the Flynn
Effect results in a score of 71.6. [H.T. Vol. 5: 43].
97. Dr. Proctor conceded that there is some
inflation in Mr. Cathey’s score of 77 and that the
Flynn Effect has had an impact on the score. [H.T. Vol.
7: 29]. Dr. Proctor also submitted that were he asked
to correct the score of 77 for the Flynn Effect, he would

230a
multiply 0.3 by eighteen years for a correction of 5.4
points, computing the score to a 71.6, the same
procedure and result testified to by Dr. Fletcher. [H.T.
Vol. 7:64].
98. Dr. Fletcher testified that the standard error
of measurement must be applied to the score of 71.6,
calculating a range of 66.6 to 76.6, after accounting for
the five points of measurement error. [H.T. Vol. 5: 49].
99. The Court finds that this range and score,
corrected for the Flynn Effect and the standard error
of measurement, is within the range of mental
retardation, as defined by authoritative treatises. [DX
4, AAIDD Manual and DX 5, DSM-IV].
2. Reliability of Dr. Yohman’s Score
100. Mr. Cathey’s full scale score of 77 on the
WAIS-R administered by Dr. Yohman is reliable and
credible for the purpose of determining that Mr.
Cathey has “significant limitations” in intellectual
functioning or “significantly subaverage” general
intellectual functioning. Dr. Yohman is a licensed
psychologist in Texas with specialty certification in
clinical neuropsychology and is a diplomate of the
American Board of Professional Psychology and
American Board of Clinical Neuropsychology. He has
been licensed to practice in the state of Texas since
1998. [DX 40]. Dr. Yohman administered the WAIS-R
in the Harris County jail under acceptable conditions.
[DX 48, Trial Transcript, Vol. 23: 16]. The Court finds
Dr. Yohman was qualified to administer the
intelligence test and that the test was scored correctly.
101. Because Dr. Yohman’s score is reliable and
based on sound methodology, the Court finds there
was no need to retest Mr. Cathey for purposes of the

231a
evidentiary hearing. The State had opportunity and
good reason to administer an IQ test to Mr. Cathey in
1996, and it failed to do so. Additionally, the State was
given the right to fully cross-examine Dr. Yohman and
his testing methodology at the punishment phase of
Mr. Cathey’ s trial, and it has not ever questioned or
objected to the validity of the test, Dr. Yohman’s
qualifications, or Mr. Cathey’s score of 77. Because
Mr. Cathey’ s experts relied on Dr. Yohman’ s score
during the evidentiary hearing and did not present
testimony based on a new intelligence test, retesting
was not necessary. 7 See Lagrone v. State, 942 S.W.2d
602, 610-11 (Tex. Crim. App. 1997) (holding that when
the defense intends to produce expert testimony, “trial
courts may order defendants to submit to an
independent, state-sponsored psychiatric exam ... “)
(emphasis added).
102. Dr. Fletcher testified that examining Mr.
Cathey with another IQ test would not add to his
ability to identify him with or without mental
retardation. [H.T. Vol. 5: 112-113]. Dr. Fletcher stated
that his opinion of mental retardation is valid and
reliable regardless of the fact that he did not interview
or retest Mr. Cathey. [H.T. Vol. 5: 88]. Although the
Psychologist Licensing Act includes a provision on the
7 The State should be collaterally stopped from objecting now

to Dr. Yohman's testing and score because it failed to object on
these grounds at Mr. Cathey's trial. The issue of cognitive
disability was placed before the jury during the punishment
phase of trial, and the State had ample reason, at that time, to
request testing of Mr. Cathey. Any retesting of Mr. Cathey now
raises issues under the Fifth and Sixth Amendments, as well as
the Fourteenth Amendment, that protect a defendant from the
State's effort to interrogate him without his consent. Fields v.
State, 627 S.W.2d 714, 718 (Tex. Crim. App. 1982).

232a
need to examine an individual before rendering an
opinion on mental retardation, Dr. Fletcher testified
it was understood that he did not examine Mr. Cathey
and that it was not necessary for his conclusion given
the circumstances. [H.T. Vol. 5: 86-88].
103. Further, Dr. Kaufman, an expert in IQ testing
and methodology, whose testimony was not rebutted
by the State, testified that IQ test norms are not
appropriately applicable to individuals whom have
been incarcerated for as many years as ten, twelve, or
fourteen years because the normative sample does not
include a person who has been incarcerated for that
long. Makers of IQ tests do not include incarcerated
individuals in their sampling for determining norms.
Therefore, Dr. Kaufman testified that it would not be
proper procedure to test an inmate, like Mr. Cathey,
unless no other test was available. Further, Dr.
Kaufman stated that because intelligence tests are
not accurate when administered to inmates who have
been incarcerated for several years, it is best practice
to rely on a valid IQ score obtained before the inmate
was on death row for nearly fourteen years. [H.T. Vol.
6: 35-37]. Here, Dr. Yohman’s administration of the
WAIS-R to Cathey, after he was imprisoned only for a
few months, was accurate, and the Court finds the
full-scale score of 77 reliable, before a Flynn Effect
correction.
B. IQ Test Administered by the TDCJ
104. Mr. Cathey’s tests scores from the intake
assessment at the Polunsky Unit lend further weight
and reliability to the determination that Mr. Cathey
meets the first prong of mental retardation. [DX 57,
Texas Department of Criminal Justice (“TDCJ”)

233a
Service Investigation Worksheet].
105. A 1998 Service Investigation Worksheet
included in the TDCJ records indicated Mr. Cathey
had an “EA score below 5 and an IQ below 73.” [DX
57, TDCJ Service Investigation Worksheet; H.T. Vol.
8:63]. Captain Bryant, captain at the Polunsky Unit
where Mr. Cathey is housed, testified that inmates
undergo a psychological assessment at intake. He
verified that the official TDCJ record in Mr. Cathey’s
file and in the State’s own records indicated that Mr.
Cathey had an IQ below 73. [H.T. Vol. 8:63].
106. The State learned of this test score for the first
time at the evidentiary hearing, and this pre-Atkins
IQ score, although found in the records the State
produced, was not provided to or relied on by its
experts. [H.T. Vol. 8: 92-93].
107. Dr. Yohman’s score, corrected for the Flynn
Effect, is lent further weight and reliability by the
TDCJ finding independently that Mr. Cathey had an
“EA score below 5 and an IQ below 73.”
VI. PRONG TWO: SIGNIFICANT
LIMITATIONS IN ADAPTIVE BEHAVIOR
108. According
to
the
AAIDD
Manual,
“[s]ignificant limitations in adaptive behavior are
established through the use of standardized measures
and, like intellectual functioning, significant
limitations in adaptive behavior are operationally
defined as performance that is appropriately two
standard deviations below the population average on
one of the three adaptive skills domains of conceptual,
social, or practical.” [DX 4, AAIDD Manual at 47].
Adaptive behavior measures what a person actually
does on a habitual everyday basis and not what they

234a
are capable of doing. [H.T. Vol. 7: 185]. The DSM-IV
recognizes that people with mild mental retardation,
“[b]y their late teens ... can acquire academic skills up
to approximately the sixth grade level. During their
adult years, they usually achieve social and vocational
skills adequate for minimum self-support, but may
need supervision, guidance, and assistance ... “ [DX 5
at 41]. The focus of an adaptive behavior assessment,
therefore, is “on documenting the individual’s deficits,
not his strengths,” [DX 29, J. Gregory Olley,
“Knowledge and Experience Required for Experts in
Atkins Cases,” 16 Applied Neuropsychology 135-140
(2009)], and the “focus in evaluations and ultimately
adjudications under the adaptive prong must remain
focused on the individual’s limitations, rather than
any skills he or she may also possess.” [DX 16, James
Ellis, Mental Retardation and the Death Penalty: A
Guide to State Legislative Issues, 27 MENTAL &
PHYSICAL DISABILITY L. REP. 11 (2003)].
109. Dr. Fletcher described the three major
domains: conceptual, social, and practical. A person
meets the definition of mental retardation for the
adaptive behavior prong if there is a deficiency in one
of these areas or if the composite score across the
three areas is deficient. [H.T. Vol. 5: 52].
110. There are standardized measures that are
commonly used, including the Vineland Adaptive
Behavior Scales (“Vineland”), the Adaptive Behavior
Scales (ABS), the Scales of Independent Behavior, the
Comprehensive Test of Adaptive Behavior-Revised,
and the Adaptive Behavior Assessment System-II
(ABAS). The AAIDD Manual advises that an
administrator should obtain information regarding
the individual’s adaptive behavior “from a person or

235a
persons who know the individual well. Generally,
individuals who act as respondents should be very
familiar with the person and have known him/her for
some time and have had the opportunity to observe
the person function across community settings and
times. Very often, these respondents are parents,
older siblings, other family members, teachers,
employers, and friends.” [DX 4, AAIDD Manual at 4
7].
111. Dr. Fletcher testified that practitioners
generally do not, and should not, assess criminal
behavior as part of the criterion for an adaptive
behavior problem. He described incarceration as “a
highly structured and very atypical social situation.”
Criminal behavior and facts of the underlying crime
are not used to identify adaptive behavior weaknesses
because this is evidence of maladaptive behavior, and
adaptive behavior and maladaptive behavior are
entirely different phenomenon. [H.T. Vol. 5: 74-75].
Dr. Proctor agreed with Dr. Fletcher that adaptive
behavior and maladaptive behavior are separate and
distinct concepts. [H.T. Vol. 7:244].
112. Marc Tasse, Ph.D., an expert on the
assessment of adaptive behavior, in an article titled
“Adaptive Behavior Assessment and the Diagnosis of
Mental Retardation in Capital Cases,” published in
the peer-reviewed journal Applied Neuropsychology,
also recommends that correctional officers not be
interviewed as respondents for adaptive behavior
assessment:
Correctional officers and other
prison personnel should probably
never be sought as respondents to
provide information regarding the

236a
adaptive behavior of an individual that
they’ve observed in a prison setting. The
only extreme circumstance when one
might consider interviewing a member of
the prison personnel regarding an
inmate’s adaptive behavior would be if
there is absolutely no one alive who can
provide any information regarding the
individual’s
functioning
prior to
incarceration.
[DX 31, Marc J. Tasse., “Adaptive Behavior
Assessment and the Diagnosis of Mental Retardation
in Capital Cases,” 16 Applied Neuropsychology 114
(Mar. 2009)] (emphasis added).
113. Greg Olley, Ph.D., an expert psychologist and
chair of the Division 33 American Psychological
Association Committee on Mental Retardation,
confirms in his article:
Typical community functioning is
difficult to assess in an individual who is
incarcerated; the essential information
is the individual’s performance in the
community before incarceration-not
behavior in the structured environment
of a jail or prison where a person with
mental retardation may function quite
well. Therefore, observation of the
defendant’s prison functioning and
reports by correctional officers do
not
provide
the
necessary
information for a valid diagnosis.
[DX 29, J. Gregory Olley, “Knowledge and Experience
Required for Experts in Atkins Cases,” 16 Applied

237a
Neuropsychology 137 (2009)] (emphasis added).
114. Dr. Proctor agreed that an adaptive
behavioral assessment should occur in the context of
the individuals’ typical community environment and
that prison adaptive behavior is not valid for
assessing adaptive ability in the free world. [H.T. Vol.
7: 102]. He also agreed with the statement that “[t]he
evidence for adaptive behavior strengths or deficits
must illustrate typical community functioning.” [H.T.
Vol. 6: 231, DX 30, Daniel J. Rechsly, Documenting the
Developmental Origins of Mild Mental Retardation,
Applied Neuropsychology 16, 124-134 (2009)]. Dr.
Proctor has not published peer-reviewed literature on
the subject. [H.T. Vol. 6: 234].
115. Dr. Proctor agreed that “the sole purpose of
the adaptive prong of the definition for the criminal
justice system is to ascertain that the measured
intellectual impairment has
had real life
consequences, and that the presence of confirming
deficits must be the diagnostician’s focus.” [H.T. Vol.
6: 212-214].
A. Dr. Fletcher’s Adaptive Behavior
Assessment
116. Dr. Fletcher used the Vineland test procedure
to analyze adaptive behavior. He testified that the
Vineland is a standardized procedure, and he used a
form of the Vineland that represents a semistructured interview. The Vineland is an appropriate
assessment identified in the AAIDD Manual and also
recognized and accepted by courts 8 in this
8 See, e.g., Wiley v. Epps, 625 F.3d 199, 217 (5th Cir. 2010)

(recognizing that "the authors of the Vineland test expressly
state that retrospective interviews to obtain information about a

238a
jurisdiction. To minimize bias of the answers he
received from his respondents, Dr. Fletcher used an
interview form rather than a checklist. [H.T. Vol. 5:
60-61]. This form generates a set of scores from which
Dr. Fletcher then compared the scores to normative
tables. [H.T. Vol. 5: 54-55]. Dr. Fletcher has
administered hundreds of Vineland tests, followed
proper protocol, and has used retrospective
assessments in the past. [H.T. Vol. 7: 190]. He did not
record his conversations with the respondents but
took notes on the forms because he has become very
familiar with the protocol through his practice. [H.T.
Vol. 5: 131].
117. Dr.
Fletcher
testified
that
when
administering adaptive behavior assessments,
practitioners look for limitations that make it difficult
for a person to function independently in society. He
explained that people with mental retardation have
strengths in certain areas and can do things like learn
to drive cars, work, and get married but that the
purpose of an assessment is to focus on the
weaknesses. [H.T. Vol. 5: 51].
118. In determining who to interview, Dr. Fletcher
looked for people who knew Mr. Cathey best during
his developmental period and prior to incarceration.
Mr. Cathey’s parents are deceased, but his older sister
was in the home until she left at the age of eighteen
subject's behavior at an earlier stage is permissible in certain
circumstances, including when the subject is in a restricted
environment, such as a prison, and there is a question about the
subject's adaptive functioning before coming to that
environment"); Chester v. Quarterman, No. 5:05-cv-29, 2008 U.S.
Dist. LEXIS 34936, at *5 (E. D. Tex. Apr. 28, 2008) (stating the
Vineland test is "an accepted instrument for measuring
limitations in adaptive behavior").

239a
and when Mr. Cathey was twelve or thirteen. Mr.
Cathey married in his teens, and Ms. Bryant was also
a suitable respondent. [H.T. Vol. 5: 55-56]. Although
“a retrospective adaptive behavior assessment can be
challenging,” literature confirms that it is “often
considered as the only viable option when the
assessed individual is incarcerated. Interviewing a
respondent while asking them to recall a time prior to
the individual’s incarceration is the proposed means
of capturing the individual’s typical adaptive behavior
in the community and establishing a retrospective
diagnosis.” [DX 31, Marc J. Tasse, “Adaptive Behavior
Assessment and the Diagnosis of Mental Retardation
in Capital Cases,” 16 Applied Neuropsychology 120
(Mar. 2009)]; see DX 29A, J. Gregory Olley and Ann
W. Cox, “Assessment of Adaptive Behavior in Adult
Forensic Cases: The Use of the Adaptive Behavior
Assessment System-III,” in ADAPTIV E BEHAV IOR
ASSESSMENT-II: CLINICAL USE AND INTERPRETATION
381, 387 (Thomas Oakland and Patti L. Harrison eds.
2009) (“Thus, the focus should be on the proper use of
all available assessment methods and sources of
information. With the best available information in
hand, the expert can exercise clinical judgment to
reach a conclusion.”)].
119. Dr. Fletcher also followed guidelines laid out
by Dr. Mark Tasse for the conduct of retrospective
assessment when he performed the Vineland exams.
Dr. Tasse recommends that a practitioner very
carefully define the time period in which the interview
will occur and then conduct the interview and
establish with the respondent what that time period
is going to be. [DX 31, Marc J. Tasse., “Adaptive
Behavior Assessment and the Diagnosis of Mental

240a
Retardation in Capital Cases,”
Neuropsychology 114 (Mar. 2009)].

16

Applied

120. Dr. Fletcher contacted the developer of the
Vineland, Dr. Sara Sparrow, and asked her if she felt
that retrospective interviews were appropriate and
also whether telephone interviews were appropriate.
Dr. Sparrow responded that both methods were
sound. She indicated there was no difference in
conducting a face-to-face as comparable to telephone
interview as a result of one of her prior studies. [H.T.
Vol. 5: 57-58].
121. The Court finds Dr. Fletcher’s use of the
Vineland appropriate.
122. Using the Vineland, Dr. Fletcher interviewed
Mr. Cathey’s older sister, Charlotte Ross, and former
wife, Noaella Bryant, to learn about Mr. Cathey’s
childhood, family history, and development. Dr.
Fletcher reviewed all materials provided to him,
including the trial transcript, affidavits from family
members, which he found consistent with his
independent assessment, the school records, and
formal assessments, through the Vineland, of Mr.
Cathey’s former wife, Noaella Bryant, and older
sister, Charlotte Ross. [H.T. Vol. 5: 53]. He did not
review the offense report, the guilt-innocence
testimony, the punishment testimony, prison records,
commissary records, or prison correspondence
because he found these records irrelevant to adaptive
behavior assessment and not indicative of Mr.
Cathey’s adaptive behavior before the age of eighteen
[H.T. Vol. 5: 97-98]. Dr. Fletcher did not examine or
interview Mr. Cathey because outside sources provide
a more reliable basis for assessment than the
individual himself, who may as a result of

241a
socialization, or a desire to please, over or
underestimate his abilities. 9 [DX 4, AAIDD Manual at
51]. Dr. Fletcher’s decision is confirmed by Dr. Tasse,
who in one of his articles, states that “as many
researchers have documented numerous times,
individuals with low IQ may not always be reliable
self-reporters.” [DX 31, Marc J. Tasse., “Adaptive
Behavior Assessment and the Diagnosis of Mental
Retardation in Capital Cases,” 16 Applied
Neuropsychology 114 (Mar. 2009)].
123. Dr. Proctor testified that Dr. Fletcher’s
adaptive behavior assessment used the best possible
information. Authoritative sources in the field of
forensic psychology instruct those assessing adaptive
behavior to either use a standardized measurement
device or to collect information from other sources.
[H.T. Vol. 6: 178]. The best and most reliable
informants are those who are around the person the
most, including teachers, spouses, and family
members. [H.T. Vol. 6: 184]. Dr. Fletcher interviewed
people who had most opportunity to interact with Mr.
Cathey. [H.T. Vol. 6: 238]. Dr. Proctor, on the other
hand, reviewed only records and did not conduct any
interviews.
124. Dr. Fletcher interviewed Mr. Cathey’s older
sister, Charlotte Ross, and his notes and observations
in the form of the Vineland are admitted as an exhibit.
[DX 39, Vineland-II Adaptive Behavior Scales Test of
9 During his testimony at the punishment phase of trial, Dr.

Yohman testified that Mr. Cathey, in response to the personality
tests Dr. Yohman administered, was "portraying himself in a
better light probably than is likely to be found on objective
evidence ... He wanted to look good." [DX 48, Trial Transcript,
Vol. 23: 35].

242a
Charlotte Ross (January 22, 2010)]. In discussing
what Dr. Fletcher characterized as conceptual skills,
Ms. Ross said she would have to repeat things to Mr.
Cathey and could not leave him to do anything. Mr.
Cathey was easily distracted and would believe
anything he was told. He did not talk very much,
talked in a monotone, rarely initiated conversation,
and was probably at a sixth grade reading ability.
[H.T. Vol. 5: 60-61]. In discussing what Dr. Fletcher
described as practical skills, Ms. Ross said Mr. Cathey
needed help with lots of things, and she would have to
watch him or things would not get done. He never
used tools. He knew coin denominations but did not
have much experience with money. [H.T. Vol. 5:· 61].
In discussing what Dr. Fletcher described as· social
skills, Ms. Ross explained that Mr. Cathey did not
play sports, was not very expressive, could play simple
games but not complex ones, and was teased
frequently by other children. [H.T. Vol. 5: 63]. Based
on his interview with Ms. Ross, Dr. Fletcher computed
the adaptive behavior composite score as 66, which he
testified is at the first percentile. Mr. Cathey received
a score of 66 in socialization, a 68 in daily living skills,
and a 69 in communication, scores the Court finds
indicative of mental retardation [H.T. Vol. 5, p. 63].
125. Dr. Fletcher also interviewed Mr. Cathey’s
former wife, Ms. Noaella Bryant, who married Mr.
Cathey when he was a teenager but then divorced him
a few years later. [DX 38, Vineland-II Adaptive
Behavior Scales Test of Noaella Bryant (January 22,
2010)]. Ms. Bryant told Dr. Fletcher that Mr. Cathey
would not talk with her or communicate very much,
he was not very cooperative, and she could not trust
him to watch any of the children. [H.T. Vol. 5: 65]. Dr.

243a
Fletcher computed the adaptive behavior composite as
59, which is at the less than the first percentile for his
age. Mr. Cathey had a standard score of 61 in
communication, 61 in daily living, and 60 in
socialization, scores the Court finds consistent with
the presence of mental retardation. [H.T. Vol. 5: 66].
126. The interviews of Ms. Ross and Ms. Bryant
corroborated the affidavits Dr. Fletcher reviewed, and
Dr. Fletcher found the affidavits from Mr. Cathey’s
family members reliable evidence. [H.T. Vol. 5: 98].
Dr. Proctor, by contrast, did not consider the affidavits
nor attempt to interview the family members,
although he had full opportunity to do so. [H.T. Vol. 6:
214, 223]. The Court finds the affidavits submitted by
Mr. Cathey’s family members reliable and indicative
of adaptive behavior deficits.
127. From the Houston Independent School
District records, Dr. Fletcher learned that Mr. Cathey
had serious academic problems, that he had failed the
ninth grade, and that he had dropped out of school.
[DX 41, Houston Independent School Records]. He
also read the trial transcript of Mr. Cathey’s teacher’s
testimony who characterized him as seriously behind
in middle school. [H.T. Vol. 5: 72]. Dr. Fletcher found
the records consistent with his assessment that Mr.
Cathey has adaptive behavior deficits.
128. The Court credits Dr. Fletcher’s clinical
judgments and the evidence he relied upon to make
his clinical judgment, as well as his determination
that Mr. Cathey has significant deficits in adaptive
functioning in the conceptual, social, and practical
domains that place him approximately two standard
deviations below the mean in adaptive functioning.

244a
B. Conceptual Skill Area
129. The Court finds that Mr. Cathey has the
following deficits in the conceptual skill area:
130. Language. Mr. Cathey’s family, who
witnessed him growing up and who have intimate
personal knowledge of his abilities, remember his
difficulties expressing himself. His younger brother,
Robert Charles Cathey, Jr., in an affidavit [DX 43,
Affidavit of Robert Charles Cathey, Jr.], remembers
Mr. Cathey’s communication problems very clearly:
Eric had problems expressing himself
and didn’t speak often. He talked with
me more than anybody else. I would
understand what he was trying to say
even when the words didn’t make perfect
sense. He felt most comfortable talking
when he was doing something he
understood, like playing basketball. He
always used simple sentences and words.
Eric didn’t have the confidence to
verbally confront people because he
didn’t feel that he would get it right. He
would get frustrated when he couldn’t
find the right words or when people
didn’t understand what he was saying.
Sometimes when Eric got into trouble
with other kids, I would step in because
I was much better at talking to people
than he was. He was physically strong
but he was not good at verbal arguments.
Eric was not very good at talking about
his emotions and reacted physically
instead. On several occasions, he

245a
punched holes in the wall because he was
upset and frustrated. I remember this
happening both in his childhood and
during his marriage to Noaella.
131. Mr. Cathey’s older sister, Charlotte Ross,
confirms and similarly recounts Mr. Cathey’ s
communicative deficits [DX 42, Affidavit of Charlotte
Ross]:
When we were growing up, Eric was
always very quiet. If you talked to him
he would talk back but he would never
initiate conversations. If Eric did ever
speak, what he said would be short and
straight to the point. I never heard him
use long words. He would usually go
without instead of asking for anything. If
it wasn’t provided for him, he wouldn’t
ask for it.
132. Even Mr. Cathey’s younger sibling, Celecia
Baker, states that Mr. Cathey had difficulties
expressing himself [DX 45, Affidavit of Celecia
Baker]:
As a child, Eric was slower than the rest
of us and didn’t catch onto things quickly.
I don’t think he understood lots of the
things that people said to him. I
remember always having to repeat
myself. Sometimes he would drift off and
wander off to play by himself.
133. Money, time, and number concepts. Mr.
Cathey failed to manage his money. His older sister
recounts that “Eric never had a bank account for his
earnings to go in. He gave all his money and earnings

246a
to Noaella and she paid all the bills.” [DX 42, Affidavit
of Charlotte Ross].
134. The fact that Mr. Cathey was provided
commissary money and used it to make purchases
while on death row does not contradict this finding.
Even at Polunsky, Mr. Cathey was unable to manage
the $85 he was given every two weeks. [H.T. Vol. 8:
70]. Mr. Cathey spent over his spending limit on
several purchases. [DX 59, Commissary Purchase
Receipts; H.T. Vol. 8: 70-71]. Additionally, there is
evidence and a declaration from an inmate, Mr.
Faryion Wardrip, that Mr. Cathey was assisted on
several occasions in totaling and managing his
purchases. [DX 5°0, Declaration of Faryion Wardrip].
135. Reading and writing. Mr. Cathey’s school
records indicate limited functioning in reading and
writing. It is clear that he performed poorly in school
and on standardized tests during his academic career,
failed ninth grade, and dropped out the following year.
[DX 41, Houston Independent School District
Records]. In the seventh grade, Mr. Cathey received
D’s in math, history, and science. The next year he
scored below 70 percent in history, science, and one
semester of typing, and received D’s in English,
language arts, reading, math, and one semester of
typing. In his first year of high school, he failed one
semester of English and Spanish. He did not score
higher than a 72 in any subject. [DX 41, Houston
Independent School Records]. Experts in adaptive
behavior assessment recognize that “[g]rading
standards vary from school to school. Information on
the grades earned by other students in the same
education settings can be enlightening. It is important
to understand the grading standards in a specific

247a
school context.” [DX 30, Daniel J. Rechsly,
“Documenting the Developmental Origins of Mild
Mental Retardation,” 16 Applied Neuropsychology,
129 (2009)]. Important then, although Dr. Fletcher
has worked with the Houston Independent School
District and is familiar with Ryan Middle School and
Yates High School, Dr. Proctor, who practices and
lives in Dallas, Texas, admitted that he has no similar
knowledge of the schooling system. [H.T. Vol. 6: 257].
The Court finds Dr. Fletcher’s opinion on Mr. Cathey’s
school records reliable.
136. Mr. Cathey’s standardized test scores also
show objective evidence of functional academic
impairment. In the spring semester of his ninth grade
year, Mr. Cathey’s Metropolitan Achievement Test
(“MAT”) scores were 5.6 grade level in math, 5.7 grade
level in spelling, 5.4 grade level in language, 6.9 grade
level in science, 5.9 or 6.9 (difficult to read) grade level
in social studies, 5.7 grade level in research skills, 7.1
grade level in total reading, 6.0 grade level in total
math, 5.6 grade level in total language, 6.3 grade level
in total basic battery, and 6.5 grade level in total
comprehensive battery. Mr. Cathey underperformed
by multiple grade levels. [DX 41, Houston
Independent School Records].
137. At the punishment phase of his trial, Mr.
Cathey’s teacher at Ryan Middle School, Ms. Anne
Smith, testified that on grade placement tests for high
school, “[o]n the math test, [Mr. Cathey] functioned
basically in the 30th/40th percentile. He passed all
three sections of the math, the reading, and writing of
the Teams Test, but he was still seriously below grade
level.” [DX 48, Trial Transcript, Vol. 22: 235].
138. Although Mr. Cathey passed the TEAMS test

248a
in the ninth grade, this is no indication that he is not
mentally retarded. Dr. Fletcher testified the TEAMS
test is an achievement test and that even people with
mental retardation can pass the TEAMS test. TEAMS
is a minimal standards test that was dropped by the
State in 1989 and replaced by the TAKS and TAAS
tests that test basic competency. [H.T. Vol. 7: 183].
The TEAMS test was widely criticized for its failure
to accurately measure achievement relative to state
standards. [H.T. Vol. 5: 158].
139. Although Mr. Cathey’s older sister Charlotte
Ross testified at trial that Mr. Cathey was a good
student, in speaking to Dr. Fletcher, she explained
that this meant he was well-behaved and did not get
any detentions. [H.T. Vol. 5: 120]. Ms. Ross also
testified at trial that Mr. Cathey was a·”nerd” but this
meant he would read comic books, including
Spiderman. Dr. Fletcher testified that Spiderman was
not a graphic and intricate novel when Mr. Cathey
read it during his childhood and that reading of such
comic books, even today, is consistent with mental
retardation. [H.T. Vol. 5: 121, 161].
140. The fact that Mr. Cathey was not placed in
special education classes because of a disability is still
consistent with a finding of mental retardation.
Literature in the area of mental retardation supports
that “[s]chool diagnoses of [mental retardation] have
become increasingly rare over the last 30 years ...
Schools increasingly become reluctant to diagnose
[mental retardation] even with persons who were
clearly eligible on relevant criteria.” [DX 30, Daniel J.
Rechsly, “Documenting the Developmental Origins of
Mild
Mental
Retardation,”
16
Applied
Neuropsychology 128 (2009)].

249a
141. Dr. Yohman administered to Mr. Cathey a
series of achievement tests, including the Wide Range
Achievement Test-Revised (“WRAT-R”) and the
Woodcock Johnson-Revised. [DX 49, Additional Score
Sheets Provided by Dr. Yohman]. On the WRAT-R,
Mr. Cathey’s score indicated he is in the fourth
percentile for spelling and in the eighth percentile for
letter-word
identification
and
passage
comprehension. 10 Id. Dr. Yohman also concluded from
a series of memory tests that Mr. Cathey was
“moderately deficient at about the second percentile
level.” [DX 48, Trial Transcript, Vol. 23: 21]. The
Court finds these results are consistent with and
indicative of deficits in conceptual skills.
142. Additionally, Dr. Yohman administered to Mr.
Cathey a Categories Test and the California Verbal
Learning Test (“CVLT”), tests that are not
intelligence tests, like the WAIS-R, but that are most
related to IQ. [H.T. Vol. 7: 192; DX 49; Additional
Score Sheets Provided by Dr. Yohman]. Dr. Fletcher
testified that the Categories Test is a concept
formation test that has different trials in which a
person has to do problem solving: On this test, Mr.
Cathey obtained a percentile score at the eighth
percentile. [H.T. Vol. 7: 193]. Dr. Fletcher testified
that the CVLT is a verbal memory test and is designed
10 At the punishment phase of Mr. Cathey's trial, Dr. Yohman

testified that Mr. Cathey "may possibly have a learning disorder
which we'd call a learning disorder not otherwise specified, which
means he has impairment in a variety of academic areas which
certainly led to poor academic achievement, but not particularly
in one area enough of a deficiency to warrant a selective learning
disorder in that area. In other words, he was borderline to mildly
deficient in most academic areas." [DX 48, Trial Transcript, Vol.
23: 20].

250a
to examine a person’s ability to organize and encode
information. On the CVLT, Mr. Cathey received a T
score of 26. Dr. Fletcher testified that a T score has a
mean of 50 and a standard deviation of 10. A score of
26 is about two and a half standard deviations below
average, putting Mr. Cathey below the second
percentile. [H.T. Vol. 7: 192-193]. The Court finds
these results consistent with Mr. Cathey’s deficits in
conceptual and memory skills.
143. Dr. Yohman also administered to Mr. Cathey
the Minnesota Multiphasic Personality Inventory
(“MMPI”), which Dr. Fletcher testified is not a
neuropsychological test but is a personality
questionnaire. [H.T. Vol. 7: 195]. Dr. Fletcher stated
the MMPI is not a reading test, and contrary to Dr.
Proctor’s opinion, the MMPI’s test manual and
publisher, Pearson, advises that the average reading
level for the test is a fifth grade level. [H.T. Vol. 7: 195196]. Dr. Fletcher further testified, to which Dr.
Proctor conceded, that the MMPI does not require a
full reading of all its items. Id. Dr. Yohman’s reports
also indicate that he administered to Mr. Cathey a
Trail Test, which Dr. Fletcher testified requires no
abstraction or judgment but is a vocabulary-based
test. [H.T. Vol. 7:198]. Dr. Fletcher, unlike Dr.
Proctor, is a board certified neuropsychologist, and in
his opinion, the scores Mr. Cathey received on these
tests are consistent with mental retardation. 11 This
11 Dr. Fletcher testified that although the tests, besides the

WAIS-R, that Dr. Yohman administered to Mr. Cathey are
neuropsychological tests not intelligence tests, the Flynn Effect
also effects these scores. [H.T. Vol. 7: 198]. Dr. Fletcher stated
that articles, such as the one admitted into evidence titled "The
Flynn Effect and its Relevance to Neuropsychology," explains to
neuropsychologists the relevance of the Flynn Effect and how the

251a
Court finds Dr. Fletcher’s opinions reliable.
144. The fact that Mr. Cathey’s signature appears
on letters and TDCJ forms does not prove that he did
not have adaptive deficits before age 18 and does not
show that he is without deficits today. Captain Bryant
admitted that he had not personally seen Mr. Cathey
fill out TDCJ forms. [H.T. Vol. 8: 65]. Further, the
following grievance forms, admitted through
Applicant’s Exhibit 53 12 , included notations
indicating that Mr. Cathey received help 13 in
completing TDCJ Offender Grievance Forms:
• TDCJ Offender Grievance Form,
received November 2, 2009, including
notation “assisted by”;
• TDCJ Offender Grievance Form,
received April 8, 2009, including
notation “This Complaint was assisted
by and with the help of Offender”;
• TDCJ Offender Grievance Form,
received March 5, 2009, including
phenomenon of norm obsolescence affects neuropsychological
assessments. Id [DX 52, Merrill Hiscock, The Flynn Effect and
its Relevance to Neuropsychology," 29(5) Journal of Clinical and
Experimental Neuropsychology (2007)].
12 Applicant's Exhibit 53 includes an affidavit from counsel for

Applicant, clarifying that the grievance forms were received after
she submitted an open records request to the TDCJ. The records
were included in Mr. Cathey's offender's file, but the State had
not received a copy of the same through their subpoena to the
TDCJ.
13 The names of the people, mostly offenders, who assisted Mr.

Cathey were redacted.

252a
notation “This was assisted by offender”;
and
• TDCJ Offender Grievance Form,
received February 13, 2009, including
notation “Assisted by Offender.”
145. Several of the TDCJ forms, with Mr. Cathey’s
name and information, were also filled out in different
handwritings, which confirms the finding that Mr.
Cathey received help from other people. [DX 58, TDCJ
Visitor Forms; H.T. Vol. 8: 67]. From State’s Exhibit
15, but entered as Applicant’s Exhibit 58, the
following visitor change forms, verified by Captain
Bryant, were written in different script:
• TDCJ Visitor Change Form, dated
April 30, 1997;
• TDCJ Visitor Change Form, dated July
20, 1998;
• TDCJ Visitor Change Form, dated May
27, 1998; and
• TDCJ Visitor Change Form, dated
June 22, 2005.
Leah Madison, a correctional officer at the Polunsky
Unit, admitted she did not personally see. Mr. Cathey
writing the romantic letter he allegedly gave her that
also caused Mr. Cathey disciplinary problems. [H.T.
Vol. 8: 82]. Dr. Proctor testified that one of the poems
in Mr. Cathey’s letters was plagiarized, and he also
acknowledged that some of the material in the letters
was copied directly from the internet. [H.T. Vol. 6:
140, H.T. Vol. 7: 271]. Dr. Proctor did not see Mr.
Cathey write the letters, and he did not interview
anyone who had seen Mr. Cathey write the letters.
[H.T. Vol. 6: 268]. Although Mr. Cathey spells at the

253a
fourth percentile level, although his full-scale IQ score
was 77 even without correcting for the Flynn Effect,
although Dr. Proctor has never seen Mr. Cathey use a
dictionary, although Dr. Proctor would not expect
someone who spells at a fourth percentile level to be
able to spell the word “renaissance” found in Mr.
Cathey’s letters, which Dr. Proctor admitted not being
able to spell, Dr. Proctor testified that he believes it is
likely that Mr. Cathey wrote the letters. [H.T. Vol.
7:31]. If, however, Mr. Cathey did not write the letters
or the grievance forms, Dr. Proctor stated that his
opinions on mental retardation would change. [H.T.
Vol. 6: 252].
146. There is evidence that inmates in neighboring
cells assisted Mr. Cathey in writing letters. [DX 50,
Declaration of Faryion Wardrip and DX 51,
Declaration of Ronald Hamilton]. Mr. Wardrip, for
example, verified that he lived next to Mr. Cathey at
the Polunsky Unit, read to Mr. Cathey his letters, and
helped Mr. Cathey write letters that related to
political topics, which Mr. Cathey would then copy
and mail. [DX 50, Declaration of Faryion Wardrip].
Mr. Hamilton provided confirming statements,
affirming in his declaration that he read to Mr.
Cathey his letters and helped Mr. Cathey write letters
that related to romantic topics, which Mr. Cathey
would then copy and mail. [DX 51, Declaration of
Ronald Hamilton]. Dr. Fletcher confirmed that adult
men with learning disabilities often ask other men for
help writing romantic letters. [H.T. Vol. 7: 182]. Dr.
Proctor was not aware that Mr. Cathey was assisted
by neighboring inmates, but he conceded that this fact
would impact his assessment of Mr. Cathey’ s writing
skills. [H. T. Vol. 6: 275].

254a
147. Dr. Fletcher testified that he believed Mr.
Cathey could not have authored the letters included
in the prison records on his own. [H.T. Vol. 7: 175]. He
stated that it was not possible for someone who was
spelling and writing at a fifth grade level to write the
letters that were described, unless there was some
intensive intervention program. [H.T. Vol. 7: 182].
There is no program for death row inmates that could
accelerate development of an individual whose
spelling is in the fourth percentile. Id.
148. Dr. Proctor agreed with the DSM-IV and
admitted that individuals with mild mental
retardation can acquire academic skills up the sixth
grade level by their late teens. [H.T. Vol. 7: 86-87]. To
a certain extent, people with mild mental retardation
are educable, teachable, trainable, and can improve
their writing skills with rote practice. [H.T. Vol. 6:
225]. However, this does not account for the level of
sophistication of Mr. Cathey’ s letters from death row
where there are no special educational programs.
149. The Court finds the letters with Mr. Cathey’s
signatures are not reliable evidence regarding mental
retardation.
C. Social Skill Area
150. The Court finds that Mr. Cathey has the
following deficits in the social skill area:
151. Gullibility and naiveté. On cross examination
at the punishment phase of Mr. Cathey’ s trial, Dr.
Yohman testified that Mr. Cathey is “a follower, who
is very unsophisticated, who has limited intellectual
resources, and who is going to gravitate to whoever
will give him attention and affection, who is going to
be easily manipulated.” [DX 48, Trial Transcript, Vol.

255a
23:35].
152. Dr. Yohman’s testimony comports with
history provided by Mr. Cathey’s sisters and brother:
When Eric was young, other kids would
tell him to do things and he would just
agree. On one occasion, a group of kids
convinced Eric to egg a car and he did.
Another time, one of our cousins
persuaded Eric to throw rocks at cars
from a bridge. Eric wouldn’t put up any
kind of fight. I think he was trying to fit
in and didn’t want to be called chicken.
When he got older, Eric started to be
persuaded to stay out late and not tell
people where he was going. [DX 42,
Affidavit of Charlotte Ross].
Because Eric was slower, he was easily
manipulated by others. He always
wanted other people’s approval and
would do anything to please them. He
always followed the lead of others and
rarely made decisions for himself. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
Eric didn’t have a group of friends when
he was young, so when he started to
make friends as an adult he was very
loyal and wanted to impress them. A lot
of his friends used him and played on his
weakness. They would get Eric to do
favors for them, such as lending them
money. [DX 43, Affidavit of Robert
Charles Cathey, Jr.]. ·

256a
Eric wasn’t very popular. He used to
keep to himself. He had problems
expressing himself. Eric was never a
leader. He always followed. He told me
that he just wanted to fit in. [DX 44,
Affidavit of Celecia Baker].
153. Even the capital offense for which Mr. Cathey
was found guilty did not demonstrate forethought,
planning, or complex execution of purpose on his part.
To the contrary, the facts indicate and provide
evidence of Mr. Cathey’s deficits and gullibility. Dr.
Proctor admitted, for example, that Mr. Cathey did
not plan the kidnapping, was not a passenger of the
car that was surveying the victim, did not drive either
car involved in committing the crime, and did not ask
any questions of the victim. (H.T. Vol. 7: 17].
154. The facts of the alleged escape attempt made
by five inmates at the Ellis Unit, including Mr.
Cathey, are also consistent with mental retardation.
Dr. Proctor submitted that it is possible that Mr.
Cathey was asked to participate in the escape attempt
because he is gullible, and Dr. Proctor also conceded
that Mr. Cathey did not plan the escape. [H.T. Vol. 7:
13-14]. There is no evidence in the affidavits of Mr.
Cathey’s family members that indicated any
leadership characteristics. [H.T. Vol. 7: 15]. It is also
dispositive that Mr. Cathey was unsuccessful in his
escape attempt and that he was caught by prison
officials at the top of a second fence surrounding the
Ellis Unit.
155. Self-esteem. Mr. Cathey’s adaptive deficits
caused him to suffer a further impairment of his selfesteem. Mr. Cathey’s brother explains that “Eric
always felt that he wasn’t as good as everybody else.

257a
He was often very hurt about the way other kids
treated him and was upset that he didn’t have many
friends.” [DX 43, Affidavit of Robert Charles Cathey,
Jr.].
156. Charlotte Ross, Mr. Cathey’s older sister,
confirms and recounts first-hand experience with Mr.
Cathey’s low self-esteem [DX 42, Affidavit of
Charlotte Ross]:
Eric got upset very easily. He never
talked about his emotions, but I used to
find him crying. He used to get really
frustrated when we were doing
something that Eric couldn’t do as well
as us. For example, I was a tomboy when
I was young and used to be better than
him at football. This really upset him. He
always looked to us siblings for
reassurance and to tell him that things
would be okay, especially when he got
picked on or told off by his father.
157. Avoiding being victimized. Mr. Cathey was
not able to avoid being a victim during his childhood.
He was often bullied by other children, as described
by his older sister:
Some kids picked on him at school once,
and instead of fighting back or getting a
teacher, he jumped out of a second story
window and ran away. On another
occasion, Eric was at the public pool and
some older guys picked on him and he got
a beating. He didn’t fight back. [DX42,
Affidavit of Charlotte Ross].
158. Other children took advantage of his impaired

258a
functioning, as described by his brother:
Eric was often teased by other kids
because they thought he was “weird” and
because he was tall and skinny. Eric
found it difficult to avoid fights because
he always reacted to teasing and could
never shrug off insults. Kids in the
neighborhood knew how to wind him up
and enjoyed provoking him. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
159. Interpersonal relations. Mr. Cathey was
severely impaired in terms of interpersonal
relationships. Although Mr. Cathey quit school early
and married Ms. Bryant after she became pregnant
with his child, Ms. Bryant divorced and left him for
someone else. [DX 48, Vol. 23: 27]. Even Ms. Bryant
recounted Mr. Cathey’s limited functioning in the
context of married life [DX 44, Affidavit of Noaella
Bryant]:
What Eric thought was really funny
annoyed me. He used to jump out at me
when it was dark and when I was in the
house and thought I was alone. I would
tell him that he was scaring me, but he
laughed and kept doing it. Eric didn’t
understand why it wasn’t funny. We
fought a lot about this.
160. Mr. Cathey’s older sister also remembers her
brother’s interpersonal difficulties [DX 42, Affidavit of
Charlotte Ross]:
I never knew Eric to have any friends.
The only friends that he had were mine
and his other sister’s and brother’s

259a
friends. Sometimes, when our friends
came around, they would think he was
weird at the beginning because he was
tall, lanky, and never said anything. He
would be quiet and stay in his own space.
161. Mr. Cathey’s brother confirms and also
provides further evidence of Mr. Cathey’s impaired
adaptive functioning [DX 43, Affidavit of Robert
Charles Cathey, Jr.]:
Eric was not very social and did not
speak to many people. When family
friends and relatives visited the· house,
he did not want to be around them and
wandered off on his own. He would often
ignore visitors when they spoke to him.
Eric was often teased by other kids
because they thought he was “weird” and
because he was tall and skinny. Eric
found it difficult to avoid fights because
he always reacted to the teasing and
could never shrug off insults. Kids in the
neighborhood knew how to wind him up
and enjoyed provoking him.
Eric always felt that he wasn’t as good as
everybody else. He was often very hurt
about the way other kids treated him
and was upset that he didn’t have many
friends.
162. Dr. Walter Quijano, a licensed clinical
psychologist who testified at the punishment phase of
Mr. Cathey’s trial, administered to Mr. Cathey a
Mallon Clinical Inventory on February 28, 1997 and
testified at trial that Mr. Cathey has a dependent and

260a
compulsive type of personality. [DX 48, Trial
Transcript, Vol. 23 :42]. Dr. Quijano described these
personality types as follows:
The dependent personality is one that
uses the relationship to hang on to their
relationship. Their relationship is not
reciprocal like most normal relationships
are, but
the
dependent person
ingratiates, holds, does things for the
other
person
not
because
the
relationship is reciprocal but because
you want to hold on to that relationship.
So, you are bound to do things that you
don’t otherwise want to do or to do
humiliating things to purchase that
relationship.
The compulsive is similar except that the
trick used by the compulsive is to keep
the distance, to not express true feelings,
not express true opinions, less he
displeases the other person and so he
would appear very compliant with rules,
regulations, will do everything properly,
cross the t’s and dot the i’s, not because
it’s rewarding for him, but again because
he wants that relationship to continue.
[DX 48, Trial Transcript, Vol. 23:42-43]. The Court
finds these personality traits consistent with mental
retardation.
163. Dr. Proctor testified that he did not know if
Mr. Cathey was good at making friends, and there is
no evidence from the trial transcript that Mr. Cathey
had this characteristic. The affidavits of Mr. Cathey’s

261a
family members indicated Mr. Cathey was shy and
did not make friends. Dr. Proctor admitted that this
fact, if true, would indicate a deficit in social adaptive
behavior. [H.T. Vol. 6: 207].
164. The fact that Mr. Cathey married and had
children is still consistent with mental retardation.
Not only did Mr. Cathey’s wife divorce him and state
she did not trust him with the children, Dr. Fletcher
testified that even people with mental retardation get
married. [H.T. Vol. 5:51].
D. Practical Skill Area
165. The Court finds that Mr. Cathey has the
following deficits in the practical skill area:
166. Activities of daily living. Mr. Cathey’ s ability
to take care of his daily activities was significantly
impaired by his mental retardation. Mr. Cathey’s
older sister, Charlotte Ross, verified that he was very
dependent on others and unable to manage the
simplest activities:
Eric could never do the washing or the
cooking. I would always do that. He
never helped me with chores around the
house unless I asked him. I would always
have to tell him what to do. He would
never do anything like that on his own
initiative. Sometimes, I would make the
cleaning and washing up into a game, so
that he would help me. I taught him how
to use the microwave and how to clean
around the house. [DX 42, Affidavit of
Charlotte Ross].
167. As confirmed by Mr. Cathey’s family, even

262a
with direction, Mr. Cathey was unable to manage his
home life and marriage:
When he first moved in with me, he could
hardly do anything around the house. I
had to tell him how to wash clothes and
cook. I remember he didn’t even know
how to flip a hamburger patty. I had to
show him how to do everything. I often
left notes for him around the house, so
that he would remember to do chores and
things for the kids, but he often didn’t
finish the chores that I left for him. Eric
also didn’t know how to fix anything
around the house. I always had to call
someone out to fix things. [DX 44,
Affidavit of Noaella Bryant].
One time I went over to see Eric at their
apartment. Noaella had post-it notes all
over the place telling him what to do and
when to do it. The walls were completely
yellow with post-it notes, but he did not
finish what she told him to do. I noticed
that the house was still very messy
though. It was-horrible in there. There
were food and clothes everywhere. [DX
42, Affidavit of Charlotte Ross].
168. Dr. Proctor testified that people with mild
mental retardation can master practical skills, can be
aware of their pending execution, can be aware of the
need to buy things, can ask for other people for money,
can ask other people for help, and can be aware of
future court hearings. [H.T. Vol. 6: 277]. Dr. Proctor
agreed that it would be unsound and unreliable expert
methodology to conclude that a person did not have

263a
adaptive behavioral deficits by pointing to his
strengths. [H.T. Vol. 6: 213]. To rely on the fact that a
person does not have adaptive behavioral deficits by
focusing on their strengths is a position that is
unsupported in peer-reviewed literature. [H.T. Vol.
6:214].
169. Use of safety. Mr. Cathey was significantly
impaired in assessing risks and taking precautions.
His sister and brother both recount several occasions
when Mr. Cathey injured himself because of his
failure to assess risk:
On one occasion, we were chasing each
other around a wall. Eric hit his head so
hard it knocked him down, but he got up
and started running and laughing again.
He ran into the wall and hit his head
again, busting it open this time, but
again just got up and carried on running.
This continued until we had to stop him
and tell him that he was hurt. [DX 42,
Affidavit of Charlotte Ross].
Eric was just not aware of risk. If what
he was doing involved risks, he never
made sure that he was safe. He wouldn’t
think to do anything if he got hurt, we
would have to tell him to or do it for him.
Eric got injured a lot. When he was 8 or
9, he cracked his head swinging on a
clothes line. Once, he got spooked by a
bug on the wall and fell off and bumped
his head. Another time, at the age of 8,
Eric fell off a merry-go-round and
bumped his head so hard he passed out.
Around the same age, he broke his arm

264a
swinging on some monkey bars. [DX 42,
Affidavit of Charlotte Ross].
If anything was out of place in the house,
we would immediately think it was Eric
For example, if there was blood on the
walls, we would check Eric’s head and
see if there was a bruise. A saying
developed in our house that it was just
“typical Eric.” [DX 42, Affidavit of
Charlotte Ross].
Eric was especially accident-prone as a
child and often tripped over things.
When he was 9 or 10 years old, he fell off
the porch and injured his head. I
remember my mother and the rest of the
family saying that Eric had “lost his
mind” because of his dazed behavior
after the accident. I also remember him
breaking his arm in Emancipation Park.
[DX 43, Affidavit of Robert Charles
Cathey, Jr.].
170. The incident in which Mr. Cathey fell from the
monkey bars required surgery and a three-day
hospital stay. [DX 46, Harris County Hospital District
Medical Records].
171. Occupational skills. Mr. Cathey had difficulty
obtaining and keeping a steady job. His former wife
explains Mr. Cathey’s impaired occupational skills
[DX 44, Affidavit of Noaella Bryant]:
Our son Eric was born in 1989. Eric had
to get a job to bring in the income. I had
to look for jobs for Eric because he didn’t
look himself. He used to tell me that he

265a
didn’t think that he could get a good job
because he didn’t have any skills. He had
never learned any trades. He sat at home
for a long time with no work. I told him
that he had to get a job so that we could
pay for rent. Eric eventually got a job as
a security guard. He worked by himself
at night, five nights a week. The only
thing that he told me about the job was
that he had a flashlight, and he might be
getting a permit to carry a gun. Eric was
fired from the job because he didn’t wait
to be relieved by the person who came to
take over his shift.
172. Mr. Cathey’s older sister also confirmed Mr.
Cathey’s impairment in occupational skills [DX 42,
Affidavit of Charlotte Ross]:
When Eric was still living at home, my
husband and I got Eric to come to work
with us. We felt like we needed to help
him out. We never gave him any
responsibility though, because Eric
would mess it up. Eric would never have
gotten stressed if we gave him any
responsibility. He was so used to being
told what to do. I always felt like he
needed this guidance, because he
couldn’t cope with things by himself.
173. At the punishment phase of Mr. Cathey’s
trial, Mr. Luke Ezeh, Ms. Charlotte Ross’s former
husband, testified that Mr. Cathey worked with him
at his battery shop for two years. [DX 48, Trial
Transcript, Vol. 22: 242-244]. Mr. Ezeh stated that his
business related to the reconditioning of car batteries

266a
and that he taught Mr. Cathey to check dead batteries
and also asked him to watch the shop for him while he
was away. Id. Dr. Proctor conceded that the work Mr.
Cathey performed at the battery shop was work a
person with mental retardation can perform. [H.T.
Vol. 6: 227-228]. Although Dr. Proctor used evidence
of Mr. Cathey’s occupational skills to evaluate
whether Mr. Cathey had adaptive behavior deficits,
Dr. Proctor also admitted that he did not know how
long Mr. Cathey held jobs, information that is
important to his own evaluation. [H.T. Vol. 6: 226].
174. The fact that Mr. Cathey worked, although he
was terminated, is consistent with mental
retardation. Dr. Fletcher testified that even people
with mental retardation are able to work and learn to
replicate specific tasks, like the tasks Mr. Cathey
performed at the battery shop. [H.T. Vol. 5: 51]. In his
interview of Ms. Bryant, Dr. Fletcher also learned
that when Mr. Cathey did find a job, often he could
not keep it. [H.T. Vol. 5: 159].
E. Testimony and Records from the TDCJ
175. During the evidentiary hearing to determine
whether Mr. Cathey meets the diagnostic criteria for
mental retardation, the State called several Texas
Department of Criminal Justice (“TDCJ”) correctional
officers and officials. The State also admitted records
from the TDCJ as evidence. The Court finds that the
environment in which the correctional officers and
officials observed Mr. Cathey is not indicative of
typical community functioning. All inmates are
housed in their cells twenty-three hours a day. The
prison officials tell inmates when to shower, recreate,
and eat. The prison system also supplies all

267a
necessaries to inmates. [H.T. Vol. 8:69].
176. Dr. Proctor agreed that prison guards are
typically not used for evaluating adaptive behavior
because their interaction with the assessed individual
is too limited. [H.T. Vol:·6: 185]. Dr. Proctor--the
State’s only witness to offer an opinion on whether Mr.
Cathey is a person with mental retardation--admitted
that he did not use, interview, or rely on any
communication with any prison guard or official for
his opinions that Mr. Cathey is not mentally retarded.
[H.T. Vol. 6: 241]. He also admitted that “the fact that
an individual possesses one or more skills that might
be thought by some laypersons as inconsistent with
the diagnosis of mental retardation cannot be taken
as disqualifying.” [H.T. Vol. 6: 212].
177. Although testimony from the State indicated
Mr. Cathey had several books in his cell, Captain
Bryant testified that he had not seen Mr. Cathey read
a book. [H.T. Vol. 8: 63]. There is also evidence that
inmates could easily pass, borrow, and share books
through a “4-inch-by-4 inch hole at the bottom of the
door ... “ [H.T. Vol. 8: 65]. Captain Bryant stated he
had seen some rather large items such as small
paperback books fit through the gaps, id., and Leah
Madison testified that inmates would pass papers,
reading materials, and almost anything they are
asked to pass. [H.T. Vol. 8: 81]. Dr. Fletcher also
indicated that people with mental retardation try to
impress others and make them think they know a lot
more than they really do. Having books like The
Echelon Vendetta [SX 21, State Inventory of Mr.
Cathey’s Cell], Tactics and Strategy of Chess [SX 21,
State Inventory of Mr. Cathey’s Cell], and The
Looking Glass [SX 21, State Inventory of Mr. Cathey’s

268a
Cell], in one’s cell when one has a history of reading
deficits, as Mr. Cathey has, is consistent with Dr.
Fletcher’s testimony. [H.T. Vol. 7: 191]. Further, Mr.
Faryion Wardrip, who lived next to Mr. Cathey at the
Polunsky Unit, provided a declaration that Mr.
Cathey would hold books for him and for another
inmate in his cell and that very often, inmates would
trade books and even letters through the gaps in the
cell doors. [DX 50, Declaration of Faryion Wardrip].
178. Similarly, although testimony from the State
indicated Mr. Cathey had a chess board, Captain
Bryant testified he had not seen Mr. Cathey play
chess. [H.T. Vol. 8: 65]. Investigator Don Cohn
admitted that he did not see any chess pieces in Mr.
Cathey’s cell. (H.T. Vol. 8: 21]. Dr. Proctor admitted
that he and others had made assumptions that Mr.
Cathey had been playing chess, when without
evidence of Mr. Cathey even having chess pieces, he
could have been playing checkers. [H.T. Vol. 7:97].
Further, Mr. Faryion Wardrip, who lived next to Mr.
Cathey at the Polunsky Unit, provided in a
declaration that Mr. Cathey did not play chess and
only had a chess board because he wanted to trade it
with another inmate. [DX 50, Declaration of Faryion
Wardrip]. Although Leah Madison stated she had
seen Mr. Cathey play chess, [H.T. Vol. 8: 77], her
testimony is inconsistent with the overwhelming
testimony and evidence that Mr. Cathey did not play
chess. Ms. Madison did not testify as to how long Mr.
Cathey played chess, how often he played chess, or
whether the pieces being used were actually chess
pieces.
179. The fact that Mr. Cathey has an internet
profile is no evidence that Mr. Cathey is not a person

269a
with mental retardation. [SX 13, Internet Profile of
Eric De Wayne Cathey]. Dr. Proctor admitted that
inmates do not have access to the internet and that
someone else must have posted the profile in Mr.
Cathey’s name. [H.T. Vol. 6: 278].
180. The State presented evidence of visitor
records, including documentation of visits made to Mr.
Cathey by his attorneys and clergy. [SX 15, TDCJ
records]. The State stated on record that use of the
visitor records was solely to show what changes had
been made to Mr. Cathey’s visitor list, also stating the
visitor records were received as part of the entire
TDCJ file. [H.T. Vol. 6: 167]. The Court finds that
these records are irrelevant to the issue of whether
Mr. Cathey is mentally retarded.
VII. PRONG THREE: ONSET BEFORE THE
AGE OF EIGHTEEN
181. There is credible and reliable evidence that
Mr. Cathey suffered from significant deficits in
intellectual and adaptive functioning before the age of
18. Although the limitation in his functioning was not
formally documented before the age of 18, all risk
factors commonly associated with mental retardation
were present prior to Mr. Cathey turning 18. No
evidence was presented at the evidentiary hearing
that established an intervening cause after the age of
18 that could account for Mr. Cathey’ s limitations in
intellectual and adaptive functioning.
182. The Court finds that Mr. Cathey exhibited
significantly
subaverage
general
intellectual
functioning concurrent with deficits in adaptive
behavior that originated before the age of 18.

270a
VIII. OTHER EVIDENCE INDICATIVE OF
MENTAL RETARDATION (EX PARTE
BRISENO FACTORS)
183. In Ex Parte Briseno, the court provided a short
list of other evidentiary factors that a factfinder
“might also focus” on when weighing evidence of
mental retardation: (a) did those who knew the person
best during the developmental stage think he was
mentally retarded, and if so, act accordingly; (b) has
the person formulated plans and carried them
through or is his conduct impulsive; (c) does his
conduct show leadership or does it show that he is led
around by others; (d) is his conduct in response to
external stimuli rational and appropriate, regardless
of whether it is socially acceptable; (e) does he respond
coherently, rationally, and on point to oral or written
questions or do his responses wander from subject to
subject; (f) can the person hide facts or lie effectively
in his own or others’ interests; and (g) putting aside
any heinousness or gruesomeness surrounding the
capital offense, did the commission of the offense
require forethought, planning, and complex execution
of purpose. 135 S.W.3d at 8.
184. The Court finds that these factors serve only
as mere guides and are suggestions of the court.
Indeed, the so-called “Briseno factors” are not
advocated by the AAIDD Manual and weaken and
obscure the constitutional determination of mental
retardation that is required. [DX 15, John H. Blume,
Sheri Lynn Johnson & Christopher Seeds, Of Atkins
and Men: Deviations from Clinical Definitions of
Mental Retardation in Death Penalty Cases, 18
CORNELL J. L. & PUB. POL’Y 689, 711-714 (2009)]. A
recent article, defining a section on Briseno as “The

271a
Glass Half-Full Perspective,” provides further insight:
The Briseno factors present an array of
divergences from the clinical definitions
in applying Atkins. For one, as the
court’s statement indicates, Briseno
erroneously pits mental retardation
against disorders in an either-or
dichotomoy. Further, the factors by
turns adhere to stereotype or label...and
focus solely on adaptive strengths...Even
the factors that do point to traits that
“occur with sufficient frequency to
warrant
certain
limited
generalizations...fail
to
address
significant qualifications to these
generalizations...Overall, the Briseno
factors narrow the scope of relevant
behaviors to a limited group of
questions from a universe of
possibilities, and as such fail to fully
address all skill areas set out in the
clinical definitions...Thus, a factfinder
applying all the factors will not
necessarily have assessed the full
possibility of adaptive deficits, and
cannot therefore rule out the possibility
of significant limitations in adaptive
functioning.
Id. (emphasis added). Dr. Fletcher testified that even
though the Briseno opinion was issued by the Texas
Court of Criminal Appeals in 2004, the standard did
not take into account the 2002 edition of what was
then the AAMR standards. Ex Parte Briseno also
makes recommendations that are not accepted

272a
practice in the field of psychology for diagnosing
mental retardation. [H.T. Vol. 7: 209]. This Court
finds that the factors advocated in Ex Parte Briseno
are not binding and that these factors have guided but
not formed its opinion on whether Mr. Cathey is a
person with mental retardation.
185. Even if the Court found the Briseno factors
were binding and dispositive, an analysis of these
factors supports the finding that Mr. Cathey is a
person with mental retardation.
186. It is irrelevant that no fact witness for Mr.
Cathey at the punishment phase of his trial testified
that Mr. Cathey had mental retardation. The fact
witnesses were not asked this question directly, which
is not a surprise given that in 1997 when Mr. Cathey
was tried, mental retardation was not a bar to the
death penalty. Atkins v. Virginia, 536 U.S. 304 (2002).
187. There is no evidence that Mr. Cathey
formulated plans and carried them through. In fact,
Dr. Yohman, at the punishment phase of Mr. Cathey’
s trial, testified that he administered tests related to
Mr. Cathey’s ability to organize or plan and that Mr.
Cathey was very “poor” at these tests and took “kind
of a random approach” to performing tasks. [DX 48,
Trial Transcript, Vol. 23: 23].
188. There is no evidence that Mr. Cathey ever led
anyone in anything. There is no evidence in the
affidavits of Mr. Cathey’s family members, for
instance,
that
indicated
any
leadership
characteristics. [H.T. Vol. 7: 15]. On cross
examination at the punishment phase of ·Mr.
Cathey’s trial, Dr. Yohman testified that Mr. Cathey
is “a follower, who is very unsophisticated, who has

273a
limited intellectual resources, and who is going to
gravitate to whoever will give him attention and
affection, who is going to be easily manipulated.” [DX
48, Trial Transcript, Vol. 23:35]. Mr. Cathey’s family
members provided affidavits confirming the same:
• “When Eric was young, other kids
would tell him to do things and he would
just agree.” [DX 42, Affidavit of
Charlotte Ross];
• “He always followed the lead of others
and rarely made decisions for himself.”
[DX 43, Affidavit of Robert Charles
Cathey, Jr.];
• “Eric was never a leader. He always
followed. He told me that he just wanted
to fit in.” [DX 44, Affidavit of Celecia
Baker].
189. Briseno also asks whether conduct in response
to external stimuli is rational and appropriate,
regardless of whether it is socially acceptable, and
whether a person can lie effectively in his own or other
interests. There is no evidence that Mr. Cathey could
do either. [add]
190. Even the capital offense for which Mr. Cathey
was found guilty did not demonstrate forethought,
planning, or complex execution of purpose on his part.
Dr. Proctor admitted, for example, that Mr. Cathey
did not plan the kidnapping, was not a passenger of
the car that was surveying the victim, did not drive
either car involved in committing the crime, and did
not ask any questions of the victim. [H. T. Vol. 7: 17].
Courts have affirmed that impulsive crimes are not
the sort of crimes that require forethought and

274a
planning. Carr v. State, No. 71,634 (Tex. Crim. App.
May 17, 1995) (unpublished), Ex parte Carr, No. AP75,627 (Tex. Crim. App. Feb. 28, 2007) (unpublished)
(finding Carr to have mental retardation even though
he shot a pregnant 16-year-old in the forehead while
robbing a convenience store); Modden v. State, 721
S.W.2d 859, 860 (Tex. Crim. App. 1986), Ex parte
Modden, 147 S.W.3d 293, 307 (Tex. Crim. App. 2004)
(finding Modden to have mental retardation even
though he stabbed a convenience store clerk 16 times
in the face and neck in the course of a robbery).
IX.RISK FACTORS FOR MENTAL
RETARDATION
191. The AAIDD Manual sets forth risk factors
commonly associated with mental retardation. The
four categories of risk factors are: (1) biomedical:
factors that relate to biologic processes; (2) social:
factors that relate to social and family interaction; (3)
behavioral: factors that relate to potentially causal
behaviors; and (4) educational: factors that relate to
the availability of educational supports that promote
mental development and the development of adaptive
skills. [DX 4, AAIDD Manual at 60]. Mental
retardation often reflects the cumulative or
interactive effects of multiple risk factors.
192. The AAIDD Manual highlights that the
etiology of mental retardation may facilitate
diagnosis. The AAIDD Manual states that “All
relevant risk factors are identified, including those
that are thought to be most important (such as
trisomy 21 or Down syndrome) as well as those that
are thought to be less important (such as social
deprivation or lack of timely educational
intervention). The presence of interactions between

275a
risk factors are then evaluated and described.
Etiological diagnosis and classification thus consists
of a comprehensive list of all of the risk factors and
interactions among risk factors for which the
available data provide sufficient evidence.” [DX 4,
AAIDD Manual at 68].
193. Because of correlation between risk factors
and mental retardation, it is relevant to this Court to
determine whether Mr. Cathey’s history contains any
of the risk factors for mental retardation identified by
the AAIDD Manual. There is ample evidence from the
family history witnesses that establish Mr. Cathey
was exposed to all risk factors commonly associated
with mental retardation. The presence of these risk
factors lends further weight to the diagnosis of mental
retardation in this case.
A. Biomedical Risk Factors
194. Traumatic brain injury is a risk factor
included within the biomedical category. [DX 4,
AAIDD Manual, Table 6.1 at 60]. Mr. Cathey presents
numerous occasions of serious head trauma during his
childhood. At age two, Mr. Cathey “allegedly fell &
struck edge of table,” according to hospital records.
[DX 46, Harris County Hospital District Medical
Records]. His older sister Charlotte Ross recounts
other head injuries for with Mr. Cathey did not receive
medical attention [DX 42, Affidavit of Charlotte Ross]:
On one occasion ... Eric hit his head so
hard [on a wall] it knocked him down ...
He ran into the wall and hit his head
again, busting it open this time.
Once, he got spooked by a bug on the wall
and fell off and bumped his head.

276a
Another time, at the age of 8, Eric fell off
a merry-go-round and bumped his head
so hard he passed out.
195. Mr. Cathey’s younger brother confirms and
recalls two more serious blows to the head [DX 43,
Affidavit of Robert Charles Cathey, Jr.]:
When he was 9 or 10 years old, he fell off
the porch and injured his head. I
remember my mother and the rest of the
family saying that Eric had “lost his
mind” because of his dazed behavior
after the accident.
[W]hen Eric was 15 or 16, ... [he was hit]
in the face with a vase ... The vase
smashed, leaving him with a scar down
his face.
196. Mr. Cathey’s younger sister remembers “He
must have busted his head open at least twice but I
can’t remember his exact age.” [DX 45, Affidavit of
Celecia Baker].
B. Social Risk Factors
197. An impaired child-giver and adult nonresponsiveness are risk factors included within the
social category of risk factors for mental retardation.
[DX 4, AAIDD Manual, Table 6.1 at 60]. Mr. Cathey’s
mother showed signs of impairment: “When I first
started going with Eric, I thought his family was very
weird. Their house was completely out of the order. It
was disgusting. Everything was completely chaotic.
Eric’s mother seemed very slow.” [DX 44, Affidavit of
Noaella Bryant].
198. Mr. Cathey’s mother was also non-responsive:

277a
“Eric sometimes told me that he felt left out and
different from Robert, my older sister Charlotte, and
me. He often said that our mother didn’t like him as
much and that she treated him differently.” [DX 45,
Affidavit of Celecia Baker]. Mr. Cathey’s older sister
also had to call the ambulance when he broke his arm,
rather than his own parents. [DX 42, Affidavit of
Charlotte Ross].
199. During the punishment phase of Mr. Cathey’s
trial, Mr. Cathey’s mother, Ms. Willie Lee Cathey,
testified that her husband, Mr. Cathey’s father, sold
drugs, used drugs, and drank wine and beer in the
home. When he would drink, Mr. Cathey’s father
would become mean and violent and would “get his
gun” after the children and Ms. Cathey. [DX 48, Trial
Transcript, Vol. 23: 87].
C. Behavioral Risk Factors
200. Child abuse and neglect, domestic violence,
and social deprivation are included within the
behavioral category of risk factors for mental
retardation. [DX 4, AAIDD Manual, Table 6.1 at 60].
As attested to by his family members, Mr. Cathey was
exposed to extraordinary levels of violence and neglect
once his father began dealing drugs from home:
While we were growing up, our father
was a drug dealer ...There was drug
dealing, drug use, and prostitution in our
house. The house could be chaotic with
people firing guns and shouting and
cursing. Eric and I and our sister Lisa
would run and hide in the bedroom. One
time, we climbed out of the bedroom

278a
window to hide in the yard. [DX 43,
Affidavit of Robert Charles Cathey, Jr.].
201. At the punishment phase of Mr. Cathey’s
trial, Mr. Cathey’s older sister, Ms. Charlotte Ross,
testified about the violent, chaotic, and abusive
environment in the home. [DX 48, Trial Transcript,
Vol. 22: 202-206] (testifying that Mr. Cathey’s father
was a drug dealer, their home was robbed twice, and
the children would constantly be yelled at by their
parents). Ms. Ross also testified that neither she nor
her siblings would discuss the robberies because it
was a “taboo” in the house. [DX 48, Trial Transcript,
Vol. 22: 207].
202. During the punishment phase of his trial, Mr.
Cathey’s mother, Ms. Willie Lee Cathey, confirmed
and testified that Mr. Cathey’s father sold drugs for
many years from the house. [DX 48, Trial Transcript,
Vol. 23: 83]. Ms. Cathey also testified that her
husband, Mr. Cathey’s father, was robbed twice in the
house at gunpoint, and during one occasion, the entire
family hid underneath a table. [DX 48, Trial
Transcript, Vol. 23: 83-86].
D. Educational Risk Factors
203. Impaired parenting and inadequate family
support leads to educational risk factors. [DX 4,
AAIDD Manual, Table 6.1 at 60].
204. The affidavits of Mr. Cathey’s family members
indicate there was inadequate family support in the
household. “There was drug-dealing, drug use, and
prostitution in our house. The house could be chaotic
with people firing guns and shouting and cursing.”
[DX 43, Affidavit of Robert Charles Cathey, Jr.].

279a
X. DETERMINATION CONCERNING
MENTAL RETARDATION
205. Mr. Cathey is a person with mental
retardation. His full scale obtained score of 77 on the
W AIS-R, administered by Dr. Yohman, without
correction for the Flynn Effect, demonstrates that his
intellect is firmly in the range of mild mental
retardation, as recognized by the AAIDD Manual.
With correction for the Flynn Effect, Mr. Cathey’s
score on the WAIS-R is a 71.6, and after applying the
standard error of measurement, his corrected score
falls within the range of mental retardation. The
finding of mental retardation is further supported by
Dr. Fletcher’s determination that Mr. Cathey has
significant deficits in adaptive functioning in the
conceptual, social, and practical realms that place him
more than two standard deviations below the mean in
adaptive functioning. Taking into account all of this
evidence, Mr. Cathey meets the diagnostic criteria for
mental retardation. [H.T. Vol. 3:57].
CONCLUSIONS OF LAW
206. The preponderance of the evidence establishes
that Mr. Cathey has significantly subaverage general
intellectual functioning.
207. The preponderance of the evidence shows that
Mr. Cathey suffers from significant deficits in
adaptive behavior.
208. The preponderance of the evidence shows that
Mr. Cathey exhibited significantly subaverage
general intellectual functioning concurrent with
deficits in adaptive behavior that originated before
the age of 18.
209. The preponderance of the evidence shows

280a
several risk factors for mental retardation present in
Mr. Cathey’s history.
210. The preponderance of the evidence shows that
Mr. Cathey is a person with mental retardation.
Accordingly, under the holdings of Atkins v. Virginia,
536 U.S. 304 (2002), and Ex parte Briseno, 135 S.W.3d
1 (Tex. Crim. App. 2004), he cannot be put to death.
His death sentence must be modified to a sentence of
life imprisonment.
211. The Flynn Effect is a scientifically valid and
reliable phenomenon applied to correct for norm
obsolescence.
212. The Flynn Effect is used by clinical
practitioners in the diagnosis of mental retardation
and is used by practitioners outside the criminal
justice system to correct for norm obsolescence.
213. The Flynn Effect should be applied to
individual test results to correct for norm obsolescence
when a test with aging norms is used, and it is a
generally accepted scientific procedure.
214. The Flynn Effect has a known or potential
error rate sufficiently precise to be applied.
215. Any findings of fact determined to be
conclusions of law shall be such, and any conclusion of
law determined to be a finding of fact shall be so.
SIGNED this 31 day of December, 2012.
/s/Shawna L. Reagin
Hon. Shawna L. Reagin
Presiding Judge of the 176th
Criminal District Court, Harris
County, Texas

281a
Respectfully Submitted,
K.S. “Gator” Dunn
Attorney at Law
State Bar No. 00789266
101 W. Philipps Street, Suite 113
Conroe, Texas 77301
Telephone: (936) 760-3300
Mailing Address:
594 Sawdust Road, Suite 332
The Woodlands, Texas 77380
Telephone: (281) 362-7156
Telecopier: (936) 321-8643
/s/Layne E. Kruse
Layne E. Kruse
State Bar No. 11742550
Brett Young
State Bar No. 24042203
Adam Bernhard
State Bar No. 24069373
Sumera Khan
State Bar No. 24064319
FULBRIGHT & JAWORSKI L.L.P.
1301 McKinney, Suite 5100
Houston, Texas 77010-3095
Telephone: (713) 651-5151

282a
Telecopier: (713) 651-5246
Counsel for Eric Dewayne Cathey
CERTIFICATE OF SERVICE
I hereby certify that on this 21st day of February,
2011, copies of these Proposed Findings of Fact and
Conclusions of Law was served by certified mail on the
Respondent at the following addresses:
Roe Wilson, Esq.
Office of the Harris County District Attorney
1201 Fannin, Suite 600
Houston, Texas 77002
/s/ Layne Kruse
Layne Kruse

283a
CAUSE NO. 713189-B
EX PARTE

§

ERIC DEWAYNE
CATHEY,

§

Applicant.

§

§
§

IN THE
DISTRICT
COURT
HARRIS
COUNTY, TEXAS
176TH DISTRICT
COURT

ORDER
The Clerk is hereby ORDERED to prepare a
transcript of all papers in Cause No. 713189-B and
transmit same to the Court of Criminal Appeals, as
provided by Article 11.071 of the Texas Code of
Criminal Procedure. The transcript shall include
certified copies of the following documents:
1. All of the Applicant’s pleadings filed in Cause No.
713189-B, including his Application for Writ of
Habeas Corpus;
2. All of the Respondent’s pleadings filed in Cause
No. 713189-B, including the Respondent’s Original
Answer and Supplemental Answer;
3. All affidavits and exhibits filed in Cause No.
713189-8;
4. This Court’s findings of fact, conclusions of law
and order recommending relief in Cause No. 7131898;
5. Any Proposed Findings of Fact and Conclusions of
Law submitted by either the Applicant or the
Respondent in Cause No. 713189-B;

284a
6. The reporter’s record of the writ hearing held
January 22-26, 2010, in Cause No. 713189-B; and
7. The indictment, judgment, sentence, docket sheet
and appellate record in Cause No. 713189, unless they
previously have been forwarded to the Court of
Criminal Appeals.
The Clerk is further ORDERED to send a copy of
the Court’s findings of fact and conclusions of law,
including its order, to Applicant’s counsel: Layne
Kruse, Fulbright & Jaworski, 1301 McKinney, Suite
1500, Houston, Texas 77010 and to Respondent: Roe
Wilson, Harris County District Attorney’s Office, 1201
Franklin, Suite 600, Houston, Texas 77002.
BY THE FOLLOWING SIGNATURE, THE
COURT
ADOPTS
THE
APPLICANT’S
PROPOSED
FINDINGS OF FACT AND
CONCLUSIONS OF LAW IN CAUSE NO. 7131898.
SIGNED this 31ST day of December, 2012.
/s/Shawna L. Reagin
SHAWNA L. REAGIN, JUDGE
176TH
DISTRICT
COURT,
HARRIS COUNTY, TEXAS

